<html>
<title> - NATION'S FOREST HEALTH PROBLEMS</title>
<body><pre>[Senate Hearing 108-140]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-140

                    NATION'S FORESTS HEALTH PROBLEMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                                S. 1314

  TO EXPEDITE PROCEDURES FOR HAZARDOUS FUELS REDUCTION ACTIVITIES ON 
  NATIONAL FOREST SYSTEM LANDS ESTABLISHED FROM THE PUBLIC DOMAIN AND 
 OTHER PUBLIC LANDS ADMINISTERED BY THE BUREAU OF LAND MANAGEMENT, TO 
IMPROVE THE HEALTH OF NATIONAL FOREST SYSTEM LANDS ESTABLISHED FROM THE 
PUBLIC DOMAIN AND OTHER PUBLIC LANDS ADMINISTERED BY THE BUREAU OF LAND 
                   MANAGEMENT, AND FOR OTHER PURPOSES

                                S. 1352

  TO EXPEDITE PROCEDURES FOR HAZARDOUS FUELS REDUCTION ACTIVITIES AND 
  RESTORATION IN WILDLAND FIRE PRONE NATIONAL FORESTS, AND FOR OTHER 
                                PURPOSES

                               H.R. 1904

    TO IMPROVE THE CAPACITY OF THE SECRETARY OF AGRICULTURE AND THE 
SECRETARY OF THE INTERIOR TO PLAN AND CONDUCT HAZARDOUS FUELS REDUCTION 
                              PROJECTS ON 
NATIONAL FOREST SYSTEM LANDS AND BUREAU OF LAND MANAGEMENT LANDS AIMED 
AT PROTECTING COMMUNITIES, WATERSHEDS, AND CERTAIN OTHER AT-RISK LANDS 
 FROM CATASTROPHIC WILDFIRE, TO ENHANCE EFFORTS TO PROTECT WATERSHEDS 
     AND ADDRESS THREATS TO FOREST AND RANGELAND HEALTH, INCLUDING 
  CATASTROPHIC WILDFIRE, ACROSS THE LANDSCAPE, AND FOR OTHER PURPOSES

                               __________

                             JULY 22, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

89-739              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                Frank Gladics, Professional Staff Member
                    Kira Finkler, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Bunning, Hon. Jim, U.S. Senator from Kentucky....................     3
Burns, Hon. Conrad, U.S. Senator from Montana....................     6
Covington, Dr. W. Wallace, Director, Ecological Restoration 
  Institute, Northern Arizona University.........................    63
Craig, Hon. Larry E., U.S. Senator from Idaho....................     4
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Duncan, Sara, Coordinator of Intergovernmental Affairs, Denver 
  Water Board, Denver, CO........................................    68
Feinstein, Hon. Dianne, U.S. Senator from California.............     9
Johnson, Hon. Tim, U.S. Senator from South Dakota................     9
Martz, Hon. Judy, Governor, State of Montana, on behalf of the 
  Western Governors' Association.................................    14
McCarthy, Laura, Forest Trust, Sante Fe, NM......................    52
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................    10
Napolitano, Hon. Janet, Governor, State of Arizona...............    18
Nivison, Michael, Chair, Otero County Commission, Otero, NM......    75
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................    33
Robinson, Tom, Director of Government Affairs, Grand Canyon 
  Trust, Flagstaff, AZ...........................................    58
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    12
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    14
Vincent, Bruce, Executive Director, Communities for a Greater 
  Northwest, Libby, MT...........................................    70
Watson, Rebecca, Assistant Secretary, Land and Minerals 
  Management, 
  Department of the Interior.....................................    32
Wyden, Hon. Ron, U.S. Senator from Oregon........................     6

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    81

                              Appendix II

Additional material submitted for the record.....................    83

 
                    NATION'S FOREST HEALTH PROBLEMS

                              ----------                              


                         TUESDAY, JULY 22, 2003

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Now we're going to proceed with the hearing. 
We have a series of panels, important testimony, and a genuine 
amount of interest on the part of Senators. So I will try to be 
fair but expedite.
    I want to open the hearing by thanking my ranking member, 
Senator Bingaman and each of committee members for taking time 
to come to this hearing.
    I would like to insert in the record my prepared remarks at 
this moment, regarding the reality of where the jurisdiction 
lies and what is going to happen with various bills. I think 
you know by now that the principle bill that came over to us 
from the House was referred to the Agriculture Committee by the 
Parliamentarian. We thought better of trying to contest it for 
a lot of reasons. They are proceeding with dispatch. They will 
report a bill to the floor of the Senate soon. Soon being?
    Mr. Gladics. They are going to do a markup tomorrow.
    The Chairman. We have our own responsibility and, of 
course, with a bill coming out of the assigned committee going 
to the floor, we are going to have to decide what we do. Do we 
report a bill? Do we report and send it to the floor and try to 
impose it at given times on that bill? Do we try to superimpose 
the entire bill with a bill of ours? Obviously, those decisions 
can be made soon.
    We are here today to hear testimony on the forest health 
legislation and to have dialogue on the issues that seem to 
keep us from dealing with the problem in our forests. The bills 
that we have before us, as I have them noted, are S. 1314, 
introduced by Senators Bingaman and Daschle; S. 1352 introduced 
by Senators Wyden and Feinstein; H.R. 1904, the House-passed 
forest health bill which I just described as being physically 
and power-wise in the jurisdiction of the Ag Committee of the 
Senate.
    As I see it, there are a handful of key differences in the 
proposals. There may be many more. But as I see it, the 
appropriate number of acres for each project is the difference 
in the bills. Whether the focus will be solely on wildland-
urban interface or not is an issue and the degree of equipment 
limitations for the projects, the number of alternatives that 
must be analyzed, and different administrative appeals 
processes and court reviews, and last my analysis, whether 
courts should be directed to balance short-term risk against 
potential for long-term harm.
    I want to thank the Governor of Arizona, Janet Napolitano, 
for coming here to represent the Western Governors' 
Association. I know it is hard to make trips like this when 
your State has been in the brunt of that young fire season and 
the other issues that you obviously have.
    I want to thank Governor Judy Martz from the State of 
Montana for coming to testify on such short notice and under 
the same kind of difficulties that I have just underscored for 
Governor Napolitano.
    In a few minutes, we are going to hear Under Secretary of 
Agriculture, Mark Rey, and Rebecca Watson, the Department of 
the Interior's Assistant Secretary for Land and Minerals 
Management, and I also want to extend a special welcome to 
Otero County, New Mexico Commissioner Mike Nivison and Ms. 
Laura McCarthy of the Forest Trust in Santa Fe, New Mexico. 
Welcome to both of you.
    Now, opening statements. If there are any, let us do them 
now. Senator Bingaman, you are first.
    [The prepared statements of Senators Domenici and Bunning 
follow:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    I want to open this hearing by thanking my Ranking Member Senator 
Jeff Bingaman and each of the Committee members for taking the time to 
come to this very important hearing.
    We are here to take testimony on S. 1314--Senator Bingaman and 
Daschle's forest health legislation, S. 1352--Senator Wyden and 
Feinstein's forest health legislation and H.R. 1904--the House passed 
forest health legislation and to discuss the issues that seem to keep 
us from dealing with the forest health issue.
    I want to thank the Governor of Arizona, Janet Napolitano for 
coming here to represent the Western Governors Association. I know it 
is hard to make trips like this when your State has seen the brunt of 
this young fire season. I want to thank Governor Judy Martz of Montana 
for coming to testify on such short notice. In recent weeks Montana has 
faced the beginnings of what could be a repeat of the 2000 fire season. 
In fact, I see that the Hidden Lake and Blackwall Fires are in the same 
area that was so hard hit in 2000.
    In a few minutes we are going to hear from our other witnesses, 
including Undersecretary of Agriculture Mark Rey and Rebecca Watson, 
Department of Interior's Assistant Secretary for Natural Resources, 
Lands and Mineral Management.
    I also want to extend a special welcome to Otero County, New Mexico 
Commissioner Mike Nivison and Ms. Laura McCarthy of the Forest Trust in 
Santa Fe, New Mexico. Welcome to both of you.
    Now, I want to show a ten-minute video on what is happening to our 
federal forests and grass lands and I hope each of us will find a way 
to get beyond the deadlock we've suffered on this issue.
    We have been bickering over just about everything but the land. It 
is the land and keeping that land productive and enjoyable for our 
constituents that we must focus on.
    Before we dim the lights, I want to show one graph that will help 
put our hearing in perspective. This is a graph of the number of acres 
that have burned on the National Forests each year since 1994 compared 
to the number of acres harvested each year.
    In six of the last nine years, fires on the National Forest burned 
more acres than were harvested. In some years we've burned four and 
five times what has been managed through harvesting.
    Despite our debate about timber harvesting. It has been fires that 
have been destroying important wildlife and fisheries habitat. Today, I 
hope we will begin to worry about the agents of change that are robbing 
America of its forests--insects, diseases, and fire.
    After the video, we will accept other opening statements and then 
proceed to our witnesses.
                                 ______
                                 
   Prepared Statement of Hon. Jim Bunning, U.S. Senator From Kentucky

    Thank you, Mr. Chairman.
    Today's hearing on the impacts of insects, disease, weather-related 
damage, and fires on public and private forest lands is important for 
the protection of communities, natural resources, and forests nation 
wide. I believe that assessing the factors behind the rash of recent 
devastating forest fires, as well as advancing the determination of 
solutions to such problems, is significant for the health and welfare 
of communities, industry, and environmental treasures across America.
    Kentucky boasts two national forests, the Daniel Boone National 
Forest and the Land Between the Lakes National Recreation Area. The 
preservation of these lands from forest fires and other forms of 
natural detriment is of paramount importance to myself and my fellow 
Kentuckians.
    Kentucky has worked hard to maintain healthy forests. While I know 
that western forests have been more affected by wildfires in recent 
years, I hope that Kentucky's forests are not forgotten in future 
forest fire programs.
    I appreciate the time that our witnesses have taken today to 
testify. I look forward to hearing their thoughts on fire risk 
reduction and restoration practices.
    Thank you, Mr. Chairman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. It is 
a very important issue for all of us, and I appreciate your 
having the hearing and appreciate the witnesses coming.
    There are some very real differences in the bills that have 
been presented, in the bill that I introduced with several co-
sponsors and, of course, in the bill which has come over from 
the House of Representatives, as you indicate, to the 
Agriculture Committee.
    I think one key area of difference, that we obviously will 
have a chance to ask the witnesses about, is the whole issue of 
the extent to which we need to focus these resources on the 
urban-wildland interface in the areas where structures and 
communities and homes are actually threatened.
    Another area, of course, is the extent to which appeals 
should be permitted and public participation should be 
permitted in decisions about forest thinning.
    Another issue that I wanted to particularly flag for the 
committee is one that I have heard about in our State of New 
Mexico. That is the delay which, it appears to me, has been 
caused by the practice that we have talked about at several 
previous hearings where the Forest Service has to borrow funds 
from other accounts in order to fight the fires that they are 
required to fight each year. And that borrowing from other 
accounts winds up delaying forest thinning type activity, 
critical projects in our State. I have a quotation from the 
Forest Service in one of their communications where they said 
some critical projects in New Mexico were postponed for up to a 
year as a result of fire borrowing, they call it.
    The legislation that I have introduced tries to correct 
that or provide another mechanism for the Forest Service to get 
the funds they need to fight the fires without having to take 
it out of these accounts that are the accounts that ought to be 
used for this forest thinning activity.
    There are many other issues we will have a chance to get 
into with the questions, but again I appreciate your having the 
hearing.
    The Chairman. Thank you very much, Senator.
    Anybody else? Would the Senators make them brief, please?
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, I will be brief, and I ask 
unanimous consent that my full statement be a part of the 
record.
    Let me thank you for that film. I think it lays out 
honestly and fairly the problems we are facing predominantly in 
the West, but it is true of all of our national forests in one 
form or another with one bug problem or one overgrowth, fuel-
loading in another.
    In the part of that film--and I want to draw this to the 
attention of the committee--you saw some standing trees, bug-
killed. That section of that film came from the Nez Perce 
Forest in Idaho outside Elk City, Idaho, in the Red River 
drainage. There are about 10,000 or 12,000 acres that are now 
dead there and many more dying this year because of bug 
infestation.
    The reason that is uniquely interesting is because of a 
phenomenon that happened in Idaho and Montana years ago. It 
happened on August 20, 1910 in approximately the same area. 
Lightning struck. The circumstances were right. The perfect 
storm ensued, and 2 days later, 3 million acres were burned 
across Idaho, north Idaho, and Montana. The largest single fire 
ever in the history of our country, people dead, communities 
burned, wildlife destroyed, and over 3 million acres gone.
    The Chairman. What year?
    Senator Craig. 1910, August 20, August 21.
    Interestingly enough, the perfect storm is now developing 
again. The same situation is at hand again in Elk City, Idaho. 
There is a fire burning there as we speak about 30 miles east 
of Grangeville, Idaho on the Nez Perce Forest, a few miles from 
where this great fire of 1910 originally started. It is about 
400 acres today. It is not in control. It was topping 
yesterday, or crowning, like what you saw in the film.
    I would hope that our foolishness, our clear recognition of 
a problem, our inability to act last year and the year before 
because of the politics in part spelled out, but also 
reflective of all the legislation we have in front of us. We 
are tiptoeing through the forests as they burn.
    Last year at this time, about 3 million acres was already 
gone for the year. This year, we are at about 1.2 million acres 
already burned, Mr. Chairman. It is 100 degrees in Boise, Idaho 
today. Today will make the hottest stretch of heat on record 
for Idaho ever in its recorded history. The Great Basin West is 
hotter than it has ever been. It is drier than it has ever 
been, and we are starting to burn.
    I would hope that common sense would yield to the reality 
of what we are facing here or the politics would yield to the 
common sense, I should say, to deal with this issue and that we 
ought to move expeditiously.
    I thank you for the hearing today, Mr. Chairman.
    [The prepared statement of Senator Craig follows:]

   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho

    I want to thank Chairman Domenici for holding this hearing.
    It is said that if you ignore history, you are doomed to repeat it. 
Given our inability to find a rational common sense solution to our 
forest health disasters--we--the members of this Committee and this 
Congress are signing the death warrants for millions of acres of 
forests, hundreds of thousands of animals, birds, and fish--and who 
knows how many communities.
    On August 20 and 21 of 1910, fires consumed more than three million 
acres of land in Idaho and northwestern Montana. Think of that--an area 
3/4 the size of Connecticut--gone in less time than it takes us to 
debate your average appropriation's bill on the floor of the Senate.
    At that time it was reported that fire whorls, the size of a man's 
arm, carried along on 50 mile-per-hour winds, swept through towns 50 
miles to the east of these fires.
    The sun was completely obscured in Billings, Montana, a town 500 
miles to the east of the fires. The sky was darkened as far east as New 
York State.
    Our forest health problems are not isolated in the rural west. In 
1989, Hurricane Hugo slammed ashore near Charleston, South Carolina and 
cut a swath northwest through North Carolina into Virginia, destroying 
thousands of acres of forest.
    On the Francis Marion National Forest, in South Carolina, 70% of 
the trees were killed. Our response was to immediately expedite the 
process of cleanup, salvage, and replanting, including NEPA, and to 
funnel millions of dollars into that effort.
    In January 1998, more than 17 million acres of forests were heavily 
damaged in an ice storm that stretched from New York State, across New 
Hampshire, Vermont and into Maine. Our response was to appropriate $48 
million to help the cleanup and expedite projects on the federal lands 
in the area.
    In the spring of 1999, when a blowdown followed by a Southern Bark 
beetle epidemic ravaged the Texas National Forests, we provided 
emergency exemptions that allowed managers to enter into Wilderness 
Areas to sanitize the stands to slow the spread of the insects.
    On July 4 of that same year, more than 600,000 acres of forests in 
Northern Minnesota were blown down. Our response was to provide waivers 
from NEPA to help the area begin a recovery process.
    Just last year, in the Supplemental Defense Appropriations Bill, we 
helped Senators Daschle and Johnson deal with forest health 
emergencies, in their state, by exempting projects from all NEPA, all 
appeals, and all litigation.
    Each time a common sense approach was supported by this body. Each 
time we reached out to our neighbors to help them deal with the forest 
health problems they'd suffered.
    Thanks to Senator Domenici, we've seen, in a few short minutes, 
what our inaction is causing. I noted pictures of the forests around 
Elk City, Idaho which is, as we speak, being destroyed by bark beetles 
and quite literally the Slims fire burning less than 20 miles to the 
west threatens the community as I speak.
    Ask yourself if our forefathers, in times of dire emergency, would 
have maintained, or relaxed, an Administrative Appeals process that is 
chiefly utilized by seven or eight self-avowed anti-action groups to 
stop needed projects.
    Ask yourself if our forefathers, in time of emergency, would have 
done away with the NEPA analysis process, or would they have made it 
more complex, and time consuming, like some of the legislation we are 
now considering does.
    At times, I contemplate how we would have dealt with the events of 
September 11, or the record tornado's of this spring, or the hurricanes 
that we've suffered, if we would impose the Forest Service NEPA and 
Appeals processes on the entire country. Then I thank God that we've 
had more sense than that.
    Many private forest landowners in your States are currently staring 
down the barrel of a loaded gun. That gun is filled with insects, 
disease, and fires and it is being aimed at them from neighboring 
public land.
    These people are having the greatest difficulty understanding why 
this Senate can't come together to help all the citizens of this county 
in the same manner we've responded to other natural disasters.
    While I fear that the modest changes called for in H.R. 1904 will 
not be enough. I have learned that every great journey starts with a 
small step, and I trust each of you on this Committee will help us take 
that first small step by supporting the President's Healthy Forest 
Initiative.

    The Chairman. Thank you.
    Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I want to 
begin, Mr. Chairman, by commending you for your ongoing and 
dogged efforts to try to get the Senate to a bipartisan 
coalition of 60 votes that can get this legislation to the 
President. I want to reiterate the commitment I have made to 
you over the last couple of years to pull out all the stops, to 
get this legislation to the President.
    These fires are not natural. They are infernos, and it is 
impossible to overstate the importance of this issue to the 
rural West. We are going to see communities all up and down the 
West turn into sacrifice zones if we do not move ahead with 
this legislation.
    I think you evinced, once again, your bipartisan desire to 
move ahead on this when you worked with me to add the extra 
money for the Fire Plan. Unfortunately, we did not finally 
prevail in conference, but it is an indication of how committed 
you are to getting the Senate to the common ground on this 
issue, and you have my commitment to work with you.
    With respect to the legislation Senator Feinstein and I 
have introduced, the Community and Forest Protection Act, we 
seek to balance the need for public participation with the need 
to trim the bureaucratic red tape that binds the management of 
our forests and aids the bugs and fires in their destruction of 
these national treasures.
    Suffice it to say, as I have gone about the West, Mr. 
Chairman, what I have seen is again and again a sense that 
people feel passionately about the right to participate in the 
debate about forestry and the right to be heard, for example, 
in the legal system, but they understand that there should not 
be a constitutional right to a 5-year delay with respect to 
these forestry decisions. So somewhere in between, as Senator 
Feinstein and I have tried to do with our legislation, is the 
balance.
    We are hopeful that we can work with you to break the 
gridlock this time. The Senate got close last time. My sense 
was that we were making a fair amount of headway, and we began 
to take a fair amount of shrapnel from all sides. Hopefully 
this time more Senators will be willing to join you, Mr. 
Chairman, in the effort to find the common ground, and you will 
have my support in that cause.
    The Chairman. Thank you very much.
    Senator Burns.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Mr. Chairman, thank you very much. I would 
like to welcome my Governor from the State of Montana and also 
Bruce Vincent, who has more than a passing interest in this 
subject as he has been involved in the wood products and the 
forestry business up in northwest Montana for a long time.
    I guess what is alarming to me, there is no situation worse 
than people who will not hear. I want to throw out a couple of 
facts. I have got a little thing I want to show you here and to 
illustrate how important it is that we have healthy forests. 
Healthy communities and healthy forests are interlaced, and if 
you do not have one, you do not have the other, and it does not 
make any difference which one you put in priority.
    In 1990, we had 38 small mills in Montana. We are now in 
2002 at 19. I think around 2008 we will be down to 6. That is 
just fact.
    There is also one other disturbing thing that is popping 
up. Now, I know that we have seen everybody appeal a sale or 
whatever is done on the forest. Do those appeals lead to a 
different management tool or style? No, they do not. The only 
thing the appeal does is stop the process, offering no other 
answer to the problem that we have today.
    These are actual figures. We are, on two forests in 
Montana, losing more trees to disease and mortality than we are 
growing in those two forests. Overall, out of nine forests, on 
two forests we are losing all that we grow. Overall, of all the 
growth in 1 year--now, these are 2003 figures. They aren't last 
year and they aren't 10 years ago. We are losing half of that 
growth just to disease and mortality.
    Now, you tell me, can the taxpayer afford to subsidize a 
business like that? Could you farm or ranch and lose half your 
crop every year or your business? I am asking America to look 
and see the facts. And I have some more in here as we go along.
    But I just wanted to bring that up today because this ill-
conceived idea that appeals and the public input--and I guess I 
am as much a part of the public input too, but if I ran a ranch 
or a business with all public input, I would be in the poor 
house. And I know what it is like to go broke because I did it 
once on my own, taking nobody's advice.
    [Laughter.]
    Senator Burns. So that is how smart I am.
    But I am also smart enough to know that there are a lot of 
folks out here who do not have the environment or the forest 
health at stake. What is at stake here is political power and 
money, and it is wrong. It is wrong for the forests. It is 
wrong for America, and it is wrong for the American taxpayers, 
who financially have to pay the bill.
    I thank the chairman.
    [The prepared statement of Senator Burns follows:]

   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana

    Thank you, Mr. Chairman, and thank you to the witnesses for 
appearing here today. In particular, I would like to recognize two 
people who will be testifying: First, my thanks to Gov. Judy Martz, who 
is representing the Western Governor's Association, for joining us. 
Your experience as Montana's governor has prepared you well to be a 
witness on the importance of Healthy Forests.
    Additionally, I am grateful the Committee has extended an 
invitation to Bruce Vincent, from Libby, Montana. Bruce has a special 
talent for bringing the concerns of resource based rural communities to 
the attention of people who otherwise may not have a stake in them. He 
is a champion for the hard working people so many of us on this 
committee know personally, but that too many in this country--and in 
this body--are trying to put out of business.
    It is appropriate to have Bruce testify, because this is a hearing 
that may very well define the future of a number of Montana's 
communities. This hearing is about the health of our national forests 
and also the health of communities dependent those national forests. It 
is about finding a way to preserve the clean water, the clean air, and 
the wildlife habitat the residents of Montana treasure. The communities 
and the forests are tied together, since if the communities die, there 
will be no infrastructure remaining to take care of those national 
forests. When America's forests burn up, they make the national news. 
But when America's towns and the schools and the churches close down 
because there aren't any jobs left in the forests, the cameras are 
nowhere to be found. It's still a tragedy, even if Montanans are the 
only ones watching.
    Today, there are over 190 million acres of forests at risk of 
devastating wildfire. The situation is a result of a general 
degradation of the health of our forests. This degradation is the 
direct result of past poor management practices, which results in our 
forests being more susceptible to devastating wildfire and deadly 
insect infestations. The decision we need to be willing to make is to 
change the direction of management, because from where I'm sitting the 
current method just isn't working and it hasn't for the last 20 years.
    The costs associated with wildfire suppression now reaches into the 
millions per fire, totally in the billions of dollars annually. 
However, fire suppression is not the only costs of the wildfire and 
insect infestations. There are equally high costs associated with lost 
and damaged wildlife habitat, clean air and water issues, problems of 
siltation in our rivers and streams, loss of critical infrastructure, 
and loss of tourism. Ask the people in the Bitterroot Valley about air 
quality, and they'll tell you the worst they've ever seen was during 
the fires of 2000.
    Let me sketch a picture of what's happened throughout the forested 
west:

  <bullet> in Montana, in 1990, there were 38 small, independent timber mills;
  <bullet> in 2002, there were 19; and,
  <bullet> if changes aren't made in our forest management practices, I 
        foresee only 6 mills in 2008.

    The number of timber mills here is simply representative of our 
ability to address forest health. Without forest professionals, and 
experienced loggers, and the mills to process timber products, we stand 
no chance of recreating a healthier forests. Of course, the mills also 
provide another side benefit in the creation of good-paying jobs, 
health insurance, and tax base. For both those reasons we can't stand 
by and watch Montana's critical infrastructure go the way of mills in 
the state of Arizona where today there are none. Without this 
infrastructure we simply will not be able to address the critical 
forest health issues, and other industries reliant on these mills will 
begin to close their doors as well.
    We must not let the healthy debate over forest health evolve into a 
political debate over cutting timber. There are people who simply have 
an objection to cutting down trees, but I wonder why it's all right to 
burn them down. The Forest Service timber sale program is the smallest 
it has been since the 1940s. We are losing more trees, wildlife 
habitat, and critical healthy watersheds to fire, disease, and insects 
than we impact through timber sales. Yet we continue to stand by and do 
nothing to stop the destruction.
    The environmental community can no longer continue to appeal and 
litigate every project designed to remove hazardous fuels from the 
forests under the guise of protecting the habitat of fish and wildlife; 
yet, turn a blind eye on the damage that insects and fires are doing to 
these same habitats.
    We must provide the federal land managers with the tools needed to 
address the extreme conditions of our national forests. We must address 
the issues associated with delays as a result of appeals and 
litigation.
    Today's hearing is a critical step in providing those tools and 
addressing those delays.

    The Chairman. Thank you very much.
    Any other Senators? Senator Feinstein. Senator Johnson, did 
you come----
    Senator Feinstein. He was here before me.
    Senator Johnson. Well, I would ask simply, Mr. Chairman, if 
I may submit my whole statement for the record to expedite this 
hearing.
    The Chairman. It will be admitted.
    Senator Johnson. And I will do only that.
    The Chairman. You reserve your comments?
    Senator Johnson. Yes.
    [The prepared statement of Senator Johnson follows:]

         Prepared Statement of Hon. Tim Johnson, U.S. Senator 
                           From South Dakota

    Thank you, Mr. Chairman, for calling today's hearing on how we can 
best reduce the threat posed from catastrophic fire threatening many 
communities in the West. As a Senator representing a state with 
significant tracts of forestland, I am keenly aware of the acute need 
to reduce fuel loads and thin overly dense forests, particularly near 
communities, watersheds, and the national and state parks that dot many 
western states.
    Mr. Chairman, many of the Senators on this Committee understand 
first-hand the devastating impact of forest fires to public and private 
forestland throughout the United States. As I look around the dais, 
nearly every Senator in attendance has had fires in his or her state 
that have destroyed homes, threatened water supplies, and damaged the 
crucial habitat of threatened and endangered species. In the Black 
Hills, since 1998, nearly 10 percent of the forest land has been 
exposed to wildfire. Although South Dakota contains a modest amount of 
forested acres compared to other western states, 10 percent is an 
astonishing amount of land.
    South Dakota is somewhat cursed by geography in the sense that a 
mild and relatively wet climate is a boon to the native ponderosa pine 
forests and requires aggressive treatment to thin overgrown stands 
susceptible to windthrow and insect infestation. The fact is the Black 
Hills is a prolific producer of ponderosa pine. The forest type and 
geography that produces thick stands of trees in South Dakota is 
different from the environmental and forest conditions in Arizona or 
Oregon. As Congress crafts a forest policy bill it is important to 
recognize that different forests confront distinct sets of challenges. 
We have to empower and trust that the professional land managers who 
are the stewards of the public trust prescribe the best plan for 
treating and managing our public lands.
    In South Dakota we are beginning to see the benefits from 
empowering and trusting our public land managers. Just outside of Rapid 
City, S.D., the Forest Service is embarking on an aggressive plan to 
treat 35,000 acres in an area heavily intermixed with residential 
developments. Steep gulches and overgrown stands of ponderosa pine 
could result in a devastating forest fire. It is in these areas--where 
the forest meets the community--that the Forest Service must have the 
authority to expedite length environmental analysis to carry out fuel 
reduction projects.
    While the intermix and interface communities should be treated 
first, I strongly believe that if we do not treat overgrown and insect 
infested lands throughout the entire ecosystem, the unnatural fire 
regimes of the last few years will continue to race throughout 
wilderness and back country, destroying the very environmental values, 
all of us want to uphold. It is not possible nor desirable to 
completely eliminate fire from a forests ecosystem. However, our 
approach must not preclude addressing high-risk areas simply because 
the land is isolated or separated from a community by a ridge or gully.
    In closing, Mr. Chairman, it is my desire that the Senate can get 
to a point where a broad collection of our colleagues can reach 
consensus and pass a bill that improves forest health and safeguards 
our communities.
    Thank you.

    The Chairman. Senator Feinstein.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. You are not quite so lucky. I would like 
to say a few things.
    Thank you very much, Mr. Chairman, for holding this 
hearing.
    The Chairman. We always like to hear from you, Senator.
    Senator Feinstein. Oh, thank you, thank you.
    Interestingly enough, the New York Times this morning in 
the science section has a very interesting article on how a 
forest stopped the fire in its track. I would like to pass it 
over because I think it actually shows what Senator Wyden and I 
are trying to do in our bill. You have a forest in Susanville 
that has burned badly and it just stopped, and where it stopped 
was where it had been thinned selectively and the underbrush 
had been carried away. So if I might just pass this around.
    I would also like to pass around, if I might, a comparison 
of the three bills, the House bill, the Wyden-Feinstein bill, 
and the Bingaman-Daschle bill, at least as we see it, and make 
a few comments.
    First of all, we have 57 million acres in risk of 
catastrophic fire. Of the critical acreage, there are about 23 
million, and California has 8.5 million of those acres. So we 
could lose in a big fire a whole national forest easily. The 
entire Sierra Nevada is in that category. And Senator Wyden has 
a like situation.
    So we decided to get together and see if we could not 
produce a bill that would reduce the risk, would prioritize the 
highest risk lands, would give Governors flexibility. Some 
Governors might want to use their share in urban interface 
areas and others would not. So what we did was we gave the 
Governor the ability to use as much as 75 percent or 50 percent 
of Federal resources as they saw fit in these various areas.
    We also targeted high-risk fire areas.
    Specifically in a couple of areas, we have simplified the 
environmental assessment by providing one round of public 
comment in the administrative appeals process rather than two. 
We have shortened the time frame of administrative appeals from 
90 to 60 days, and we have allowed the appeal-deciding officer 
to make any necessary changes rather than sending the project 
back to the original decision maker for further review. We 
believe this will speed up the administrative process by a few 
months or more and it does not eliminate public comment or 
environmental analysis.
    We believe our bill fully protects old growth.
    The controversial area is judicial review, and I just want 
to say what we have done with respect to judicial review. I 
think we have encouraged courts to the maximum extent 
practicable to resolve lawsuits over brush clearing projects 
quickly. And the way we have done that is that we require that 
litigants file suit in the same judicial district where a fuels 
reduction project takes place, which will end one of the games 
that takes place when people file in other districts. So the 
judge in that district actually knows firsthand what the 
situation is.
    We have limited temporary injunctions that are typically 
issued at the outside of a case to 60 days, and challenges to a 
project must submit updates explaining why the injunction 
should be extended.
    So we hope that with these simple things, plus others, that 
we have created a bill that, as Senator Wyden said, might be 
able to get the 60 votes that are required in the Senate.
    Thank you, Mr. Chairman.
    The Chairman. Any other Senators?
    Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. I am just asking permission to get the 
full extent of my comments into the record.
    The Chairman. It will be done.
    Senator Murkowski. And just to note obviously there is a 
great risk. We are at crisis proportions I think throughout the 
West. When we look at our situation in Alaska, we have lost 
over 5 million acres of beautiful forest in the interior in 
south central Alaska to the spruce kill, just sitting there as 
fuel on the forest floor. We are most concerned about it and 
truly do appreciate the efforts of this committee and others to 
highlight that.
    We have a picture in the back. I believe this was included 
in the film itself.
    The Chairman. Yes.
    Senator Murkowski. But all of those trees are dead. They 
are standing, dead trees.
    The Chairman. How long have they been dead, Senator?
    Senator Murkowski. Well, the kill takes a couple years, but 
those have probably been standing--I do not know--5 years or 
so. But you touch them, and they crumble. They are just waiting 
to go up in smoke.
    So we appreciate the attention to this issue, but it needs 
to be more than just attention. We need the action. We need the 
ability to go in there and do the thinning necessary, take 
these trees down, do the treatment, so that we do not have my 
whole State going up in smoke. So, Mr. Chairman, thank you.
    [The prepared statement of Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska

    Good morning, Mr. Chairman. Thank you for calling this hearing 
today regarding forest fire impacts and addressing pending legislation 
related to forest health. This is a very important issue to my State of 
Alaska, and I look forward to hearing the testimony of today's panel.
    The 2000 and 2002 fire seasons have been some of the worst on 
record. In 2002, Alaska alone experienced fires that burned more than 
one million acres. Forest fires continue to extensive problems for many 
Americans, predominantly for those living and working in the West. 
There has been great damage to our forested lands from these 
catastrophic wildland fires; many of which result from forests 
devastated by insect and disease. Deteriorating forest and rangeland 
health now affects more than 190 million acres of public land, an area 
twice the size of California.
    It is important to mention the damage that has been caused to 
forests in Alaska, particularly in the Chugach Mountains and on the 
Kenai Peninsula. (I would like to show a photo which shows the spruce 
bark beetle infestation and resulting dead trees on the Kenai 
Peninsula). Clearly, such an outbreak and resultant devastation to the 
Kenai Peninsula, which entails public, private, state and native 
corporation lands is everyone's concern in my State.
    The spruce bark beetle has drastically changed the forests in my 
State. Over 5 million acres of trees in south central and interior 
Alaska have been lost to insects over the last 10 years. This 
devastation by the spruce bark beetle is one of worst in recorded 
history.
    These dead and dying trees, located near many private residences, 
are susceptible to fire. Coupled now with the low amount of snowfall 
Alaska has received the potential for further disaster is great.
    We must reduce the environmental restrictions that limit the 
possibility for forest management. Our public land laws and regulations 
should not make it difficult to cut down the dead or dying trees that 
are nothing but potential fuel for catastrophic wildfires. Our nation's 
policy has to allow for responsible forest management that includes the 
ability to remove, when appropriate, wildfire fuel from forests.
    I support the work, thus far, established by this Administration 
under the President's Healthy Forest Initiative. The President's 
Healthy Forest Initiative implements the core components of the 10-Year 
Implementation Plan, endorsed by this Administration and the Western 
Governors' Association last May 2002, by enhancing and improving 
collaborative work with communities in active forest management. Active 
forest management includes thinning trees from over-dense stands that 
produce commercial or pre-commercial products, biomass removal and 
utilization, and prescribed fire.
    I believe that H.R. 1904, ``The Healthy Forest Restoration Act of 
2003'' is a comprehensive plan focused on giving federal land managers 
and their partners the tools to respond to a national forest health 
crisis. The legislation directs the timely implementation of 
scientifically-supported management activities to protect the health 
and vibrancy of federal forest ecosystems as well as the communities 
and private lands that surround them.
    I look forward to hearing from our panelists today. Thank you, Mr. 
Chairman.

    The Chairman. Senator, is it implicit in your putting that 
picture up there that there are efforts over time to remove 
those trees and they have not reached fruition because of 
rules, regulations, laws, or whatever reason?
    Senator Murkowski. Yes, sir, that is correct. We are in the 
process of doing some of the thinning, but when you look at the 
acres, the millions of acres that have been killed, and you see 
what we have been able to address so far, it is truly nothing 
more than a drop in the bucket.
    What you are not seeing there is whether or not there are 
any communities around there. We have small towns out in the 
Kenai Peninsula that are surrounded by these dead and dying 
trees, these tinderboxes, and we are most concerned about the 
safety of the citizens and the property.
    The Chairman. Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I would ask that my 
full statement be included in the record as if read.
    The Chairman. It will be.
    Senator Smith. Thank you, sir.
    I would just sum up by saying that I think this whole 
debate will come down to the details of judicial review, and I 
think that is where we are either going to get something done 
or not. In a recent court case in Oregon in which a salvage 
sale was stopped, the judge in that case said, ``From an 
equitable point of view, if this court had considered the case 
without any reference to prior case law with respect to NEPA, I 
would allow this project to go forward.'' That is what he said, 
but on the basis of judicial review, as it is currently, we are 
just not getting it done, and we are watching it all burn.
    I think it was very telling in a silviculture study done by 
the Oregon State University on the Biscuit fire which consumed 
a half a million acres last summer, that report concluded I 
think very accurately that there are 2 billion board feet that 
should be salvaged, and if you do, the environment will be 
better. You cannot do it, though, with current law, current 
standards, and current judicial review.
    This will be an exercise in futility if we, in fact, do not 
honestly accurately address the judicial review aspect of this 
bill.
    Thank you.
    [The prepared statement of Senator Smith follows:]

   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon

    Mr. Chairman, thank you for holding today's hearing. As you know, 
this hearing and the issues before us arrive after many years of 
intensive congressional scrutiny of forest health conditions 
nationwide, and how we are responding to them. This hearing also has 
the mixed benefit of following several costly wildfire seasons in the 
West. If we act on what we have learned, I think this Committee and 
this Congress can act boldly and wisely--and our public lands will be 
the better for it. If Congress chooses the path of timidity and 
inaction, the federal government and our communities will continue the 
hopeless struggle against the symptoms of an ever-worsening disease.
    I'd like to give a brief perspective on the Healthy Forests 
Initiative, which is the origin of the bills and issues before us. 
President Bush came to Medford, Oregon last summer in the midst of the 
nation's largest wildfire--the Biscuit Fire. He came to see first-hand 
why the West was burning and to set the federal government on a faster 
path to meet the goals of the Western Governors' 10-Year Strategy. In 
the.shadow of a mile-high plume of smoke from the Biscuit Fire, many 
Oregonians were asking for emergency treatment of high-risk areas. More 
specifically, they were asking for the same federal authority that had 
recently been bestowed to beetle-infested forests in South Dakota. 
There in the Black Hills, federal environmental laws such as the 
Endangered Species Act and the National Environmental Policy Act were 
waived to allow forest managers to quickly reduce fuels and restore 
forest health.
    At the urging of then-Oregon Governor Kitzhaber, and others, 
President Bush committed not to push through similar authority for the 
rest of the country--a ``National Daschle,'' if you will.
    Instead, the Administration and a bipartisan coalition in the House 
have honored the President's commitment and have advocated reasonable 
legislation that neither eliminates NEPA nor prohibits citizen lawsuits 
on fuels treatment projects. I offer this background because in the 
realm of what is possible, and what has already been enacted for some, 
the provisions of H.R. 1904 are already a fair balance between the 
immediate needs of communities and the long-term health and function of 
federal forests.
    On the issue of funding, I agree that we need to authorize 
additional funds for fuels and forest health treatment. I expect any 
bill that leaves the Senate will do so. But I also recognize that 
unless those funds are deployed across the landscape to change fire 
behavior, every dollar we allocate to the interface will be hijacked by 
increasingly catastrophic fires in the backcountry. No amount of 
thinning in the interface will reduce the economic cost of wildfires. 
Nor does it reduce the risk to the lives of young fire fighters who 
will be on the lines, wherever the fires are. A District Ranger from 
the Davis Fire in Oregon said: ``the fire blew up like a bomb, but 
where we had fuel treatment, we were able to stand and fight.''
    From experience we know that even where there is extensive thinning 
in just the interface, such as Black Butte Ranch in Oregon, homes are 
still at risk. Spot flares from explosive wildfires can and do leap 
fire lines and fuel breaks. Thinning in the interface is necessary, but 
it doesn't address the underlying problem any more than wearing your 
seat-belt prevents you from being hit by a drunk driver. We shouldn't 
mistake precaution for prevention.
    With respect to judicial review of forest health projects, it is 
clear that court precedent is building up like dead wood in our forests 
and steering land managers from doing what's right for the land. In a 
recent court case in Oregon, a fuels reduction project was enjoined not 
on the merits of its reduction of fire risk, but on the technicalities 
of precedent. The judge said: ``From an equitable point of view, if 
this Court had considered this case without any reference to prior case 
law or with respect to NEPA, I think I would allow the [project] to go 
forward.''
    Decisions like this have a chilling effect on land managers. It's 
up to Congress to clarify our intent on laws like NEPA and concepts 
like Multiple Use, and I think the judicial review provisions of H.R. 
1904 are appropriate. They don't lock citizens out of the courtroom. 
But their focus and timelines will keep our forest managers from being 
locked in the courtroom. I think that's fair.
    In closing, I would urge my colleagues to recall what Congress 
meant in laws like the ``Multiple Use and Sustained Yield Act.'' If we 
still believe that the policy of Congress is for our national forests 
to be managed for outdoor recreation, range, timber, watersheds, and 
fish and wildlife--if we still believe that--then it must be clear and 
visible in how we address the specter of forest health and wildfire.
    In other words, it's up to Congress--not the courts or the 
agencies--to set the standard of forest health. So we can act boldly, 
be clear about our expectations for public lands, and improve forest 
health from the ponderosa pines of Oregon to the loblolly pines of 
Louisiana. Or we can be crippled by uncertainties that will never be 
resolved by holding more hearings. Silviculture is a science, not a 
mystery or a political riddle. Science applies lessons we've already 
learned. Congress should do the same.
    If Congress is timid and incomplete about forest health 
legislation, we can expect no more from federal agencies. I expect a 
lot from our land and from our land managers. My vote on the Senate 
floor will reflect that.

    The Chairman. Thank you.
    Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Mr. Chairman, thank you. I would like to 
get on with the panel.
    I am just frustrated by the time we have spent. We have 
been at this now for several years, and while we are here 
talking about these details, the fires are out there burning. 
You have listed in your statement some of the things we need to 
overcome, and frankly this committee has not moved either, and 
it is time that we do that. So, thank you for holding this. Let 
us get on with it.
    The Chairman. Let me assure you now we are behind the 8-
ball not only because of what you all have told us, but the 
Agriculture Committee is new at this issue, and they have a 
bill, and they are going to report it. There is going to be a 
powerful bill on the floor, from what I can understand, 
addressing many of the issues that you all have been talking 
about that has been done by that committee. And we are going to 
have an opportunity to either report something out here or, in 
your case, Senators, looking at Feinstein and Ron, you all are 
going to be able to go down there and amend it and put in this 
language and see if there are 60 votes for it because it is 
going to happen during this year. And that is a synch.
    What we are going to do in terms of how do we counter what 
they produce, I have decided to wait and see what they produce. 
Let us take a look at what they have and it will not be very 
long, I tell you for sure.
    Having said that, we are going to proceed now. Senator 
Burns, would you introduce your Governor, please?
    Senator Burns. Well, I would be happy to. She is our first 
woman that was elected to the governorship of the State of 
Montana and ably served as Lieutenant Governor under Governor 
Racicot. We welcome you here this morning. She is a product of 
Sweet Grass County, Montana, but spent most of her years in 
Butte, America.
    [Laughter.]
    Senator Burns. And we welcome her here this morning.
    The Chairman. All right, Governor, you may proceed.
    Governor Napolitano, if your Senator has not arrived, would 
you proceed immediately following Governor Martz? We welcome 
you here, and I will serve as his proxy and be the one 
introducing you.
    Governor Napolitano. Thank you.
    The Chairman. Please proceed in that fashion.

 STATEMENT OF HON. JUDY MARTZ, GOVERNOR, STATE OF MONTANA, ON 
          BEHALF OF THE WESTERN GOVERNORS' ASSOCIATION

    Governor Martz. Thank you, Mr. Chairman. Thank you to each 
of you on this committee. Mr. Chairman, before I even start 
with the testimony, I would like to thank you on behalf of the 
Western Governors' Association for being the lead on the 
drought legislation also. We will support you. I know you are 
introducing that on Thursday. We support you and we appreciate 
you in that effort. We will give you all the help that we can 
to get that legislation passed.
    Beyond that, I would like to thank you, Chairman Domenici 
and Senator Bingaman, Senator Burns, my Senator, and other 
distinguished members of this committee. I appreciate the 
opportunity to join you today to share the Western Governors' 
vision of the management of public lands in the West. We 
arrived today, the two Governors, one in black, one in white, 
not on purpose, but we really do believe that this is a black 
and white issue and it should be spoken to as such.
    [Laughter.]
    Governor Martz. As you know, for the past year I served as 
the chair of the Western Governors' Association, representing 
21 State and territorial Governors. My primary focus and my 
main issue as lead Governor in that capacity has been the issue 
of forest health. I do not have to tell you that this is a 
highly sensitive issue. It is also one of the most important 
issues I think facing the West.
    In the year 2000, Montana burned over 1 million acres of 
good timberland, and no one seemed to care. As I speak here 
today, wildfires are raging in 12 Western States, Montana, 
Arizona, New Mexico, Wyoming, Idaho, Utah, Colorado, Oregon, 
Washington, California, Nevada, and Alaska. As of yesterday, 
the total acreage burned this wildfire seasons is approximately 
1,356,000 acres. And keep in mind, in many of our States, our 
real fire season does not even start until late August or early 
September.
    This issue is not going to go away. Just last Friday, I 
signed an executive order stating that a state of emergency 
exists in my State because of the threat of destructive 
wildfire. It is my hope that taking this action early in the 
2003 fire season, we will ensure that we do not experience the 
disasters of the year 2000.
    As I joined interested participants from 22 States and 3 
countries last month in Missoula, Montana for the Western 
Governors' Forest Health Summit, I was reminded of the 
incredible opportunity we are afforded as westerners to live, 
to work, and to play in this incredible corner of the globe. 
There is something so very special, so very unique about our 
way of life in the West. Sometimes we do not often look enough 
within ourselves to understand our uniqueness, and outsiders 
rarely appreciate it. But our uniqueness comes from our people 
and our communities, communities whose core values are as 
deeply embedded as their determination and their pride. But 
make no mistake, every westerner has a vested interest and 
truly desires to protect our public lands and scenic vistas. 
Our lands are the fabric of our very way of life.
    But in the same regard, we are cautious. We are humble 
public servants, not political opportunists, and we ought to be 
leading the effort to solve our land management challenges. 
First and foremost, we have to end detached, impractical 
management practices that have little connection to local needs 
with only a superficial interest in local participation. It 
does not work and it never will work. If we can work together 
using input and advice from the local, county, State and 
Federal Governments, we could bring about much healthier 
forests and, without a doubt, create some jobs in the process.
    Second, we must work tirelessly to encourage greater 
cooperation between Federal agencies and States and counties. 
That is truly what government should be about.
    Third, we must work together to craft land management 
policies that are more reflective of local consensus. We must 
provide stability and predictability to our region and to our 
local communities. As a part of our goal to bring stakeholders 
to the table, we hosted the Forest Health Summit to address 
critical forest management issues on State and Federal lands, 
while ensuring the best return for our communities. The summit 
brought together nearly 400 participants from all different 
perspectives. Consensus recommendations were reached by the 
participants, and we are now considering incorporating those 
recommendations into WGA policy.
    The participants recommended, among other things, a 
continued emphasis on the collaborative process, as well as the 
need to ensure that local communities have the infrastructure 
and capability to be partners in the implementation of the 10-
year strategy plan. As the letter the Western Governors sent to 
Congress on June 18 makes clear, the Western Governors are 
convinced that the collaborative process, as it has been set 
forth in the 10-year strategy, has been working.
    We urge you, therefore, to avoid prescriptive approaches to 
protect selection and prioritization. As Congress directed 3 
years ago--and I quote--``key decisions should be made at the 
local levels.'' We have been working hard to implement that 
directive and have a plan in place to do just that.
    Now I would like to discuss with you the environmental 
review appeals and judicial processes. There is no getting 
around it. The Governors have not been able to come to complete 
agreement on what needs to be done to make the administrative 
and judicial processes more efficient. This reflects to a great 
extent the different circumstances we find in each of our 
States. I am sure that Governor Napolitano will describe the 
situation in Arizona.
    But now I would like to share with you a story that many of 
you know only too well. That is the story of salvage operations 
in Montana on the 2000 Bitterroot forest fires. I would have 
brought the Federal environmental review on Federal forestlands 
after the 2000 Bitterroot fires so you could see them, but they 
are just too big. They stack up this high. I am not 
exaggerating by even an inch. I have carried them around our 
State to show people in the State that environmental review is 
this tall. These documents represent 15,000 person-days or the 
equivalent of 57 man-years of work. That is right. Had one 
individual created those documents, it would have taken 57 
years of full-time work to complete that assessment.
    Keeping this in mind, this 57 man-years of work were 
completed and over $1 million was the cost to do that appeals 
process, the books. It was spent to get nearly 15,000 acres of 
timber out of 300,000 acres of burned, dead timber. That is all 
we got out of that $1 million. Out of 57 man-hours, we got 
almost 15,000 acres of burned timber out of 300,000.
    And after all that work, the Federal Government still ended 
up in court. The Federal review was completed well after the 
State of Montana had already implemented active management 
efforts to restore the health of our State lands in the same 
area by the timely removal of burned timber.
    Currently, 190 million acres of Federal forest and 
rangeland are at an unnaturally high risk to catastrophic 
wildfire, larger than all of New England combined. Of the 
approximately 18 million acres of national forested Montana, 
over 12 million acres are classified as condition 2, class 2 
over 3, which means these lands are in critical need of 
treatment.
    To those of us in Montana and much of the West, it is clear 
that the Federal for addressing these problems is horribly 
broken. When roughly 90 percent of the decisions of the 
northern region are appealed, many believe the system is ripe 
for reform. These constant appeals and litigation and the 
threat of these actions have led to gridlock in many parts of 
the West. The time is now for real solutions.
    Despite some differences between the Governors on the scope 
of changes that are needed to our administrative and judicial 
processes, we do have substantial agreement in many areas.
    First, we urge you to recognize that effective use of the 
collaborative process can help eliminate or substantially 
reduce appeals and litigation.
    Secondly, we encourage you to review existing law and 
recent changes to administrative processes to determine if 
changes in the law are necessary to expedite the protection of 
high-risk communities.
    Regarding judicial action, we agree that meaningful 
participation should be required early in the planning process 
in order to establish standing to appeal. We also agree that 
should Congress consider setting new deadlines for judicial 
action, you must not preclude the opportunity for meaningful 
public participation.
    Lastly, we concur that we would all benefit if courts could 
utilize sound science to consider the long-term effects of 
critical forest projects versus the effects of inaction while 
awaiting judicial rulings regarding injunctions.
    Other areas in which the Western Governors are in agreement 
are detailed in our written testimony.
    I would also like to briefly touch on the issue of Federal 
funding. As you know, I testified before this committee 1 year 
ago and I discussed this issue. I understand that last year 
alone the Federal Government spent a little over $2 billion in 
suppressing wildfires. Much of that funding was borrowed from 
other accounts and was not paid back until earlier this year. 
The Western Governors continue to believe that up-front 
investment is fully implementing the 10-year strategy and it 
will suppress costs.
    We appreciate the fact that budgets are very tight right 
now. However, we view this as a top priority, and we believe 
both Congress and the administration believe that as well.
    We appreciate the President's request recently of $289 
million in supplemental wildfire suppression funding and we 
urge you to pass that as quickly as possible.
    But let me conclude by saying that our traditional values 
can help us build a better nation. So let us work together. Let 
us make our voices heard. And I thank you and I pray that God 
continues to bless the hands that made Montana and this Nation 
a better place to live. Thank you.
    Senator Craig [presiding]. Governor, thank you very much 
for that testimony.
    Now let us turn to the Governor of the great State of 
Arizona, Janet Napolitano.

         STATEMENT OF HON. JANET NAPOLITANO, GOVERNOR, 
                        STATE OF ARIZONA

    Governor Napolitano. Thank you. Thank you, Senator Craig, 
Senator Bingaman, and other members of the panel, for the 
opportunity to appear today on behalf of the Western Governors' 
Association.
    As was said, I am Janet Napolitano. I am the Governor of 
Arizona. I am going to make a very brief statement and then ask 
that you include in your record the testimony of the Western 
Governors' Association with its attachments.
    Senator Craig. Governors, your complete statements and any 
attachments will become a part of the committee record. Thank 
you.
    Governor Napolitano. Very good.
    I am also pleased, Senator Craig, to see that the panel 
today includes two members of the Arizona Forest Health 
Advisory Council, Wally Covington from Northern Arizona 
University and a representative from the Grand Canyon Trust. I 
think you will find their testimony insightful and very useful.
    Arizona is not unique to the West, but the West is unique 
to the rest of the country. 97 percent of all Federal lands are 
west of the Mississippi River, and not surprisingly, 100 
percent of America's wildfires so far this year have burned in 
the West. Consequently, the debate over how to best restore 
America's forests is a Western issue with a substantial Federal 
nexus that Congress must address.
    Arizona's forests like those of other Western States are 
suffering from, as you said, the forest equivalent of the 
perfect storm: continued drought, years of decisions to allow 
the forests to become overgrown, and a major bark beetle 
infestation. This perfect storm has resulted in unprecedented 
fire danger, and Arizona is a prime example.
    Last year, we suffered the worst wildland fire season in 
modern times, as more than 600,000 acres went up in flames. So 
far this year, our losses are substantial, but are expected to 
be less than last year's. Last week the seasonal monsoons 
finally arrived which still provide the most effective fire 
suppression tool around.
    If there was any good to come of the fires in Arizona, it 
was that most of them occurred in the back country and posed 
little threat to people, structures, and private property. Fire 
fighters contained those back country fires that posed a 
concern to forest health fairly quickly, and those fires that 
were not raging out of control were used as tools of 
restoration.
    Unfortunately, we had two major exceptions: the Aspen fire 
near Tucson, Arizona and most recently the Kinishba fire on the 
Fort Apache Indian Reservation. Both threatened people and 
property. The Aspen fire destroyed more than 320 homes and 7 
businesses, 70 percent of the mountaintop hamlet of 
Summerhaven. The Kinishba fire last week required the 
evacuation of approximately 5,000 people and threatened more 
than 30,000 inhabitants of communities in northern Arizona. The 
Kinishba fire started in a remote area of the forest on the 
Fort Apache Indian Reservation.
    The good news in a difficult and frightening situation is 
that fire fighters knew from experience they could rely on the 
areas near the northern communities which had already been 
treated by the Apache Tribe to help them gain control of the 
fire before it ravaged the towns. The bad news is that many of 
the Federal lands in this area and around other forested 
communities have been virtually untouched and require 
substantial treatment.
    In light of the years it took to get to the perfect storm, 
and as the Kinishba fire illustrates, restoring Western forests 
to a healthy condition cannot happen overnight. Proper 
pragmatic priorities must be established to make the best use 
of limited resources.
    As you discuss various remedies, please keep in mind that 
we do not need to create a new plan for getting there. The plan 
exists. The 10-year comprehensive strategy and implementation 
plan adopted by the WGA addresses the wildland fire and 
hazardous fuels situations. This plan provides the basis for 
restoring our forests to healthy condition.
    I urge you to focus on what is necessary to implement the 
plan because mere references to the document will not help. As 
you look to amend existing law and review current rules and 
regulations, it is imperative that you embrace the common sense 
strategy embodied in the Western Governors' plan. The plan 
targets the need for collaboration and early and meaningful 
participation in the process. All stakeholders, including 
tribal representatives, landowners, community-based groups, 
associations, environmentalists, industry, and local, State, 
and Federal officials need to be engaged. Engaging stakeholders 
early in the process in a meaningful way will lead to faster 
implementation of good projects on the ground.
    As we implement these projects, we must give priority to 
treatment of forests surrounding threatened forest communities. 
Indeed, the Federal Government has a public safety 
responsibility to direct the resources to protect these 
communities. Helping these forest communities means restoring 
and protecting forests in the wildland-urban interface. Without 
such treatment, these areas pose a threat to people and to 
property, and many of these projects, those that involve public 
safety, should fall under an expedited review process and in 
many cases, if not all, be exempt from NEPA. These projects, 
however, should have clearly defined parameters regarding the 
definition of the wildland-urban interface and incorporate 
local scientific expertise in the project design.
    Existing projects in the wildland-urban interface that have 
been through the review process, such as Kachina Village near 
Flagstaff, Arizona, should receive full funding upon approval. 
Unfortunately, too many already-approved projects wait. In the 
case of Kachina Village, several months passed before less than 
one-third of this more than 7,000-acre project was put out to 
bid, and still more months will pass before any work gets done. 
We have been lucky this year. Fire has not started near Kachina 
Village which lies up-slope from a densely forested area. We 
may not be so lucky next year.
    Prioritizing the areas surrounding communities does not 
exclude, however, treatments deeper in the forest so that 
entire forest ecosystems can be restored and protected from the 
eventuality of a mega-fire. These projects must be based on 
good science, with the primary purpose being the restoration of 
forests to sustainable health. All of this will require a 
congressional commitment to put resources into our forests.
    A recent study by forest economists at Northern Arizona 
University estimates it would cost roughly $6 billion to 
restore 12 million acres of forest in the lower nine 
continental Western States that are at extremely high risk of 
unnatural wildland fire. As the study further describes, we can 
invest roughly $505 per acre to restore our forests or spend 
four times that amount to clean up in the aftermath of a 
wildland fire. The wisdom of the choice to treat forests rather 
than clean up after they have been burned is obvious. It is 
also consistent with the funding projections from the National 
Association of State Foresters for hazardous fuel reductions. 
The goal is achievable, the funding is the key.
    Last year, the Forest Service spent roughly $96 million 
suppressing wildland fires in Arizona, while a mere $9.6 
million was targeted toward prevention activities, including 
fuel reduction projects. We must change this equation and spend 
money up front to save money and possibly lives and property in 
return. Unfortunately, and as this committee is well aware, 
budget requests for hazardous fuels reduction fall far short of 
the need. Indeed, it holds a stagnant $186.1 million or a total 
of $558.3 million over the past 3 years for the Forest Service. 
For the same period, the National Association of State 
Foresters recommended $1.4 billion.
    The Western Governors have consistently advocated increased 
funding through the National Fire Plan to implement all of the 
actions called for in the 10-year strategy. Believe me, the 
States can relate to the current fiscal situation of the 
Federal Government. We have historical fiscal problems of our 
own to deal with. In this case, however, we cannot afford not 
to invest in forest thinning because hard experience has 
already taught us that without this investment, we will pay far 
more in the future for fire suppression, disaster recovery, and 
loss of forest habitat.
    Much has been said about the time savings that we will 
achieve by streamlining the environmental review and appeals 
processes. The Western Governors agree that the process can and 
should be made more efficient. Nonetheless, absent appropriate 
funding levels and a commitment to the Western Governors' plan, 
procedural changes alone will not address the problem.
    Consequently, any Federal legislation must accomplish three 
things: prioritize initial resources and efforts to those areas 
that pose a threat to people and property; embrace a 
collaborative process to identify and plan projects that will 
lead to more successful implementations; and make the necessary 
investment to get the job done. And if you are looking for a 
proving ground to show how to move projects forward through 
planning and implementation to completion, I volunteer Arizona 
to be your example.
    Finally, in Arizona, like most Western States, we do not 
have the infrastructure for industry to offset the costs of 
forest thinning projects. We will work with industry but we 
should not have to wait for industry to come. While there may 
be no perfect solutions to abate the perfect storm, there are 
pragmatic ones, and the Western Governors' Association has put 
these before you.
    That concludes my testimony, and I would be happy to answer 
questions the committee might have, Mr. Chairman.
    [The prepared statement and a letter from the Western 
Governors' Association follow:]

   Prepared Statement of Hon. Judy Martz, Governor, State of Montana

    Thank you Chairman Domenici, Senator Bingaman and the other 
distinguished members of this Committee for the invitation to appear 
and to submit written testimony for today's hearing. This statement is 
submitted on behalf of the Western Governors' Association by Governor 
Judy Martz of Montana, Chair of the Western Governors' Association; 
Governor Bill Richardson of New Mexico, Vice-Chairman; and Governors 
Janet Napolitano of Arizona and Dirk Kempthorne of Idaho, co-lead 
Governors for forest health. WGA is an independent, non-partisan 
organization of Governors from 18 Western States and three U.S.-Flag 
Islands in the Pacific. We appreciate this opportunity to present the 
views of the Western Governors.
    As you are all aware, wildfires are again sweeping through much of 
the West. All of us have seen the devastation wrought by these 
catastrophic fires raging through many of our most precious forests and 
communities. While we are all hoping that this fire season will be less 
destructive than 2000 or 2002, it does not appear that the overall 
situation is getting better. Unless we get a handle on this issue soon 
we may find that what would have been seen as an extraordinary fire 
season in the past will now be considered routine. Western Governors 
are, therefore, anxious to see action taken by Congress to help 
alleviate the situation.
    We are, however, not just sitting back and waiting for the federal 
government to take action. Western Governors have been very actively 
engaged in bringing stakeholders together to seek consensus solutions 
to our forest health crisis. In fact, just last month we held a Forest 
Health Summit in Missoula, Montana that brought together nearly four 
hundred public officials, industry representatives, environmental 
groups, scientists, and other interested stakeholders. Consensus 
recommendations were reached by the participants and the governors are 
considering them for WGA policy. The recommendations focused on 
encouraging collaborative processes consistent with the 10-Year 
Strategy to address the hazardous fuels issue. Also stressed was the 
need to work with local communities to ensure they have the 
infrastructure and capacity to be partners in the implementation of the 
10-Year Strategy and the National Fire Plan.
    Western Governors are most concerned about communities at risk and 
reducing the dangers posed to people, property and watersheds in the 
Urban Wildland Interface. We must establish priorities for fire 
prevention and protection that emphasize these areas at risk. Western 
Governors are active participants in the Wildland Fire Leadership 
Council (WFLC). WFLC recently adopted field guidance for identifying 
and prioritizing communities at risk. This guidance was specifically 
called for in the 10-Year Strategy Implementation Plan and was 
collaboratively developed by the National Association of State 
Foresters, the federal government and a number of other interests. The 
field guidance provides a process for state and locally driven 
collaborative efforts to make hazardous fuel projects prioritizations 
and selections that presents an alternative to topdown centralized 
management. A copy is attached to this testimony for your reference.*
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
    We have also been watching the Congressional debate over forest 
policy with great interest. We have been encouraged by the broad 
bipartisan support expressed for the 10-Year Comprehensive Strategy and 
Implementation Plan (together ``the Strategy''), which, at Congress' 
direction, the Western Governors played a key role in drafting. As most 
of you would recall, the Conference Report for the Fiscal Year 2001 
Interior and Related Agencies Appropriations Act (P.L. 106-291) 
required the development of a 10-year comprehensive strategy. 
Specifically, the Conference Report stated that:

          ``The Secretaries should also work with the Governors on a 
        long-term strategy to deal with the wildland fire and hazardous 
        fuels situation, as well as the needs for habitat restoration 
        and rehabilitation in the Nation. The managers expect that a 
        collaborative structure, with the States and local governments 
        as full partners, will be the most efficient and effective way 
        of implementing a long-term program.
          The managers are very concerned that the agencies need to 
        work closely with the affected states, including Governors, 
        county officials, and other citizens. Successful implementation 
        of this program will require close collaboration among citizens 
        and governments at all levels. . . The managers direct the 
        Secretaries to engage Governors in a collaborative structure to 
        cooperatively develop a coordinated, National ten-year 
        comprehensive strategy with the States as full partners in the 
        planning, decision-making, and implementation of the plan.
          Key decisions should be made at local levels.''

    We have been diligently following those directives. In the process, 
we have been convinced that the collaborative processes established in 
the Strategy represent a significant, and positive, change in the way 
in which we manage our public lands and forests. Our foremost interest, 
therefore, is in ensuring that legislation adopted by Congress does not 
hamper the progress that has been made in fostering the collaborative 
process that was set forth in the Strategy.
    The bills under consideration today would begin to codify some key 
elements of the Strategy, in particular by encouraging the Secretaries 
of Agriculture and Interior to facilitate collaboration among 
government agencies and concerned persons as early as possible and 
before projects are selected and initiated. This early input can 
expedite project planning and decisions, reveal problems and issues and 
prompt their resolution. At a minimum, it will reduce uncertainty about 
what land management proposals are contentious and why. While no 
panacea, early collaboration will help to develop the trust necessary 
to enable professional managers to deliver on the Forest Service's 
commitment to improved forest health.
    Congress ought to use this opportunity to take a step further in 
energizing the collaborative process and empowering stakeholders to 
actively participate in the management of their public lands. As public 
officials, we (Governors, Members of Congress, Administration 
officials, etc.) all need to lead the effort to encourage stakeholders 
to become involved in these decisions. Congress has the additional 
ability to not only encourage these efforts, but to provide both 
funding and guidance to federal agencies to make these activities 
possible.
    Federal land managers, in conjunction with State Foresters, tribes, 
local officials, and stakeholders should have the authority and the 
flexibility to identify areas needing treatment while bringing together 
the widest range of landowners to accomplish forest restoration on the 
needed scale. Therefore, Congress should promote fuel reduction 
projects that are identified by government organizations and 
stakeholders through the collaborative process. Consistent with the 
Strategy, priority in project selection would be given to projects that 
reduce fire risk in communities at risk and the watersheds that supply 
them.
    Like the country as a whole, the Western Governors hold different 
and sometimes conflicting opinions on what should be done to make the 
administrative and judicial appeals processes more efficient. This 
reflects the different circumstances we find in each of our states as 
well as differences in our underlying philosophies. However, there are 
some key issues upon which we have found common ground. We agree that 
there are some areas where people living in the wildland-urban 
interface are at extraordinary high risk. Therefore, we encourage you 
to review existing law and recent changes to administrative processes 
regarding high-risk communities to determine if changes in the law are 
necessary to expedite the protection of these areas. We urge you to 
further recognize that effective use of the collaborative process can 
help eliminate or substantially reduce litigation and thereby expedite 
necessary fuel treatments across the millions of acres of lands at risk 
in the West and nationwide.
    Regarding judicial action, we agree that meaningful participation 
should be required early in the planning process in order to establish 
standing to appeal. We also agree that, should Congress consider 
setting new deadlines for judicial action, they must not preclude the 
opportunity for meaningful public participation. Lastly, we concur that 
we would all benefit if courts would utilize sound-science to consider 
the long-term effects of critical forest projects versus the effects of 
inaction while awaiting judicial rulings regarding injunctions.
    Western Governors also believe that stewardship contracting can be 
a useful tool for accomplishing hazardous fuel reduction activities. We 
commend Congress for providing this authority in the FY 2003 Omnibus 
Appropriations Act. Assuming appropriate analysis of the pilot projects 
underway is provided and proves supportive of this approach, Congress 
should now authorize the Secretaries of Agriculture and the Interior to 
enter into agreements with interested Governors for the state to work 
in partnership with federal officials to implement stewardship projects 
in appropriate locations throughout the state and across multiple 
ownerships. The state's role in each project would be negotiated, but 
could range from project planning and environmental assessment to 
community outreach and contracting for treatment. Federal personnel 
would retain the final decision-making authority on federal lands as 
required by law. Such a partnership between state and federal 
governments could accomplish vital proactive fuel treatment projects. 
Monitoring and adaptive management should continue to be a part of the 
stewardship program to ensure accountability and public trust in the 
program.
    In addition, Section 7 consultation under the Endangered Species 
Act needs to be accomplished more quickly and more efficiently. 
Consulting on similar projects as a group (rather than individually) or 
developing joint implementing regulations for consultation under the 
ESA (programmatic consultation) could be used for quick and efficient 
project planning. Congress should direct the federal agencies to use 
these tools while assuring that the long-term protection of species is 
the defining goal. As to the National Environmental Policy Act, we have 
outlined in WGA policy resolution number 02-08 numerous administrative 
steps that can be taken to improve this process that should be 
encouraged by this Congress. For your reference, a copy of that 
resolution is attached to this statement.*
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
    Finally, Western Governors have consistently advocated increased 
funding, through the National Fire Plan, to implement all of the 
actions called for in the Strategy. While current legislative and 
administrative efforts have appropriately focused primarily on 
hazardous fuels reduction, it should be noted that there are four 
equally important goals outlined in the Strategy:

          1. Improve Fire Prevention and Suppression;
          2. Reduce Hazardous Fuels;
          3. Restore Fire-Adapted Ecosystems; and,
          4. Promote Community Assistance.

    Western Governors believe that we must approach this problem 
comprehensively. Congress must continue to play a key role in ensuring 
that the Strategy is adequately funded, and that the funding actually 
gets to the ground. Many of our constituents have come forward with 
examples of projects that have cleared the environmental review process 
but have not been implemented due to a lack of funding. It would be an 
absolute tragedy for lives to be lost, or a community damaged or 
destroyed simply due to a lack of funding. We appreciate the fact that 
fully funding the Strategy represents a significant commitment, 
particularly in these difficult budget times. However, we continue to 
believe that, over the long-term, restoration and thinning to protect 
homes, watersheds, and habitat is much less expensive than fighting 
fires and addressing their aftermath. If the Strategy is fully funded, 
therefore, suppression costs will diminish over time as communities 
restore forests to their natural conditions, in part, by affording them 
the necessary tools to accomplish this work.
    Congress must also help find a way to avoid the vicious and 
destructive cycle of borrowing from hazardous fuels reduction and other 
proactive project accounts to pay for immediate fire suppression costs. 
Although we understand that most of the accounts that were raided last 
summer were repaid earlier this year, many proactive projects were, at 
the very least, delayed by six-months or more. That is time we will 
never get back, and we are simply putting more lives, communities and 
habitat at risk. We must figure out a way of paying for ongoing 
suppression costs without delaying much needed proactive work which, in 
the end, will help reduce suppression costs, save lives, communities 
and habitat. We were greatly encouraged by the Administration's recent 
request of $289 million in supplemental wildfire suppression funds. We 
hope that this additional funding will alleviate the need to borrow 
funds from other accounts this year. We urge Congress to pass this 
funding request as soon as practicable.
    Thank you again, Chairman Domenici, Senator Bingaman and the other 
distinguished members of this panel, for the opportunity to present the 
views of the Western Governors.

                             Western Governors Association,
                                         Denver, CO, June 18, 2003.
Hon. Thad Cochran,
Chairman, Senate Agriculture, Nutrition & Forestry Committee, 328A, 
        RSOB, Washington, DC.
Hon. Tom Harkin,
Ranking Member, Senate Agriculture, Nutrition & Forestry Committee, 
        328A RSOB, Washington, DC.
Hon. Pete Domenici,
Chairman, Senate Energy & Natural Resources Committee, 364 SDOB 
        Washington, DC.
Hon. Jeff Bingaman,
Ranking Member, Senate Energy & Natural Resources Committee, 364 SDOB 
        Washington, DC.
    Dear Senators Cochran, Domenici, Harkin and Bingaman: We understand 
that your committees will soon be considering forest health-related 
legislation. Western Governors applaud your commitment to tackle this 
difficult, but vital issue. In light of the overstocked and dangerous 
conditions of many of our forests and rangelands and the resulting 
catastrophic wildfire seasons the West has experienced the last several 
years, it is clearly a much needed and timely debate. Thank you for 
your leadership on this issue.
    We watched with great interest the House debate on H.R. 1904 the 
Healthy Forests Restoration Act of 2003. We were encouraged by the bill 
drafters' inclusion of the Western Governors' Association supported 
Implementation Plan and some key elements of the 10-Year Comprehensive 
Strategy (together the ``Strategy'') in the bill. However, there are 
some elements that require further consideration by the Senate. As you 
know, the WGA helped to create the Strategy after determining that 
opportunities exist to address fire risks by focusing on areas of 
agreement rather than perpetuating longstanding conflicts. The Strategy 
aims to guide agencies in addressing the current condition of our 
forests in a collaborative and locally driven manner across all 
landscapes. The Strategy has been endorsed by the Secretary of 
Agriculture, and the Secretary of the Interior, as well as the Southern 
Governors' Association, the Intertribal Timber Council, the National 
Association of Counties, and the National Association of State 
Foresters.
    While we are convinced that the collaborative processes established 
in the Strategy should be used both to select, on a local level, most 
individual hazardous fuel reduction projects, and to set regional and 
national priorities for fuel treatments, there are some areas where 
people living in the wildland-urban interface are at high risk. 
Therefore, the Senate should review existing law and recent changes to 
administrative processes regarding high-risk communities to determine 
if changes in the law are necessary to expedite the protection of these 
areas. As administrative and statutory reforms are discussed, we urge 
you to recognize that effective use of the collaborative process can 
help expedite necessary fuel treatments across the millions of acres of 
lands at risk in the West and nationwide.
    Western Governors are anxious to see legislation that facilitates 
achieving the goals and processes agreed to in the Strategy. Federal 
land managers, in conjunction with State Foresters, tribes, local 
officials and stakeholders should have authority and flexibility to 
identify areas needing treatment while bringing together the widest 
range of landowners to accomplish forest restoration on the needed 
scale. The Senate should promote fuel reduction projects identified by 
government organizations and stakeholders through the collaborative 
process. Consistent with the Strategy, priority in project selection 
should be given to projects that reduce fire risk in communities at 
risk and the watersheds that supply them.
    One means of enhancing local decision-making is to make full use of 
the stewardship contracting authorization that Congress recently 
provided. We commend Congress for providing this authority in the FY 
2003 Omnibus Appropriations Act. Assuming appropriate analysis of the 
pilot projects underway is provided and proves supportive of this 
approach, the Senate should now authorize the Secretaries of 
Agriculture and the Interior to enter into agreements with interested 
Governors for the state to work in partnership with federal officials 
to implement stewardship projects in appropriate locations throughout 
the state and across multiple ownerships. The state's role in each 
project would be negotiated, but could range from project planning and 
environmental assessment to community outreach and contracting for 
treatment. Federal personnel would retain the final decision-making 
authority on federal lands as required by law. Such a partnership 
between state and federal governments could accomplish vital proactive 
fuel treatment projects. Monitoring and adaptive management should 
continue to be a part of the stewardship program to ensure 
accountability and public trust in the program.
    Regarding judicial action, meaningful participation should be 
required early in the planning process in order to establish standing 
to appeal. The collaborative approach set forth in the Strategy can 
eliminate or substantially reduce litigation. Should the Senate 
consider deadlines for judicial action, they must not preclude the 
opportunity for meaningful public participation. Lastly, we would all 
benefit if courts would utilize sound-science to consider the long-term 
effects of critical forest projects versus the effects of inaction 
while awaiting judicial rulings regarding injunctions.
    In addition, Section 7 consultation under the Endangered Species 
Act needs to be accomplished more quickly and more efficiently. 
Consulting on similar projects as a group (rather than individually) or 
developing joint implementing regulations for consultation under the 
ESA (programmatic consultation) could be used for quick and efficient 
project planning. The Senate should direct the federal agencies to use 
these tools. As to the National Environmental Policy Act, we have 
outlined in WGA policy resolution number 02-08 numerous administrative 
steps that can be taken to improve this process that should be 
encouraged by this Congress.
    Finally, Western Governors have consistently advocated increased 
funding, through the National Fire Plan, to implement all of the 
actions called for in the Strategy. If the Strategy is fully funded, 
suppression costs will diminish over time as communities restore 
forests to their natural conditions, in part, by affording them the 
necessary tools to accomplish this work.
    The WGA Forest Health Summit will provide us with additional views 
from our constituents on this topic. If appropriate, we may, therefore, 
submit additional WGA views to you.
    Thank you again for your leadership on this vital issue. We stand 
ready to work with you to speed up the process of returning our forests 
to a natural and sustainable condition while protecting the West's 
communities, air, water, and wildlife.

            Sincerely,

Judy Martz
Governor of Montana
Chair
  
Janet Napolitano
Governor of Arizona
Lead Governor for Forest Health
Bill Richardson
Governor of New Mexico
Chair
  
Dirk Kempthorne
Governor of Idaho
Lead Governor for Forest Health

    The Chairman [presiding]. Thank you very much, Governors.
    Senators, we did not limit the Governors' time, but could 
we try to limit our own? We still have a huge number of 
witnesses. So let us start with Senator Bingaman. Do you have 
some questions, please?
    Senator Bingaman. Mr. Chairman, I will just ask about one 
issue since I know you have a great many witnesses and the 
Governors have been very generous with their time here.
    In the prepared testimony that you both submitted here, you 
talk about the vicious and destructive cycle of borrowing from 
hazardous fuels reduction and other proactive project accounts 
to pay for immediate fire suppression costs. This is something 
that I am trying to be sure we address in any legislation that 
we wind up enacting in this area.
    It strikes me that we have created this problem for 
ourselves by putting the responsibility for fire fighting in 
the same agency that has responsibility for these restoration 
and thinning projects. Therefore, we are able to just say, as 
we have been, to this agency, to the Forest Service, go find 
the money in some of your other accounts in order to do the 
fire fighting that is required each year, and then we will pay 
you back. And eventually those other accounts are paid back to 
an extent, not fully, as I understand it. I think a couple 
hundred million were taken out of those accounts that have not 
been paid back in the last year, but the delay that is 
involved, even when the payback does come, is very substantial.
    I do not know if either of you have had a chance to look at 
the proposal that I have included in the bill that I introduced 
to try to have direct authority to go and borrow from the 
Treasury. In order to fight fires, the Forest Service would be 
authorized to go ahead and borrow from the Treasury rather than 
having to take it out of their own accounts. Is that a 
solution? Is there a better solution out there? Let me ask 
Governor Napolitano first and then Governor Martz if you have 
any thoughts on that.
    Governor Napolitano. Yes, Senator Bingaman. I think that it 
is a solution that ought to be examined. I think the key 
problem is one you put your finger on; there is no new money 
that is being added to the forest issue. And the forest issue 
is not just fighting fires, it is restoring forests to health. 
It is hazardous fuels reduction on a fairly extensive level. To 
simply kind of move shells around within the Forest Service 
budget will not get us to where we need to go. So providing for 
a direct authorization from the Treasury, whatever other kind 
of mechanism that would provide the additional resources that 
are necessary to really deal with this problem has got to be 
very important. In my view unless those additional resources 
are not found or allocated here, we will not accomplish what 
needs to be accomplished in the Western States.
    Senator Bingaman. Governor Martz.
    Governor Martz. Senator, I think that you would be the best 
judge of where the money should come from, but absolutely it 
should come from different sources I believe because you have 
to do both of those things simultaneously. As the fires are 
burning, you should be treating other lands that have been 
burned. You should be stabilizing stream beds, rehabilitating 
habitat, looking to see where you can replant vegetation. So I 
absolutely believe the funding should not be pulled from that 
one source. It should not be either/or. It has to be both at 
the same time.
    Senator Bingaman. I will stop with that, Mr. Chairman. 
Thank you.
    The Chairman. First of all, let me say while I tend to 
agree, Senator Bingaman, with your request that we try to find 
a way so we do not borrow money, I hope we do not try to solve 
this issue by figuring that that is the solution to find a 
source of money. That is not the solution because the problem 
is bigger than not having the money. The problem is that we 
cannot get it done even if we had the money because of rules, 
regulations, and holdups.
    For instance, let me move ahead with Governor Martz for a 
minute. Over 1.1 million acres burned in northern Idaho and 
Montana, most of which was in your State. You have had 2 years 
to watch the Forest Service, NEPA, and appeals process work for 
Montana. Has it worked to your satisfaction?
    Governor Martz. Absolutely not. It has not.
    The Chairman. It seems to me that both S. 1314 and S. 1352 
rely on the use of limited categorical exclusions to streamline 
the NEPA and appeals process while H.R. 1904 streamlines NEPA, 
the appeals process, and the judicial review. Would the 
approach proposed in S. 1314 and S. 1352 have been adequate in 
terms of what you faced in Montana after the 2000 fires?
    Governor Martz. Not in its entirety, no.
    The Chairman. The courts have played a major role in 
slowing and stopping the projects in your State.
    Governor Martz. They have. And 90 percent of the projects 
that we needed to do work and still need to do work on, the 
courts have stopped and the appeals have stopped the process.
    The Chairman. Would we be wasting our time if we passed 
legislation that fails to address the judicial problems of 
balance of harms and the need to expedite decisions on 
hazardous fuel and insect mitigation?
    Governor Martz. Absolutely.
    The Chairman. I see from the daily fire reports that the 
fire season is well underway. I know that your State also 
suffered horrific insect attacks and you have repeatedly asked 
Congress to take steps to help your State. You have now been in 
office for 2\1/2\ years. You are still waiting.
    In California, Governor Davis declared an emergency in 
several counties and directed landowners to remove dead and 
dying trees or face having the county complete the work. Since 
your State is so heavily federalized, have you considered 
declaring an emergency on the Federal lands in your State so 
the counties could begin to clean up?
    Governor Martz. Yes, Senator, we have talked about that. We 
have not done that yet. New Mexico did that also either last 
year or the year before last, and it was effective. It is 
something that we still talk about and it may be something that 
we have to do if we cannot get a process that works. We had 
last week 56 new fire starts in one day. Yesterday we had 22 in 
addition to those 56, for another additional 54,000 acres. So 
something has to be done. We cannot wait. Here we are another 
year since I have been here. Last year we were having pretty 
much the same conversation.
    The Chairman. Thank you.
    Governor Napolitano, so far this year Arizona has burned 
over 147,000 acres, 1,200 fires. Last year 3,200 fires burned 
629,000 acres, most of which occurred in the Rodeo-Chediski 
fire. Is that the right way to say that?
    Governor Napolitano. Yes.
    The Chairman. And does the Western Governors' Association 
think that just putting a shaded fuel break for one-half mile 
around each community or the wildland-urban interface area is 
sufficient to deal with this situation?
    Governor Napolitano. No, it does not for a couple of 
reasons. One is that you need to have treatments deeper in the 
forests, and you are going to hear about that from the panel of 
experts that will be before you this morning. You need to place 
a priority--and I think all three of the bills you mentioned do 
place a priority--on the area around communities because there 
you are protecting people and property. But really a holistic 
treatment requires you to go deeper into the forest ecosystems.
    Secondly, as Governor Martz alluded to and as I think has 
been alluded to by the panel, simply dealing with the wildland-
urban interface will not help without some additional resources 
put into fires in the West.
    The Chairman. Now, Governors, assume we are going to try to 
address the issue of resources so that you do not have that as 
an answer here. The Forest Service, NEPA, and administrative 
appeals process seem, at least to me, to make it impossible to 
react to these insect epidemics in a timely manner. Does the 
Western Governors' Association support the streamlining of the 
Forest Service process of dealing with insect and disease 
outbreaks, even if it means cutting down and selling some of 
the larger dead, infected trees?
    Governor Napolitano. Yes. The Western Governors' position, 
Senator Domenici, is that there should be administrative 
changes to NEPA and other review processes to deal with and 
help deal with the large amount of acreage that has been 
infested either by the bark beetle or by some other parasite.
    The Chairman. I thank you so much for your absolute 
honesty.
    Is the Western Governors' Association convinced that any of 
the three bills that we are discussing today is sufficient to 
deal with the mega-insect and disease complexes that we face in 
many of our States?
    Governor Napolitano. Are you asking me, Senator?
    The Chairman. Yes, Governor Napolitano.
    Governor Napolitano. I think there are elements in all 
three bills that, properly melded together, would actually 
replicate what the 10-year strategy is, and that plan is before 
you and has been bought into, as it were, by all the 
stakeholders in this process.
    The Chairman. Thank you so very much.
    Fellow Senators.
    Senator Wyden. Mr. Chairman?
    The Chairman. Yes.
    Senator Wyden. Thank you, Mr. Chairman.
    Governors, it is very good to have you, and I cannot ever 
pass up an opportunity to try to look for the common ground. We 
have got a Democrat and Republican here.
    Governor Martz, I think you made the point. You were here a 
year ago and we are now having the same conversation. It just 
kind of goes on and on. I will offer to both of you my sense is 
that we could resolve everything else if we can get there on 
judicial review. I think that I can really see the end in 
sight, the 60 votes, if we can get over the judicial review 
aspect of this.
    Senator Feinstein and I have spent a lot of time trying to 
talk to all of the parties in the South and the West and have 
really two key elements in our judicial reform proposal. The 
two key elements are, first, prevent venue-shopping so that 
people cannot traipse all over the countryside looking for a 
court that would be hospitable to them. So the first thing we 
do is prevent venue-shopping away from the Federal district 
court where the land in question lies.
    The second significant change to us is requiring with the 
temporary injunctions to have to come back every 60 days, so 
you do not just get to chew up eons of time ongoing toward 
infinity I guess, and with this kind of updating process, a 
court can see that people are really working in good faith and 
trying to move ahead.
    My question to both of you is do you share the view of 
Senator Feinstein and me that these two changes in judicial 
review would make a real difference as the Congress tries to 
tackle it. That is going to be the first question. I am going 
to ask you one other, but the first I would like to have is the 
two of you on the record on the two key reforms and the effort 
we have produced and your judgment about whether that would 
make a real difference on the issue which I think is the 
sticking point.
    Governor Napolitano.
    Governor Napolitano. Senator Wyden, before responding to 
your question, let me suggest a framework in which to answer 
the question and that is that should the legislation passed by 
the Congress provide for meaningful early participation by 
public stakeholders and then the requisite limit on standing, 
which the WGA does support, then we can get to some of these 
other judicial review questions.
    Now, the WGA has not taken a position on this particular 
bill, but speaking as the Governor of Arizona, I would say on 
the record that I support the limitation on, as you describe 
it, venue-shopping so that the actions are brought in the areas 
that are directly affected by the proposed projects.
    Secondly, with respect to limiting TRO's to 60 days, that 
does not seem to me unreasonable if you can get into Federal 
court. I would say lastly, however, that in my experience in 
Arizona the major cause of delay, if you were to plot these 
things on a time bar, is not once you get into Federal court. 
It is before you actually get into Federal court.
    Senator Wyden. Governor Martz.
    Governor Martz. Mr. Chairman, Senator, I really believe 
that as we look at time lines, I am not sure whether your time 
lines are right or whether they are wrong. I just know when we 
keep delaying things as the beetles work--we do not even have 
the biomass to work with to use it for anything, to heat 
schools, to do anything.
    So I have a suggestion that we will be talking about at the 
next Western Governors' Association meeting that I really 
believe our judicial system, the way it is set up to deal with 
this issue, we should have someone that will deal with not only 
the letter of the law, but the intent of the law so that we can 
move forward instead of having to go back, whether it is 60 
days or 30 days. It does not take a beetle very long to do what 
has been done to Alaska. In fact, we were up there with the 
President in Oregon at the Biscuit fire, and the fire had 
occurred 2 weeks before we were there and could hear the 
beetles as we stood there. I think you might have been there 
when we were there.
    But I really believe that whether it is to appoint an 
authority that has judiciary authority like a magistrate or 
magistrates that would work--this is not something the Western 
Governors have talked about yet. So I am telling you something 
that I believe in my heart. We need to change the way we are 
doing business.
    Senator Wyden. But in your opinion, Governor, because we 
are going to just keep struggling to try to find a way to end 
the conversation--I do not want you back here in another year.
    Governor Martz. I do not want to come back in a year.
    [Laughter.]
    Senator Wyden. You said it well.
    Well, Senator Feinstein and I have spent a lot of time on 
the judicial review question. Governor Napolitano, a Democrat, 
said our two elements would make a real difference. I would 
just like you on the record.
    Governor Martz. It would move us. It would move us. We need 
to be moved. We need to move.
    Senator Wyden. We will be working very closely with you and 
I appreciate the constructive way you have proceeded.
    Thank you, Mr. Chairman.
    The Chairman. Senator Bingaman has a question.
    Senator Bingaman. Let me just ask. We had a report done by 
the General Accounting Office on the issue of what is delaying 
decisions by the Forest Service. They said that for the fiscal 
years 2001 and 2002, there were a total of 762 decisions by the 
Forest Service to go forward with forest thinning and that 23 
of those went to court, 3 percent; that 21 of the 23 were 
timber sales, and the Forest Service lost 22 of the 23 that 
went to court.
    I am just asking if either of you have had a chance to look 
at that report because it strikes me, if they are right--I do 
not disagree that it is an important issue for us to talk about 
judicial review, but it does not seem to me that that is the 
core of the problem in delay. If 3 percent of the decisions are 
being appealed to the courts, that cannot possibly be the total 
problem that we are dealing with.
    Governor Napolitano, then Governor Martz.
    Governor Napolitano. Senator Bingaman, yes, that was the 
reason I said at the end of my remarks with Senator Wyden that 
when you look at the time bar of how these cases normally go, 
the biggest expanse of time is normally spent at the agency 
level. And that is why the WGA has advocated for streamlining 
that administrative process.
    But in terms of the venue-shopping, I genuinely think that 
is a good idea for a whole host of reasons.
    And on the 60-day reporting on a TRO, I do not know about 
New Mexico, but in Arizona we have many standing orders in our 
Federal courts on other areas where on any kind of TRO you have 
to come back to the court and say what is happening and keep 
the court up to date. So this would be merely a way for those 
few cases that are in judicial review to make sure they are 
moving along.
    Senator Bingaman. Are you saying that most of the TRO's in 
these other areas expire at the end of 60 days if you do not 
take action, if the court does not----
    Governor Napolitano. It really depends on the case, Senator 
Bingaman, but it is not unusual in our Federal courts to have 
some kind of time limit and report back when you are dealing 
with a TRO, but more frequently a preliminary injunction.
    Senator Bingaman. I certainly understand the reporting-back 
requirement, but usually the court's order does not lose its 
effect after a certain period of time. I do not think there are 
many instances where Congress has legislated the end of a court 
order after a certain period of time. I do not believe. Maybe I 
am wrong about that.
    Governor Napolitano. An important distinction.
    Senator Bingaman. Governor Martz.
    Governor Martz. Mr. Chairman, Senator, that number, when I 
read the number--and I did read this some time ago when that 
came out. It baffled me because in Montana 90 percent of our 
sales are appealed.
    Senator Bingaman. But that is administrative appeal, as I 
understand it.
    Governor Martz. Yes.
    Senator Bingaman. And they have acknowledged that in the 
same report that I am asking about. 90 percent of the decisions 
which are subject to appeal do go into an administrative 
appeal, but they have gone on to say that very few go on to 
court.
    Governor Martz. The end result is the same. The time that 
we waste through those processes. It is time wasted as far as 
the timber goes and the value of the wood and the use of the 
wood. That is after a fire. But if we are talking about forest 
health, which I think we are talking about mostly today--all of 
this has to do with fires, but if we are talking about forest 
health, if the money is spent previous to the fire and the 
appeals can be stopped so we can get some of this wood out, get 
some of the underbrush, we will be a lot further ahead.
    Senator Bingaman. I agree with that. I think we have a 
tendency in Congress to always say if the Federal courts would 
just do what is right, that would solve the problem. I do not 
really think that the Federal courts are the main cause of the 
catastrophic fire problem that we have in the West or our 
inability to deal with it.
    The Chairman. I do not know how we want to handle the rest. 
Time is really running, and I have a particular personal 
problem about my time I want to share with the Senators.
    But before I do, I want to say to Senator Bingaman, Senator 
Bingaman, I do not agree with your conclusion. I do believe the 
GAO study is off the mark. I do not believe it addresses the 
right issue, as is frequently the case with the GAO, and I am 
not prepared to tell you how, but I will, if that is necessary, 
at our next hearing.
    I do believe the court system is, overall and what is 
happening in how it is being used, significantly responsible 
for the problem. Now, I do not know whether I would use any 
other word, the ``principle'' one or the like. But it is really 
a part of the problem that must be solved regardless of this 
small number that the GAO concludes has been affected. I do not 
agree with that conclusion, having talked to so many people 
that seem right off to say that is incredible. There is 
obviously, in my opinion, something wrong with the focus of the 
study that we will have to look at and study a little more.
    Now, Senators, not that these witnesses are not 
professional, they certainly are, but we have a whole batch of 
professional witnesses. Can we agree now to limit the time of 
the questioning of the Governors and proceed with the panels, 
except the Senator from Arizona, you ought to be heard. You 
have your Governor here.
    Senator Kyl. Mr. Chairman, thank you very much, and I want 
to apologize for not being able to be here to introduce the 
Governor. Obviously, she makes a presentation on her own 
without my introduction, but as a matter of courtesy, I want to 
thank her for being here, for her interest in this issue, for 
her testimony, and I wish I could have said some words by way 
of introduction in the beginning.
    It is important for us to hear from our Governors. In 
Arizona we experience the fire season a little earlier than 
most other States because of the dryness and the rise in 
temperatures earlier than in most States. The Governor has been 
very, very involved, really from the time that she was elected, 
in this very serious issue facing our State. We have had 
conversations about it. We will have many more, and I 
appreciate very much her being here and representing the 
Western Governors today, as well as Governor Martz, but I 
especially want to express my appreciation to our Governor from 
Arizona, Janet Napolitano.
    The Chairman. All right. Thank you, Governors. We very much 
appreciate your coming, and your testimony was most relevant.
    Now we will have panel number 2, Mark Rey, Under Secretary, 
and Ms. Rebecca Watson, Assistant Secretary, both of them from 
the U.S. Department, one Agriculture and one Interior.
    Let me announce to the Senators that Senator Burns is going 
to preside, and you can do that, Senator, from either there or 
take my seat, whichever your prefer. I have been asked to go 
the Leader's office regarding the energy bill, so hold me 
excused.
    Before I leave, I would like to ask if the Commissioner 
from New Mexico, Mr. Mike Nivison--where is the commissioner? 
Let me just tell you that I will not be here to ask you 
questions because I have been called off, but thank you for 
coming, and we look forward to your testimony.
    We will take the two government witnesses now, Senator 
Burns and fellow Senators. Thank you for the participation. 
Senator Burns.
    Senator Burns [presiding]. I do not know who outranks who 
here. They keep pointing at one another. Thank you for coming 
this morning, and we will take the testimony of Ms. Watson this 
morning. Thank you for coming.

  STATEMENT OF REBECCA WATSON, ASSISTANT SECRETARY, LAND AND 
        MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Watson. Good morning, Senator Burns and members of the 
committee.
    We would like to thank the committee for inviting us to 
address the issue of forest health once again. The U.S. Forest 
Service and the Interior Department have submitted a joint 
statement for the record. It describes the administrative 
initiatives we have put in place to address forest and 
rangeland health, but we believe that more needs to be done.
    This spring, President Bush called on Congress to move 
quickly to pass the Healthy Forest Restoration Act to assist 
the administration in accomplishing its Healthy Forest 
Initiative, a common sense approach to improve the health of 
our forests and rangelands.
    Approximately 190 million acres are in need of active 
management because of the accumulation of dense undergrowth, 
diseased and insect-infested trees, and the presence of highly 
flammable weeds. Population growth into the wildland-urban 
interface complicates management. Treatment of these conditions 
can reduce the risk of catastrophic wildfires, improve the 
health of our public lands, and protect local watersheds.
    Insects. While native insects have been present in our 
forests historically, changes in forest density, composition, 
and structure caused by fire exclusion have resulted in 
extensive insect outbreaks. Dense forests stressed by drought 
conditions are more susceptible to insect and disease mortality 
and, in turn, these forests are more vulnerable to fire.
    Weeds. At least 25 million acres of the Great Basin in 
Nevada, Utah, and Idaho are dominated by cheatgrass. Invasive 
species such as cheatgrass often replace native grass following 
wildfires, increasing the fire risk and frequency and reducing 
forage for wildlife and domestic stock.
    Wildland-urban interface. The movement of people into our 
wildlands complicates the management of these lands. One study 
estimated that in the lower 48 States, 12 million people live 
within 1 mile of lands managed by the Department of the 
Interior or the Forest Service. Many of these communities are 
at risk of severe wildland fire. Examples of this threat are 
found in every State of the Nation. This photo depicts the San 
Bernardino area of California where tree mortality from insects 
and drought grew rapidly from 100 acres in August 2002 to 
350,000 acres in less than a year, by April 2003. Similar 
forest conditions exist in Idaho, Arizona, New Mexico, and 
Colorado. Fire risk threatens about $10 billion in property and 
30,000 dwellings.
    The goal of the Healthy Forest Initiative and the 
legislation discussed today is to prevent catastrophic 
wildfires and to improve land health in a meaningful time 
frame. Common sense forest health improvements result in less 
damaging fires. In contrast to the intense crown fire shown in 
this photo that occurred in the untreated areas of the Squires 
Peak fire in Oregon, four stands that were thinned experienced 
low intensity fire that remained in the forest's understory. I 
too read the article in the New York Times this morning--and I 
do commend it to the committee--discussing the benefits of 
thinning and prescribed fire.
    In conclusion, this is not only a Federal land issue. As 
you can see from the bar graph distribution depicting fire 
activity this season, about 75 percent of the reported fires 
and 40 percent of the acreage burned this year have occurred on 
non-Federal lands. We need to address this issue across 
agencies and work with tribes, States, and counties. That is 
the reason we are supporting a flexible, comprehensive, and 
collaborative approach to reducing fire risk and improving land 
health.
    We thank the committee for your continued interest in 
addressing forest health issues, and we will continue working 
with you on a common sense piece of legislation to address this 
crisis.
    Senator Burns. Thank you very much.
    Secretary Rey.

        STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL 
      RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. I think from the discussion that we have among you 
on the committee and with the Governors, there are broad areas 
of agreement and that the devil is in the details. I lost the 
coin toss, so I get to talk about the details of the three 
bills, and hopefully, by the time we complete that, you will 
not view me as the devil.
    H.R. 1904 would materially improve the processes which now 
significantly contribute to costly delays and allow the timely 
implementation of critical fuels reduction projects. It would 
allow the agencies to focus their efforts on the proposed 
alternatives that they would have to analyze in proposing 
hazardous fuel reduction projects, and it would also require 
the Secretary to establish an administrative appeals process 
for these projects as an alternative to the current 
legislatively mandated process. It would also clarify the 
standard for injunctive relief against actions that are 
necessary to restore fire-adapted forests or rangelands and 
would provide clear time frames for judicial review.
    The balance of our statement for the record goes through 
the other provisions in H.R. 1904 that we find helpful and 
laudable. I will submit for the record of the committee's 
deliberation the administration's statement of policy that was 
issued upon full House consideration of H.R. 1904. We have 
indicated our support for H.R. 1904 and our hope that it will 
be passed quickly.
    As well, I will submit for the record of the committee's 
deliberations the detailed comments of our Office of General 
Counsel on S. 1314 and S. 1352. And while the administration 
appreciates the emphasis in S. 1314 and S. 1352 on the 
wildland-urban interface, these bills impose restrictions that 
would likely impede rather than facilitate implementation of 
the hazardous fuel reduction processes.
    In particular, the requirement that sets a hard limit on 
hazardous fuel reduction projects in specific areas, as 
proposed by both bills, is actually contrary to the 10-year 
comprehensive strategy and implementation plan which calls for 
projects to be implemented at the local level in a broad, 
collaborative manner. Indeed, rather than giving the Governors 
more options, those provisions might result in giving them less 
options in prioritizing where they want the treatments to be 
made if those priorities, as they are expressed through the 
collaborative process, are in conflict with 70/30 limits in S. 
1314 and S. 1352.
    In addition, S. 1352 focuses on forest lands and not other 
woodlands and rangelands managed by the BLM and the Forest 
Service. Many communities at risk from catastrophic wildland 
fire may not be bordered by forests. Also, by the terms of its 
title, S. 1314 would apply only to Western national forests 
created from the public domain, and not national forests in the 
East and in the South with significant insect infestation 
problems that were created as a result of the Weeks Act or 
other subsequent legislative authorities. So it is a more 
limited bill from a regional stance.
    The public participation provisions in S. 1352 seem to 
duplicate existing processes. It is unclear how or whether the 
petition provision, which in essence is an appeals process, 
fits within the expedited appeals process that is also provided 
for in the bill.
    It is also unclear whether the Secretary's decision in 
response to a petition is reviewable. Since the bill is silent 
on the matter, the courts would likely interpret a Secretarial 
decision in that regard to be reviewable, thereby creating 
another opportunity for judicial challenges even to the 
question of what areas we treat without regard to how, when, 
and under what circumstances we treat them.
    Both S. 1314 and S. 1352 establish categorical exclusions 
from detailed NEPA documentation for certain fuels reduction 
projects. USDA and the Department of the Interior agencies have 
already completed such a comprehensive review of hazardous fuel 
reduction activities and have established by rule two new 
categorical exclusions. Because the agencies' categorical 
exclusions for hazardous fuel treatment and post-fire 
rehabilitation are new and just now being implemented, we 
believe that legislation on this matter is neither necessary 
nor, as it might be the case in S. 1314, if it is read by the 
courts to confuse the application of our existing authority to 
issue categorical exclusions under current law, even helpful.
    Also, S. 1314 places significant limitations on the 
implementation of stewardship contracting authorized by section 
323 of Public Law 108-7. We are still in the public comment 
phase on joint agency guidance for stewardship contracting, so 
we would oppose subsequent legislation restricting our ability 
to consider what you have just recently asked us to do.
    With regard to judicial review provisions in S. 1352, I 
think based on the Senators' interest, we ought to review those 
for you for the record.
    With regard to venue-shopping, venue-shopping is a unique 
problem when the agency action being challenged is multi-
jurisdictional in reach, such as a forest plan that affects a 
national forest that lies in two or more judicial districts. 
But with regard to specific projects, which these bills 
reference, both of them, S. 1352 and S. 1314, venue-shopping 
has not proven to be that big a problem. Indeed, because of the 
standing requirements that courts have imposed to show local 
interest and harm and local people who have demonstrated 
interest in harm in a project that is being challenged, today 
plaintiffs that are challenging individual projects almost 
always bring them in the venue where the project is occurring.
    With regard to the time limits on preliminary injunctions 
or TRO's--and I think S. 1352 covers both--it could be helpful 
to have the courts revisit those, but without any subsequent 
guidance as to what they are to do, it will rest entirely on 
the individual jurist to decide whether the notification is at 
all meaningful to his or her deliberations. Certainly if the 
circumstance that is changing in the field is the ignition of a 
fire, by that time notifying the judge that things have changed 
is not going to do much good in terms of informing his decision 
on how he might like to proceed. And indeed, we have 
circumstances today where areas that have been affected by 
injunctions, like the Jimtown Project on the Deer Lodge 
National Forest in Montana, in fact burned while the injunction 
and deliberations were pending.
    In conclusion, the administration is deeply committed to 
seeing a piece of legislation pass as soon as possible. The 
President has spoken directly and eloquently to that.
    It is, however, as well our expectation that when Congress 
does pass a piece of legislation in this area, there will be a 
significant expectation that things on the ground will change 
dramatically and that work will be done faster and better and 
cheaper. And we will bear the burden of that expectation. So if 
the legislation does not result in that kind of an outcome 
being possible, then our land managing agencies will be set up 
to fail, and that is something that we cannot let happen.
    So with that, I would conclude by indicating we are 
interested in continuing to work with the committee and with 
the Senate to try produce a piece of legislation that will meet 
that expectation and allow for more rapid treatment to occur on 
the ground so that we do not have to return next year to 
discuss this matter. Thank you very much.
    [The prepared joint statement of Ms. Watson and Mr. Rey 
follows:]

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
 Environment, Department of Agriculture and Rebecca Watson, Assistant 
  Secretary, Land and Minerals Management, Department of the Interior

    Mr. Chairman: On May 20, 2003, President Bush called on Congress to 
move as quickly as possible to pass the Healthy Forests Restoration Act 
of 2003 (H.R. 1904) and get it to his desk for signature. We appreciate 
your willingness to schedule this hearing today on H.R. 1904 and two 
other forest health bills, S. 1314, and S. 1352. The Departments of 
Agriculture (USDA) and the Interior (DOI) strongly support H.R. 1904. 
We would like to work with the Committee to make technical amendments 
to clarify and strengthen H.R. 1904. The Administration opposes S. 1314 
and S. 1352 because the focus of these bills is too narrow and because 
neither bill contains the flexible, comprehensive approach to forest 
health and hazardous fuels reductions set out in H.R. 1904.

                               BACKGROUND

    The need for action to restore our Nation's public forests and 
rangelands to long-term health has never been greater. Catastrophic 
fires are just one consequence of the deteriorating forest and 
rangeland health that now affects more than 190 million acres of public 
land, an area twice the size of California. Last year alone, wildfires 
burned over 7.2 million acres of public and private lands, leading to 
the destruction of over 800 structures and the evacuation of tens of 
thousands of people from hundreds of communities. Although wildland 
fire activity so far this year has been one-third less than the average 
of the last ten years, we have seen some indications of the potential 
for destructive wildfires. On June 17, 2003, the Aspen Fire blew out of 
the Pusch Ridge Wilderness in southern Arizona and overwhelmed the 
community of Summerhaven, Arizona destroying 329 homes, businesses and 
other structures. This fire was declared contained on July 15, 2003, 
nearly a month after it started. We are seeing some critical situations 
in the southwest, and northward. Large portions of thirteen western 
states and parts of Alaska and Hawaii have the potential for above 
average fire activity this fire season.
    In addition to fire, Federal forests and rangelands across the 
country face unusually high threats from the spread of invasive species 
and insect attacks. Insects and pathogens have historically existed in 
our forests and rangelands. However, the frequency, extent and timing 
of recent outbreaks are out of the ordinary. Changes in tree stand 
density, as well as in species composition and structure, due to 
decades of excluding or immediately suppressing fire, the lack of 
active management, and extended drought, are factors that have 
significantly affected insect infestation outbreak patterns. The result 
is the death of millions of trees across millions of acres in 
California, Utah, Arkansas, Michigan, Minnesota, the Mid-Atlantic 
States and the South. Often when these areas burn with uncharacteristic 
intensity, they become very susceptible to invasive species, further 
prolonging poor forest and rangeland health.
    While Federal, State and local land managers have attempted to 
restore forest and rangeland health and prevent these catastrophic 
wildfires and infestations, their efforts have been severely hampered 
by unnecessary and costly procedural delays that can prevent them from 
acting in a timely manner to protect communities and avert ecological 
crises. Excessive analysis, ineffective public involvement, and 
management inefficiencies trap land managers in costly procedural 
delays, where, in some cases, a single project can take years to move 
forward. In the meantime, communities, wildlife habitat and forests and 
rangelands continue to suffer. Fires and insect infestations that begin 
on public lands can spread to private lands as well, causing 
significant property damage and threats to public health and safety. 
The Aspen fire in Arizona is a case in point.
    Recognizing the impending crisis, President Bush proposed the 
Healthy Forests Initiative in August 2002. The President directed 
Federal agencies to develop several administrative and legislative 
tools to restore deteriorated Federal lands to healthy conditions and 
assist in executing core components of the National Fire Plan. Since 
the President's announcement last August, Federal agencies have taken 
several regulatory steps to implement components of the Healthy Forests 
Initiative.
    The Secretaries have taken several administrative actions to 
accomplish these objectives, which include the following:

  <bullet> Endangered Species Act Guidance--On December 11, 2002, the Fish and 
        Wildlife Service (FWS) and National Oceanic and Atmospheric 
        Administration Fisheries (NOAA Fisheries) issued joint guidance 
        documents to facilitate and improve the design, review, 
        approval and implementation of HFI projects. The guidance 
        allows multiple projects to be grouped into one consultation 
        and provides direction on how to consider and balance potential 
        short- and long-term beneficial and adverse impacts to 
        endangered species when evaluating projects. The goal is to 
        recognize that project-specific, short term adverse impacts 
        need to be weighed against the longer-term watershed level 
        benefits such projects will achieve.
  <bullet> CEQ Memorandum & Model Environmental Assessment Projects--CEQ 
        Chairman Connaughton issued guidance addressing the preparation 
        of model environmental assessments (EA) for fuels treatment 
        projects. The guidance addresses the purpose and content of an 
        EA, specifically, that EAs should be focused and concise. These 
        guidelines are now being applied on both Forest Service and DOI 
        agency fuels treatment projects and some of these model EAs are 
        now out for public comment.
  <bullet> Appeals Process Reform--Both USDA and DOI made rule changes 
        designed to encourage early and meaningful public participation 
        in project planning, while continuing to provide the public an 
        opportunity to seek review or appeal project decisions. This 
        allows more expedited application of hazardous fuels reduction 
        projects.
  <bullet> Categorical Exclusions (CE)--Both USDA and DOI have established new 
        categorical exclusions, as provided under the National 
        Environmental Policy Act, for certain hazardous fuels reduction 
        projects and for post-fire rehabilitation projects. These new 
        CEs shorten the time between identification of hazardous fuels 
        treatment and restoration projects and their actual 
        accomplishment on the ground. The agencies have compiled an 
        extensive scientific record demonstrating that similar projects 
        did not result in significant environmental effects either 
        individually or cumulatively.
  <bullet> Proposed Section 7 Counterpart Regulation--FWS and NOAA Fisheries 
        have proposed Section 7 joint counterpart regulations under the 
        ESA to improve Section 7 consultation procedures for projects 
        that support the National Fire Plan. The proposed regulations 
        would provide, in some situations, an alternative, to the 
        existing Section 7 consultation process by authorizing the 
        agencies to make certain determinations without project-
        specific consultation and concurrence of the FWS and NOAA 
        Fisheries.

    The recently passed Consolidated Appropriations Resolution, 2003 
(P.L. 108-7) contains stewardship contracting authority, which gives 
agency land managers a critical tool to implement projects necessary to 
achieve land management goals. This provision allows the BLM and the 
Forest Service to enter into long-term stewardship contracts with the 
private sector, non-profit organizations, local communities, and other 
entities. In FY 2003, the Bureau of Land Management will implement 
stewardship contracting on a limited basis, and the Forest Service will 
implement stewardship contracting much as it did during the pilot 
program. Joint agency guidance for long-term implementation is 
currently out for public comment. For the permanent authority, 
programmatic direction will include, among other things, descriptions 
of goals, monitoring, and treatment of receipts.
    We believe these administrative actions will provide Federal land 
managers with important tools they need to restore these lands to a 
condition where they can resist disease, insects, and catastrophic 
fire. However, the Administration believes that the additional tools 
and authorities that are provided in H.R. 1904 are still needed to 
address the severity of forest health conditions in a meaningful 
timeframe.

                               H.R. 1904

    Title I of H.R. 1904 would improve processes which now 
significantly contribute to costly delays, and allow timely 
implementation of critical fuels reduction projects. The title would 
provide more efficient procedures for USDA and the DOI to plan and 
conduct hazardous fuels projects on up to 20 million acres of Federal 
land that are most at-risk from wildfires while preserving public input 
in agency decision-making. The title would allow the agencies to focus 
the proposed alternatives they would have to analyze for proposed 
hazardous fuels reduction projects, but otherwise would maintain 
requirements for public notice and input. We believe this authority 
would provide the agencies with the latitude necessary to reduce the 
risk of damage to communities and municipal water supplies and at-risk 
Federal lands from catastrophic wildfires. Projects would be selected 
through a collaborative process involving local, tribal, state, Federal 
and non-governmental entities as described in the 10-Year Comprehensive 
Strategy and Implementation Plan. National program allocations and 
local project selections would attempt to optimize wildfire risk 
mitigation over time. Title I would require the Secretary of 
Agriculture to establish an administrative review process for these 
projects as an alternative to the current legislatively mandated 
appeals process. The title also would clarify the standard for 
injunctive relief against actions that are necessary to restore fire-
adapted forests or rangelands and would provide timeframes for judicial 
review.
    Title II of H.R. 1904, which parallels already exiting authority, 
would authorize a $25 million grant program for each of the fiscal 
years 2004 through 2008. The Secretaries would be authorized to make 
grants to persons who own or operate a facility that uses biomass or to 
make grants to persons to offset the cost of projects to add value to 
biomass. This authority would help encourage investment in energy 
generation and other commercial utilization of low value or non-
merchantable biomass, including wood, chips, brush, thinnings, and 
slash removed to reduce hazardous fuels, to reduce the risk of disease 
or insect infestation, or to contain disease or insect infestation.
    Title III of H.R. 1904 would authorize a $15 million program within 
the Forest Service for each of the fiscal years 2004 through 2008, to 
provide State forestry agencies technical, financial and related 
assistance for the purpose of expanding State capacity to address 
watershed issues on non-Federal forested lands. This authority, which 
parallels existing authority, would allow USDA and DOI to work 
collaboratively with other interests to manage and conserve non-
Federally forested lands.
    Title IV of H.R. 1904 would require the Secretaries of Agriculture 
and the Interior, with the assistance of universities and forestry 
schools, to develop an accelerated program on certain Federal lands to 
combat infestations by bark beetles, including Southern pine beetles, 
hemlock woolly adelgids, emerald ash borers, red oak borers, and white 
oak borers. This title also would authorize the Secretaries to conduct 
applied silvicultural assessments on certain Federal lands. An 
assessment of a site of not more than 1,000 acres would be deemed to be 
categorically excluded from further documentation under the National 
Environmental Policy Act. We believe this will allow us to quickly 
design and test methods of responding to insect outbreaks.
    Title V of H.R. 1904 authorizes a $15 million Healthy Forests 
Reserve Program within the Forest Service working in cooperation with 
the Secretary of the Interior, for each of the fiscal years 2004 
through 2008 for the purposes of protecting, restoring and enhancing 
degraded forest ecosystems on private lands to promote the recovery of 
threatened and endangered species. This authority also parallels 
existing authority for the Forest Service.
    Title VI of H.R. 1904 would direct the Secretary of Agriculture to 
carry out a comprehensive program to inventory, monitor, characterize, 
assess and identify forest stands nationwide. In carrying out such a 
program, the Secretary would also be directed to develop an ``early 
warning system'' for potential catastrophic threats to forests. Title 
VI authorizes $5 million for each of the fiscal years 2004 through 
2008.

                          S. 1314 AND S. 1352

    While the USDA and DOI appreciate the emphasis in S. 1314 and S. 
1352 on the wildland-urban interface, these bills impose restrictions 
that would likely impede rather than facilitate implementation of 
hazardous fuels reduction projects. The restrictions in S. 1314 and S. 
1352 that limit funding of hazardous fuels reduction treatments to 
areas within an arbitrary, one size fits all distance from a community 
may have unintended adverse consequences. For example, in several 
recent incidents, communities have been threatened by fires that began 
outside the fuel treatment limits proposed in S. 1314 and S. 1352, and 
then moved close to--or through--communities. Resources in the path of 
the fires including watersheds, local infrastructure and wildlife 
habitat suffered damage that also affected these communities. The 
requirement to limit hazardous fuels reduction projects to the area 
proposed by these bills is actually contrary to the 10 Year 
Comprehensive Strategy and Implementation Plan which calls for projects 
to be implemented at the local level in a broad collaborative manner. 
In addition, Federal land managers need the flexibility to conduct 
hazardous fuels reduction and restoration treatments in areas 
identified by application of sound science and land management 
experience, rather than by an arbitrary distance.
    In addition, S. 1352 focuses on forested lands, and not the other 
woodlands and rangelands managed by the BLM and the Forest Service. 
Many communities at risk from catastrophic wildland fire may not be 
bordered by forests. Other vegetation types, such as grasslands in 
condition class 1, and especially grasslands and shrublands infested 
with invasive species may pose more serious risks to individual 
communities than condition class 3 forested lands. It would be better 
to allow for the exercise of informed management flexibility by agency 
professionals with local collaboration, to identify the specific high 
risk areas based on actual conditions in that area.
    Additionally, the public participation provisions in S. 1352 seem 
to duplicate existing processes. Further, S. 1352 provides for a 
petition process during scoping or public comment. It is unclear how or 
whether the petition provision, which is an appeals process, fits with 
the expedited appeals process also provided for in the bill. Both the 
DOI and the USDA have public notice and NEPA scoping processes already 
in place. Those processes assure opportunities for public input. In 
addition, allowing a petitioner to seek protective designation for 
large trees or old growth has the potential to create controversy on a 
tree-by-tree basis. We need to focus on hazardous fuels reduction 
projects based on science, not on individual trees.
    Both S. 1314 and S. 1352 establish categorical exclusions from 
detailed NEPA documentation for certain fuels reduction projects. 
Categorical exclusions are, in general, established by rulemaking 
procedures to provide for more efficient review of actions for which an 
agency has sufficient information to find that, except where there are 
extraordinary circumstances, the category of actions do not, 
individually or cumulatively, have a significant effect on the 
environment. USDA and DOI agencies have already completed such a 
comprehensive review of hazardous fuels reduction activities and 
established by rule 2 new categorical exclusions. Because the agencies' 
categorical exclusions for hazardous fuels treatment and post fire 
rehabilitation are new and just now being implemented, we believe that 
legislation on this matter is not necessary at this time.
    Also, S. 1314 places significant limitations on implementation of 
the stewardship contracting authorized by section 323 of P.L. 108-7 
(the Consolidated Appropriations Resolution, 2003). We believe this 
impedes our goal of restoring forest and rangeland health cost-
effectively. Stewardship contracting authority is a much needed tool to 
help agencies address the enormity of the forest and rangeland health 
challenge. It is based on collaboration and cost effective fuels 
treatment. Both USDA and DOI have begun to implement this authority. We 
are still in the public comment phase on joint agency guidance for 
stewardship contracting.
    S. 1314 would prohibit the ability of the Secretary of Agriculture 
to implement the Administration's Competitive Sourcing Initiative. The 
Administration strongly opposes this provision. A Statement of 
Administrative Policy issued July 16, 2003 concerning restrictions to 
competitive sourcing found in H.R. 2691, the Department of Interior and 
Related Agencies Appropriations Bill, FY 2004, recommended the 
President veto the bill if the final version contained this 
restriction.
    S. 1314 would also establish a mandatory spending account to cover 
excessive fire suppression costs for the Forest Service. The 
Administration opposes the creation of this type of mandatory spending 
account because there is uncertainty about how it would affect the 
agency's ability to transfer funds from other accounts for emergency 
fire suppression activities.
    Finally, S. 1352 authorizes grants for biomass utilization, but 
limits eligibility to facilities located within the boundaries of an 
eligible community. An eligible facility should be defined as one that 
supports an eligible community, but it should not be restricted to 
those facilities located within the boundaries of the community. In 
order to lessen transportation costs, an operator may decide to locate 
its facility closer to where the biomass is found, rather than the 
community where it is to be processed. What is important to the 
community is that such a facility is close enough to allow for 
reasonable commuting by employee residents of the community.

                               CONCLUSION

    Mr. Chairman, USDA and DOI are committed to working with Congress, 
State, local and tribal officials and the public to advance common-
sense solutions to protect communities and people, and to restore 
forest and rangeland health. All of the bills considered today are 
based on the premise that active management is necessary to restore and 
maintain healthy forests in some areas, and that the current legal and 
regulatory framework does not allow this management to occur in a 
timely way. Overall, we find that H.R. 1904 provides the much needed 
authorities sought by the President's Healthy Forest Initiative to 
achieve these goals. We strongly support H.R. 1904 and look forward to 
working with the Committee as it moves through the legislative process.
    Thank you for the opportunity to comment on these three bills. We 
will be glad to answer any questions you may have.

    Senator Burns. Thank you, Mr. Secretary.
    I just have one question. Last year the Congress provided 
sufficiency language to allow a number of projects on the Black 
Hills National Forest to move forward without NEPA, appeals, or 
litigation. Now we are talking about that. Can you tell me what 
progress has been made on those projects under those 
circumstances?
    Mr. Rey. All of those projects are proceeding on the 
schedule that was agreed to as part of the legislation. We will 
be submitting to the Congress this week our second report, as 
the legislation required. I will submit that for the record of 
the committee's deliberations. What that report will show is 
that the projects that were laid out in the legislation are 
proceeding on the time schedule that we anticipated they would 
be completed in.
    Senator Burns. Senator Bingaman.
    Senator Bingaman. Thank you very much for being here.
    Let me ask about one of the issues I asked the Governors 
about, and that is, how do we solve this problem of the Forest 
Service having to borrow from the accounts that are intended to 
be spent for these types of thinning activities and use that 
money in order to fight fires? Then we have gotten into this 
pattern where we borrow from those accounts, we fight the 
fires, and then 6 months or a year later, we come back and 
restore some or all of that money. I think it is fair to say 
that in the last year or 2, it has been some rather than all of 
that money.
    I gather you take exception to what I have proposed in the 
bill I introduced which says there should be direct authority 
to borrow from the Treasury. What alternative do you suggest, 
if you do object to what I have proposed? What other way is 
there to fix this problem?
    Mr. Rey. We have two alternatives that we would suggest for 
your consideration. One was an alternative that was proposed in 
last year's administration budget proposal and that was the 
creation of a government-wide emergency contingency reserve. 
But another equally valid alternative is to deal with the issue 
through supplemental appropriations bills.
    The system that we are operating under now served us 
reasonably well for a number of years. It is not serving us 
well now. I think we would agree with you in that regard. It 
served us well in years when we had outstanding trust fund 
balances from which we could borrow without having diminished 
working program funds. Those balances have not been repaid over 
the years, and so they have been drawn down now, which presents 
us with the problem of borrowing from program funds.
    However, we have installed new software to compile real-
time expenditure reports from all of our fire incidents so we 
can now give you a real-time estimate of where we are in the 
fire fighting funding process in any given year which should 
conceivably give the Congress more than adequate time to 
respond if there is a need for additional money through the 
passage of a supplemental. Indeed, if the Congress passes the 
supplemental that is currently pending before the August 
recess, we will not likely have to borrow anything through the 
month of August and maybe beyond or maybe at all, depending on 
how the fire season unfolds.
    So those are two other alternatives. The supplemental one, 
of course, imposes a greater burden on the appropriators, but 
it also imposes a greater degree of oversight on the part of 
the Congress over what we are doing. I think the problem with 
simply just giving us the authority to go borrow it out of the 
Treasury is that it leaves both the appropriators and the 
budget committees catching up in the next cycle with what we 
have done without the kind of oversight that you ought to 
demand from us.
    Senator Bingaman. Well, let me just say I think it is a 
question of do we want to leave the appropriators without the 
oversight or do we want to delay the projects. That is sort of 
the situation we find ourselves in right now. I would be 
inclined to go ahead and give you the authority to borrow the 
funds and do the work that is needed to keep these projects on 
track rather than assume that Congress is going to pass a 
supplemental appropriation bill every time there is a bad fire 
season. I just do not know that that is a realistic 
expectation.
    Let me ask one other subject. We had a little discussion 
with the Governors about the extent of the court interference 
with the decisions that are being made, the extent to which the 
courts are the problem. Let me just give you some figures, and 
then if you could check these. You probably do not have the 
information right here, but obviously if you do, I would like 
to hear it, but otherwise just check them and get back to me.
    This is information again from this GAO report. In the two 
States of New Mexico and Arizona, where Senator Kyl and Senator 
McCain and Senator Domenici and I are most interested, 91 
percent of the acreage covered by decisions involving fuel 
reduction activities were categorically excluded from NEPA 
review, according to what they determined. 78 percent of the 
decisions involving fuel reduction activities were 
categorically excluded from NEPA review, and 91 percent of the 
decisions went unchallenged. There was not a single case that 
was litigated during the 2 years that they looked into. Is that 
consistent with what you have found, or would you like a chance 
to review that?
    Mr. Rey. We have parsed the data a little bit more closely. 
I have come to believe that GAO reports are like onions. When I 
worked on that side of the dias, they were useful to make 
agency administrators cry. Now that I am on this side of the 
dais, you have to peel the layers off to really get to exactly 
what is being said.
    Senator Bingaman. Usually peeling layers off makes me cry 
when I am cleaning onions.
    [Laughter.]
    Mr. Rey. What GAO did was a total, all guts and feathers 
computation of projects to evaluate the impact of appeals, and 
they included both projects that were covered by categorical 
exclusions, prescribed burnings, personal use fuel wood 
projects, as well as a number of others. And those are never 
appealed. So consequently, if you kick those into the database, 
you are going to find a lower frequency of appeals.
    If you focus on the projects that are both necessary and 
controversial, which are mechanical fuels treatment projects, 
thinning, some commercial timber sales, you get a different 
picture. There what you find is roughly 59 percent were 
appealed. Indeed, in that universe, even 52 percent of those 
kinds of projects in the wildland-urban interface were 
appealed. So even in areas where we believe there is the most 
agreement on proceeding, we are still seeing a significant 
amount of appeals.
    Senator Bingaman. Let me just ask this. This must just be a 
mistake that GAO made because they determined that in the two 
States, Arizona and New Mexico, in the 2 years, fiscal year 
2001 and fiscal year 2002, there was not a single decision that 
was litigated. And you say that is wrong.
    Mr. Rey. No. We have not gotten to that. Their numbers on 
the number of cases that were litigated is correct, 23 
lawsuits. On the one hand, you can say that that is a 
relatively insignificant number of the total inasmuch as it is 
only 3 percent. But there are three things that I think are 
worth noting about those lawsuits.
    First of all, those are the largest projects, projects like 
Rodeo-Chediski recovery, and of course, that is being litigated 
now. It is not in GAO's database because it is 2003. You will 
find that virtually all of our large 2002 post-fire recovery 
projects are being litigated, without exception, virtually all. 
McNally will be litigated. Star fire, which is 2000, will be 
litigated. Rodeo-Chediski is already being litigated. I have no 
doubt that Biscuit will be litigated once we actually produce a 
decision there. So that is the first thing. The big ones, the 
ones that matter, the ones that have the most significant 
effects on the ground, positive or negative, depending on your 
point of view, are the ones that are going to be litigated.
    Secondly----
    Senator Bingaman. So these are post-fire salvage----
    Mr. Rey. Right. In this particular instance, yes.
    Senator Bingaman. You are saying those are the ones that 
get litigated.
    Mr. Rey. That is right.
    Secondly, the lawsuits have precedential value so that when 
we get an adverse decision, we have to adjust our program of 
work to account for what the judge has told us to do or not to 
do.
    And that brings me to my third point, which is those 
precedents involve real-world changes in how we do business and 
how fast we can execute activities. In the Bitterroot, we 
essentially rewrote the record of decision inside Judge 
Molloy's courtroom to the specifications that occurred during 
the settlement negotiations that ensued after the litigation. I 
am not saying that is bad or good. I signed the settlement 
agreement, so I guess by definition I agreed to some measure of 
it. But that does not mean that the work that is getting done 
on the ground and the work that gets done subsequently, as we 
look at what we faced in Bitterroot, is going to get done 
quickly. So very few lawsuits can have very significant 
effects.
    I think there is a fourth point to be made about delays, 
both delays with regard to lawsuits which can be significant, 
extending over years, as well as delays in the case of 
administrative appeals that decide within 90 days. 90 days does 
not sound like a lot. But most of these projects have time-
sensitive windows of operation on the ground. Some of those are 
driven by weather. You cannot do work after a certain time at 
certain elevations, or in the converse, you cannot do work 
after certain periods of time when you are in fire season 
because it is too dangerous to have crews in the woods doing 
the work. Some of those time windows are driven by endangered 
species concerns.
    So if the 90-day delay knocks you out of a time window, it 
is not a 90-day delay, it is a 1-year delay because you are 
going to have to wait until the next window opens during the 
next operating season to do that work. So it is a different 
perspective than we bring to that here if you think about it in 
the context of what our field managers face.
    Senator Bingaman. Thank you very much.
    Senator Burns. Thank you, Senator Bingaman. I totally agree 
with that. Of course, we better come up and mention about the 
KV fund that used to establish quite a lot of funds for fire 
fighting and those kind of things.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I would like to go back to the situation on the Kenai 
Peninsula in Alaska, Mr. Rey. As I had mentioned before, we are 
talking over 5 million acres of spruce bark beetle kill 
throughout the State. Four million of that we believe is around 
the Kenai area in south central Alaska. Ninety-four thousand 
acres are in the Chugach National Forest. I had mentioned in 
response to Chairman Domenici's question as to how much of this 
is being treated, and my comment, I think was, it is just 
literally a drop in the bucket.
    But as I understand the fuel treatments to date in the 
areas on the Kenai, in and around the Chugach, we have got a 
little over 8,400 acres on the Chugach National Forest. We have 
treated 500 acres in and around Cooper Landing and only 200 
acres in and around Moose Pass. Again, these are the pictures 
that we had seen earlier. So out of 4 million acres, we are 
talking about being able to treat a couple of hundred acres 
around one community, 500 acres around another community, and 
in total in the Chugach only a little over 8,400 acres.
    Now, I understand that the Kenai area has been reclassified 
from a condition class 1 to a condition class 3. Can you 
explain to me how the reclassification is going to help us deal 
with additional treatments or making the treatments happen in 
these areas and how the legislation that is before us can get 
us to the point where we can actually start making a difference 
out there?
    Mr. Rey. The Kenai was originally classified as condition 
class 1 because of the long duration of fire frequency. Fire 
visits the Kenai Peninsula on the average of once every 150 
years.
    There are two things that go into condition class 
designations, though, fire frequency as well as stand 
condition. Once we had pandemic stand mortality, as a result of 
the spruce bark beetle infestation, our field scientists 
believed that it was appropriate to reclassify the Kenai as 
condition class 3.
    The principal benefit of that will be that it will allow us 
to use the categorical exclusions that we finalized last month 
on the Kenai Peninsula to accelerate the program of work that 
we have underway by reducing the amount of NEPA analysis and 
consequent funding and time that would be required to do that 
work. And I think that will have a material effect in getting 
more work done in critical areas on the Kenai.
    At the same time, I do not want to leave a misimpression in 
your mind. We are not going to treat 4 million acres on the 
Kenai. The program of work on the Kenai is going to be 
concentrated in trying to make sure that we have as much 
protection as possible including secure escape routes for the 
communities on the Kenai Peninsula. Treating the totality of 
the area is a virtual impossibility in large part because there 
is little or nothing to be done with the dead trees that are on 
there.
    There was the potential some years ago to try to use the 
existing infrastructure on the Kenai Peninsula--by 
infrastructure, I mean mill infrastructure--to accelerate the 
rate of treatment. At that time, the larger treatments that 
were proposed for the Moose Pass area were both appealed and 
subsequently litigated, thereby snuffing out that opportunity, 
and the mill infrastructure that could have made use of that 
material is now gone.
    Senator Murkowski. So with H.R. 1904, in addition to 
helping with the judicial review and NEPA process, you are 
hopeful that we will be able to address some of the issues that 
we have seen on the Kenai then?
    Mr. Rey. Absolutely.
    Senator Murkowski. Thank you.
    Mr. Rey. Both through H.R. 1904 and through some of the 
administrative mechanisms that we have already got underway.
    Senator Burns. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman, and I thank both of 
our witnesses. I think you have heard me say repeatedly, you 
have heard Senator Feinstein say repeatedly we want to get a 
bill. We want to get a significant measure passed. I believe 
that the House bill does not have 60 votes to get out of the 
U.S. Senate.
    Now, I want to give you, Secretary Rey, the chance to 
disagree with that. If you think you've got 60 votes, I would 
like you to tell us that now. But if you do not, give me your 
sense about what the bottom line issues are as we try to move 
ahead now to get a bipartisan coalition of 60 votes and get it 
to the President's desk. So do you think there is 60 votes in 
the Senate for H.R. 1904?
    Mr. Rey. I will defer to your judgment. Since I have moved 
to this side of the dais, I do not trust my ability as a vote 
counter anymore.
    Senator Wyden. What do you think if I am right that are 
not? I am quite certain there are not. What do you think are 
the bottom line issues to get the 60 votes?
    Mr. Rey. I think you narrowed the issue to the one that 
will be the most difficult to resolve in your colloquy with the 
Governors in that I think, as you look across the details in 
these bills, most of them probably can work their way through 
to a conclusion but for the question of what, if anything, to 
do with judicial review. I think what we have said to your 
staff in discussions that we have had with them is that to us, 
given the current disposition of jurisprudence in this area, 
judicial review is where you can give us the most help. I 
appreciate that that is a very difficult ask because it is not 
an easy issue to address because the judicial process is 
something that a lot of people do not want tampered with.
    It is, however, something that Congress has dealt with in 
the past, not seldom, but often when circumstances warranted. 
There are 11 different instances in the past where Congress has 
flatly prohibited the issuance of injunctive relief in 
different areas of law where the Congress felt that was a 
necessary predicate to serve a larger public purpose. There are 
seven other instances where Congress imposed statutory 
provisions prescribing findings and conditions for injunctive 
relief or dictating the terms of relief. There are seven other 
instances where Congress imposed statutory limitations on the 
duration of injunctive relief, somewhat similar to what is 
proposed in your legislation. There are five other instances 
where statutory deadlines for seeking judicial review were 
imposed, hard deadlines, as is the case in H.R. 1904. There 
were three instances where statutory provisions were passed 
requiring courts to give weight to certain factors or findings 
when a court issued injunctive relief as H.R. 1904 would 
propose. And there are four other instances where statutes 
prescribed other special procedures for requests for injunctive 
relief.
    So this is not an area where Congress has legislated 
infrequently. It is an area where Congress has legislated 
carefully, to be sure, but where there were overriding societal 
concerns that needed to be addressed. And it is an unpleasant 
challenge before us, but the threshold question is what do we 
want to protect more? The current judicial process or the 
forests?
    Senator Wyden. Well, I appreciate your saying you agree 
with me that that is the key issue and obviously we are going 
to work with you on it. Senator Feinstein and I have made it 
clear that we are committed to looking at balance changes in 
this area.
    I will tell you that I think there are other areas where 
the administration is going to have to be open. I, for example, 
would like to hear you say for the record that you are open 
some old growth protection. That is not in H.R. 1904. 
Obviously, that is something of great concern not just in the 
West but here in the Congress. Is the administration open to 
including some old growth protection as part of an effort to 
get a balanced bill that would have 60 votes?
    Mr. Rey. We are open to addressing the old growth issue as 
virtually all of our forest plans do. I do not look at it as an 
issue that is intrinsically related to the one that is 
addressed in these bills, but we are not averse to talking 
about the issue either in the context of this legislation or 
some other bill that deals with the issue more directly.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Burns. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Secretary Rey, I wrote you recently about the silviculture 
study of Oregon State University's College of Forestry in which 
they outlined the ecological consequences of the Biscuit fire. 
I am wondering if you have seen that, know of it, and if there 
is any way you are planning to incorporate its scientific 
findings into rehabilitating the Biscuit area.
    Mr. Rey. I have seen both your letter and the study, and 
the study is being evaluated by the team that is developing the 
environmental impact statement for the Biscuit fire recovery, 
which at present is scheduled to be released sometime in 
November of this year, the draft EIS. So their findings will be 
considered.
    The county commissioners who helped put together the study, 
in cooperation with Oregon State University, had asked for a 
more specific request and that is that the plan of work that 
they lay out as what believe to be the most appropriate 
alternative for the Biscuit fire recovery be included as an 
alternative in the draft environmental impact statement, and I 
have asked our review team to look at that question as well.
    I suspect that one of the things we may come back to the 
county commissioners with is if they want that alternative put 
through the analytical process, as part of the EIS, which could 
be done, that they offset part of the cost of that perhaps 
using some of the county schools title II money for that 
purpose. So that is what I have asked our review team to 
consider.
    Senator Smith. Mr. Secretary, earlier in my opening 
statement, I quoted from Judge Haggerty in an opinion that he 
enjoined salvage fuels reductions in eastern Oregon. He 
indicated that, left to himself, he would not have done that, 
but that he felt bound by precedent, by NEPA to stop this. 
Judge Molloy also enjoined salvage in the Bitterroot Mountains 
of Montana, and yet Judge Martone of Arizona allowed salvage of 
the Rodeo fire to move forward based on long-term forest health 
benefits.
    I wonder if you can compare these decisions in the 
Northwest versus the Southwest. Is there any rationale or 
consistency to them, and what can we learn from them as we try 
to get right this judicial review issue?
    Mr. Rey. They were looking at some different things. Both 
Judge Haggerty and Judge Molloy were looking at a request for a 
preliminary injunction and balancing the harms associated with 
issuing or not that injunction request. Judge Martone was 
looking at the amount of deference that should be granted to 
our interpretation of what our own categorical exclusions mean, 
and so they had a little bit different question before them, 
applying somewhat different standards of jurisprudence thereto.
    In Judge Martone's case, there is a certain amount of 
deference to be granted the agencies even in the Ninth Circuit 
when the question is how well an agency is interpreting its own 
regulations. In the case of Judge Haggerty and Judge Molloy, 
they were being presented what is the more classical question 
of a project that is challenged. There are alleged impacts 
associated with the project should an injunction issue. And the 
long track of jurisprudence that has evolved over 40 years on 
that question has evolved as a result of challenges to 
commercial timber sales. So over time judges have developed the 
respectable view in evaluating whether a preliminary injunction 
to a commercial timber sale should issue or not, that you 
cannot uncut a tree, so therefore we ought to enjoin the sale 
while we talk about it.
    Now today if a plaintiff wants to challenge a fuels 
treatment project or a fire recovery project, even though the 
facts are different, it is in their interest to present the 
facts to look as closely as they can to the facts that you 
would see in a commercial timber sale to elicit from the judge 
the same result. And that is the result that Judge Haggerty 
issued notwithstanding his concerns or qualms for doing so 
because he felt he was bound by the precedent of the existing 
jurisprudence that has developed over the past 40 years.
    What H.R. 1904 does, in asking the courts or directing the 
courts to look at this a little differently, is that in 
layman's terms, it tries to balance the valid proposition that 
you cannot uncut a tree against the equally valid proposition 
that you cannot unburn a forest. And that is why we think the 
provision is useful.
    Senator Smith. On H.R. 1904, I believe I have heard you 
opine that the administration is for that bill.
    Mr. Rey. We have indicated our support for the measure.
    Senator Smith. In conclusion, Mr. Chairman, I think I also 
heard you say that you will for us, on a scientific basis, as 
much as you can pull away the politics, evaluate the Wyden-
Feinstein bill and Senator Bingaman's bill as well, the 
Bingaman-Daschle bill. There are a lot of Senators here because 
this is so critically important an issue and we really want to 
get something done. We want to do as much as is possible. So 
your opinion on that from a scientific perspective would be 
very much appreciated.
    Mr. Rey. We will do the comparison both from the issues of 
science but also on the issues of procedure and law which, in 
the case of all three bills, since they are process bills, are 
actually the more important questions.
    Senator Smith. Thank you.
    Senator Burns. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Mr. Rey, I thought your comments were very interesting. I 
for one would certainly be prepared to add to any bill, ours or 
any other, the programs you mentioned on page 8 and 9 of your 
written remarks. There are five specific programs there that I 
think are advantageous and should be included in virtually any 
bill that passes.
    Secondly, I would like to mention, if I might, a letter 
from the forester, Mr. Bosworth, dated July 21, and an attached 
memorandum, which is the National Fuel Treatment Priorities 
that he sent out, clearly points out that funding would be 
targeted on a priority basis to the wildland-urban interface 
and areas in condition classes 2 or 3 in fire regimes 1, 2, or 
3 with highest risk reduction potential.
    I would like to talk to my cosponsor about changing our 
language to include that language in the bill and specifically 
to giving the Governor of the State--we confine it, but I would 
willing to let the Governor of a State, in consultation with 
the Federal Government, set the actual percentage. If a 
Governor wanted to take it all in one area versus another 
area--this goes back to discussions that we, Senator Wyden, 
have had with Senator Kyl because his State's configuration and 
needs are somewhat different from California. Yet, as Ms. 
Watson pointed out, we have got a half a million acres just 
waiting to blow up, infested with bark beetles. That clearly 
has to have a priority in the State. And the Governor certainly 
would be one to know that in conjunction with the national 
entities. So I for one would have some flexibility there.
    I think when it comes right down to it, H.R. 1904 will not 
find 60 votes, and I think we go to the administrative appeals 
and the judicial process as the two areas really of contention. 
There, Mr. Rey, we have tried to go as far as we possibly 
could. I consulted all the way along on this bill with The 
Wilderness Society to try to see that we would have something 
that might be acceptable. I do not think they accept changing 
the temporary injunction to 60 days, but I would even go to 30 
days because there is an emergency out there. I think we have 
set with administrative appeals, if you take your categorical 
exclusion language in the beginning of your written remarks on 
page 5 and your appeals process reform, it would seem to me 
that--let me say this.
    One of the reasons there is so much objection, I have 
found, to changing the judicial review is because other 
organizations are worried that codifying a change would get the 
camel's nose under the tent and there would be changes 
forthcoming in a host of different areas so that it becomes a 
very tricky issue once you get into it and understand the 
concerns of a myriad of other agencies.
    But I think a TRO ought to go fast. You either make your 
point or you do not make your point. I think what we have done 
with respect to the administrative changes is that essentially 
we sped up the process in three ways. One round of public 
comment, not three or two. Shortening the appellate process 
from 90 to 60 days. That is a codification, and allowing the 
appeals officer to make the changes rather than remanding the 
project I think are considerable improvements. You disagree, 
Mr. Rey?
    Mr. Rey. On that particular point, I do not. Where S. 1352 
presents the best benefits are in the specific areas that you 
have identified, that is to say, with projects that require 
environmental assessments to give the reviewing officer who is 
reviewing a project under appeal the authority to issue a new 
record of decision and to move it forward into litigation. So 
that is a helpful change.
    What I tried to do is to look at all three bills in their 
totality to try to evaluate which of them was going to give our 
scientists and land managers the most opportunity and the most 
tools to effect a change in the situation that we currently 
face on the ground. If we look at the bills in their totality, 
then I am afraid I must say it is not close. H.R. 1904 gives us 
more to work with.
    At the same time, there are helpful elements of all three 
bills, and the nature of the discussion will be to try to blend 
those together as best we can to achieve a result.
    Senator Feinstein. Is it true that essentially what you 
want is that the agency would not be required to consider any 
less environmentally damaging alternative to a project? And an 
appeal would not be present. There would be no appeal?
    Mr. Rey. No. The latter is not the case. The former I would 
express slightly differently.
    What H.R. 1904 does is to say that in the context of a 
fuels reduction project, what you are really evaluating is 
should you do the project or not and that those are the two 
alternatives that are most squarely on the table and that you 
can look at some mitigating measures for the going forward 
alternative and array some of those without creating a whole 
range of alternatives. Now, let me explain why that is 
important.
    A typical environmental impact statement today has anywhere 
from 6 to 15 alternatives. Let us say the average is nine, 
because that is probably about what it is. Each of those 
alternatives is subject to a full analysis which chews up 
analytical time, the expertise of people on the ground, 
computer time to array the alternatives so that the requirement 
of NEPA to consider a full range of alternatives is fairly met. 
And on commercial projects, particularly large, complicated 
ones, that has become the norm and appropriately so.
    In this case, what we are really talking about is are we 
going to do a treatment in a particular location or are we not. 
If we are, we can talk about some mitigating measures to inform 
the public of what we might do and discuss those. But those are 
the two alternatives that are really important for the public 
to evaluate and to make an assessment as to whether it is 
justified to pursue this particular project.
    Now, an average EIS costs the Forest Service today about 
$1.5 million to $2 million, and you can divide that cost 
roughly equally among the alternatives that we are forced to 
evaluate because that is where most of the cost consideration 
comes in. So if you do the simple math and you take a project 
from nine alternatives on the average to two alternatives, you 
are going to save roughly two-thirds of the cost of doing the 
project, which we hope allows us to then do more projects more 
quickly.
    So on that particular part of H.R. 1904, we think there is 
some utility to what is being proposed, just as I think there 
is some utility to the proposition in S. 1352 that on a project 
on appeal, the reviewing officer should be able, instead of 
remand and starting it over, to actually change the project and 
then allow it to go forward. I view those as both helpful 
alternatives.
    Senator Feinstein. My time has expired and I really 
appreciate that. Could I just quickly ask, are you saying then 
that what you want are reduced number of alternatives?
    Mr. Rey. What I am saying is that that is an approach in 
H.R. 1904 that we support. It is certainly not the only way to 
expedite our procedures.
    Senator Feinstein. Thank you.
    Senator Burns. Senator Kyl. In my estimation we have wasted 
too much time with the first two panels. I would like to get 
the debate started on the next one, and that is going to take 
another hour. So you folks who want to give up lunch, why, 
welcome to the caucus.
    Senator Kyl.
    Senator Kyl. I appreciate that interesting introduction of 
my effort to further elucidate the issues, Mr. Acting Chairman.
    [Laughter.]
    Senator Kyl. I would like to make three points if I could 
and ask Mr. Rey a question by showing you something you are not 
going to be able to see very well, but I want to pass it 
around. This is an infrared satellite photograph of a portion 
of the Rodeo-Chediski fire of Arizona just about a year ago, 
and it makes two points and I think I am going to ask Mr. Rey 
about the third.
    The first point that it makes is that thinning and 
prescribed burning have a dramatic effect in stopping and 
slowing down fires. You cannot see it very well from a 
distance, but on just one area here, the red is dead. The green 
is still alive. This area here is an area that was treated. Mr. 
Chairman, you can see that. The red goes right up to it and 
stops. There are other areas in there too. I have flown it, I 
have walked it, and I have seen it. The evidence is 
incontrovertible that these kinds of projects stop the fires as 
well as to provide all the other benefits to healthy forests.
    The second thing--and I know Senator Feinstein is on the 
way out and I will give you a personalized copy of this. But 
what it also shows is that thin area treatments, whether they 
be urban-wildland interface or protecting roads or utility 
lines or watersheds, frequently do not work. This photograph is 
replete with examples of small area treatments, maybe a half a 
mile wide or a mile wide. You cannot see them from a distance, 
but here is one right here. They simply frequently do not stop 
a fire that has gotten out of control. You can see that the red 
has totally inundated that area, notwithstanding the fact that 
it was treated. There are a variety of reasons for that, mostly 
having to do with the dynamics of a big, dramatic fire that is 
frequently plume-driven or influenced. It simply moves too fast 
and too dramatically to be stopped by these smaller area 
treatments, so you need large-area treatment.
    Now, the third thing that I want to illustrate by this--and 
this gets to the question I want to ask you, Mr. Rey--is about 
a third of this fire occurred on the White Mountain Apache 
Indian Reservation. They immediately set to work complying with 
the same environmental laws that you all have to comply with at 
the Department of the Interior and the Department of 
Agriculture. They did their work in analyzing the environmental 
impact of a salvage operation and proceeded to do the salvage 
operation, and they have completed their salvage operation, 
salvaging about 60 percent of what they had hoped to be able to 
salvage. And we have yet to start salvage on the Forest 
Service.
    It seems to me that there is a reason why that goes 
directly to your testimony, Mr. Rey. While the same 
environmental considerations drive both the Apache Tribe and 
the Forest Service to decide what to do and how to do it, it is 
very difficult to sue the Apache Tribe either administratively 
or legally. It is not hard at all to sue the U.S. Forest 
Service or the Department of the Interior.
    So the Forest Service smartly said, we are going to start 
with a categorical exclusion, some roads, trails, utility 
corridors, and some other areas that are very narrow and at 
least get that salvage operation underway. Boom. Hit with a 
lawsuit from a group from New Mexico, and it was not until 
about 2 weeks ago that Judge Martone's ruling came down saying 
you can proceed with that little, itty-bitty piece of Forest 
Service. I do not think they have started that yet.
    But you all have not even completed the environmental 
review for the vast area, and I was just up there this last 
Saturday, and I was told that bluing is already occurring on 
some of this timber. The first time you could get in there 
would be the fall, and it may be too late--it already is too 
late--for much of it.
    You indicated in your testimony that you are having to 
spend a lot of time, energy, and money on preparing these 
projects so that they will not only enable you to win in court 
if they are ever appealed, but to withstand the administrative 
appeals or to ward them off. I presume that the difference in 
the amount of time it took for the Apaches and the Forest 
Service is partially reflected by the different kinds of work 
that you decided to do in order to try get around--not get 
around, but to provide an incentive for people not to sue or to 
win the lawsuits.
    So really a two-part question. What did occasion such a 
great delay for salvage of this area that the Apaches have now 
already finished salvaging on? And secondly, what are the kinds 
of things in the legislation, primarily the bill H.R. 1904, 
that are the kinds of things that would help to solve this 
specific kind of problem illustrated by this specific fire?
    Mr. Rey. I think you have outlined the differences 
accurately. It is a difference in expectation for what will 
happen once a final decision is made. The tribe is, as you 
said, subject to the substantive requirements of the same laws 
that we are, but they are unlikely to be challenged once their 
decision is final. We, on the other hand, are almost certainly 
going to be challenged and in expectation and in anticipation 
of that, we do a lot more analysis and procedural work, which 
may not materially affect the substantive outcome of the 
decision at all.
    Five years from now, we can go take a look. We can test the 
hypothesis. We can look at the Apache ground we can look at the 
Forest Service ground. I am willing to tell you now, just 
predicting the outcomes, that the Apache ground is going to 
look better.
    What has taken so long so far is the clear certainty that 
upon challenge, we would need an EIS that would withstand 
judicial review, and that would require us to develop a full 
range of alternatives, a detailed cumulative effects analysis, 
and all of the other portions of what case law under NEPA has 
required over time.
    The one help that H.R. 1904 provides is in narrowing that 
range of alternatives, we could save a considerable amount of 
time and money than we have already invested in this particular 
project without likely changing the substance of what we would 
propose. So that is the essence of it.
    The second thing in H.R. 1904 that would be helpful is that 
when that EIS is challenged, as it would almost certainly be, 
the standard that the judge would use to decide whether a 
preliminary injunction should issue, when he is faced with that 
question as a result of the question that Judge Martone was 
faced with in the pending litigation, we have a better chance 
of prevailing.
    Senator Kyl. Thank you very much.
    Senator Burns. Thank you, Senator Kyl. We are going to call 
our next panel in. I have a couple of questions, but I will 
address them to you in writing. I thank you for coming this 
morning.
    I am embarrassed for this committee. The next panel is the 
one that should be heard, and those are the people on the 
ground. Who cares whose nose is under the tent, when we have 
been operating under the present system for 30 years and we 
know the results and we know the situation where we find 
ourselves, and they do not have guts enough to change it.
    Thank you for coming this morning. I appreciate that very 
much. And you are right. Do they want to protect the process, 
or do they want to protect the forests? It is pretty simple to 
me. I do not know. Maybe I ain't very smart, but it is pretty 
simple to this Senator. Thank you for coming this morning.
    We will call the next panel. We have Ms. Laura McCarthy who 
is with the Forest Trust out of Santa Fe, New Mexico; Dr. Wally 
Covington, Ecological Restoration Institute of Northern Arizona 
University; Mr. Mike Nivison, county commissioner from Otero, 
New Mexico; Bruce Vincent, Communities for the Great Northwest 
out of Libby, Montana; Ms. Sara Duncan, Denver Water 
Development; Tom Robinson, Grand Canyon Trust from Flagstaff, 
Arizona. And that looks like it.
    Thank you for coming today. I know the importance of this 
because it is a very important issue to your communities. So we 
are just going to ramble right on through. Then I will have to, 
some way, get the information out to the rest of the Senators.
    Ms. Laura McCarthy please. We are looking forward to your 
testimony.

          STATEMENT OF LAURA McCARTHY, FOREST TRUST, 
                          SANTA FE, NM

    Ms. McCarthy. Thank you for the opportunity. I was a Forest 
Service fire fighter and a NEPA planner for 12 years, and for 
the last 7 years I have directed programs at the Forest Trust 
in New Mexico. The trust's professional forestry staff are on 
the ground and in communities seeing daily the challenges that 
wildfire creates.
    As we have been talking about, Western forests are adapted 
to wildfire. Our efforts to reduce fire risk must leave room 
for fire to play its natural role. If we replace fire 
suppression with another uniform, one-size-fits-all set of 
practices, then 50 years from now we may find that we have 
created a new, unintended crisis.
    I will summarize seven brief concerns about the Healthy 
Forest Restoration Act, the details of which are in my written 
testimony.
    First, the Forest Trust has reviewed the science behind 
fuel reduction treatments and found only tenuous, empirical 
support for the idea that thinning alone will reduce fire risk. 
The research is much more certain about the beneficial effects 
of prescribed fire, but that is the more difficult practice to 
implement.
    I do not want to get into dueling science because, after 
listening to all the discussion this morning, we really need to 
seek common ground. I guess I want to make the point that we 
need to act now and we need to recognize the limits of our 
data. So what the means to me is that research, 
experimentation, and adaptive management must be integrated 
into the national fuel reduction program so that we can develop 
the science as we go and make sure that our treatments are 
effective.
    Second, H.R. 1904 proposes old solutions to the insect 
problem, solutions that we already know will not work. The 
science about bark beetles and wildfire and the interactions 
between them is even less developed than research about the 
effects of thinning. We do know two things: first, that bark 
beetle populations typically explode with normal drought 
cycles, usually about twice per century; and second, that 
preemptive salvage ahead of insect infestation, as was done in 
the 1970's and 1980's with the spruce budworm and the spruce 
bark beetle, will hinder forest recovery in the long run.
    The categorical exclusion in H.R. 1904 for salvage of trees 
that may be infested is risky. We advocate a moderate approach 
that funds research on new, integrated pest management 
treatments and ensures the application on the ground.
    My third point is that H.R. 1904 and S. 1352 rely on 
national scale condition class data to determine where to 
expedite NEPA. This is a mistake. The scientists who develop 
condition class are clear that their national data are not 
accurate at the scale used to locate projects. H.R. 1904 uses 
condition class to set de facto priorities. The priority 
setting process in the 10-year implementation plan will become 
irrelevant.
    I have to add that yesterday, because of the travel airline 
industry, I had a 2-hour meeting with an official with the 
Department of Homeland Security in the Sandia National Lab, and 
we discussed human-ignited wildfire as a terrorist strategy. 
And I am very serious about this because consider the scenario 
where we have drought conditions. Just consider that. It is a 
low-tech action, but 10 people in 10 strategic locations could 
really hurt this country. As a forester, I would hate to see 
that happen. I do not have anything concrete to offer on this 
topic today, that is, the homeland security, but I just want to 
say that in the process of setting national priorities, we need 
for the Forest Service and the Department of the Interior to be 
working with the Department of Homeland Security to consider 
the threats, the vulnerability and the consequences from a 
national security perspective.
    Fourth, H.R. 1904 does nothing to benefit the rural 
communities that depend on forests for their livelihoods, at 
least from the perspective of the Southwest. The bill makes a 
simplistic assumption that removing barriers to forest industry 
will pay for fuel reduction work, but in a region that has 
already lost its forest infrastructure, the bill does not 
consider the economic interests of our local communities. to 
address the needs of people in the rural West, the legislation 
must directly target forest-dependent communities.
    Fifth, in light of the discussion today, this might be 
surprising, but in my view and my experience, the expedited 
NEPA process will hurt some communities' ability to be heard. 
The possibility of appeal, though almost never used by 
communities, gives them leverage to raise their concerns over 
and over until they are addressed. The steps to expedite NEPA 
in H.R. 1904 should be scaled back significantly, not 
eliminated, but scaled back.
    Sixth, we all recognize that communities need protection, 
and with help from the Department of Homeland Security, we will 
address the threats to our population. The flexibility in S. 
1352 is important. We also need to build into legislation a 
mechanism to shift resources from community protection, as that 
is accomplished, to wildland forest treatments because we need 
to do both. The question is the sequencing, the timing.
    And finally, normal forest growth can return fuel loads 
back to pretreatment levels within 15 years. So we are going to 
be back where we started if we do not maintain our investment. 
We must require long-term plans to clean out fuels as they 
accumulate through natural process in areas that we have 
invested in with treatments. Otherwise, the next generation is 
going to find themselves facing the same set or perhaps a 
different set of related fire problems that we are trying to 
solve today.
    That concludes my testimony.
    [The prepared statement of Ms. McCarthy follows:]

    Prepared Statement of Laura McCarthy, Forest Trust, Santa Fe, NM

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify today. I have worked for the U.S. Forest Service 
as a firefighter and a NEPA planner, and I now direct the policy 
program at the Forest Trust in New Mexico. The Forest Trust operates 
several programs that include consulting forestry on private lands, a 
research center, and technical assistance to forest-dependent 
communities.
    Western forests are adapted to wildfire. It is important that our 
efforts to reduce fire risk leave room for fire to play its natural 
role. If we replace fire suppression with another, widespread and 
uniform set of practices, then 50-100 years from now we may find out 
that we have created a new, unintended forest crisis. I don't think 
anyone wants to make that mistake and I will explain the basis for our 
concerns in this testimony.

                 RESEARCH ON FUEL REDUCTION TREATMENTS

    We need to take action that is based on the best information we can 
gather. At the same time, we must be realistic about the certainty of 
the information we have before us. Ever since the Forest Service 
proposed fuel reduction treatments in the Southwest, the Forest Trust 
wanted to understand the scientific foundation for the hypothesis that 
fuel reduction treatments will modify fire behavior in overstocked 
forests. Over a four-year period we examined more than 250 research 
papers covering prescribed fire, mechanical thinning, a combination of 
thinning and fire and commercial logging. The primary findings were:

          1. The current research is, in general, inconclusive with 
        respect to the effectiveness of mechanical thinning in changing 
        wildfire behavior. This is because study methods and research 
        results vary greatly. Only one quantitative empirical study has 
        been completed.
          2. The effectiveness of prescribed burning in changing post-
        treatment wildfire behavior is clearly demonstrated in many 
        studies.
          3. The limited number of studies that investigated the 
        effectiveness of thinning and prescribed burning in combination 
        produced equivocal results. More research is needed before firm 
        conclusions can be reached.
          4. We found no published scientific research on the positive 
        effects of commercial logging on post-treatment fire behavior.

    These and other findings in the Forest Trust report led us to 
conclude that a significant investment is needed in basic and applied 
research to provide a credible scientific basis for the design, 
implementation, and evaluation of alternative treatment methods. As an 
example of the kind of research that is needed, the literature review 
showed that tree density, which is the main variable controlled by 
foresters through thinning, is only one of several factors affecting 
fire behavior. The distance from the ground to the base of the tree 
crown, and the amount and arrangement of surface vegetation and dead 
woody material, also play important roles, although research has not 
yet provided information about how these interrelated factors alter 
fire behavior. Currently, fuels management focuses on reducing tree 
density and not on influencing the other factors that affect fire 
behavior.
    The Forest Trust surveyed the prescriptions in use for ponderosa 
pine fuel treatments in the Southwest and found that about half of the 
thinning prescriptions focused only on tree density. Many of these 
prescriptions did not include specifications for modifying crown base 
height, surface vegetation, or dead materials. The survey also found 
many excellent prescriptions from projects in places like Flagstaff, 
Arizona where the Ecological Restoration Institute is located. Yet most 
public lands do not double as research forests. The simplicity and lack 
of variety of the prescriptions in use, coupled with the tenuous 
scientific support for tree density as a factor that significantly 
influences fire behavior, is therefore cause for concern.

What This Means for Legislation
    H.R. 1904, S. 1314 and S. 1352 seek to expedite fuel reduction 
treatments because of the social imperative to reduce the wildfire risk 
to communities. Since there is inconclusive evidence that thinning 
alone will reduce fire risk, we have an opportunity to use the 
expedited treatments to help forest managers test specific combinations 
of thinning and prescribed fire treatments through rigorous 
experimentation that develops site- and weather-specific data. In 
addition, we need to require that research, experimentation, and 
adaptive management are integrated into our national fuels reduction 
program. Only by doing so will we be able to determine which fuel 
treatments are effective and where they should be employed. Science and 
adaptive management will also help us identify and cease ineffective 
practices.

                   INSECT MORTALITY AND WILDFIRE RISK

    The wildfire situation is complicated by the interaction of 
wildfire, drought and insects, whose populations have reached epidemic 
proportions in many states. Western bark beetles are native insects 
that grow to epidemic levels about twice per century, corresponding 
with natural cycles of drought. The current epidemic of bark beetles is 
exacerbated by past management--the same practices that increased the 
risk of catastrophic wildfire. The narrow range of treatments 
prescribed for a wide variety of forest ecosystems in the last century 
simplified many forests, thereby weakening the forests' resilience to 
natural increases in insect populations.
    As with thinning, we need to use the best information available to 
us. Unfortunately, we know even less about beetle-wildfire interactions 
than we do about the effects of thinning on fire behavior. The 
correlation between beetle-kill and increased fire risk is not well 
quantified in the scientific literature, and the results of recent 
studies are equivocal. For example, a 2003 study in the journal Ecology 
noted that little quantitative research has been conducted to test the 
hypothesis that insect mortality increases fire risk. The study looked 
at subalpine forests in Colorado and produced results that ``do not 
support the long-standing notion that insect-caused mortality increases 
fire risk.'' The study found no increase in the number of wildfire 
ignitions, but did not look at increases in fire severity because of 
the difficulty of controlling experimental variables such as weather.
    Wildfire behavior in forests that have sustained insect mortality 
is also not well understood. For example, experienced foresters in the 
Southwest concur that the fire risk in insect-killed pinon pine trees 
decreases in 2-3 years, as soon as the needles have dropped, a 
phenomenon that is also true for Englemann spruce. In contrast, insect-
killed ponderosa pine trees become more flammable, because the insects 
stimulate pitch to concentrate in the tree boles and flammability 
remains high until the pitch decomposes. The differences in fire 
behavior of various tree species affected by insect mortality are not 
well quantified. Forest managers need this information to know when and 
how to develop treatment plans and to anticipate areas of higher fire 
risk after insect outbreaks.
    Field experience also tells us that thinning to reduce fuel loads 
could inadvertently spread bark beetles in areas with live trees. 
Thinning, to foresters, means the cutting of live trees to reduce 
forest density and to increase the resilience of the remaining forest. 
Thinning generates substantial slash, and the attraction of bark 
beetles to slash is well documented. The timing of thinning and the 
treatment of slash during a beetle epidemic are critical. As a result, 
some Districts in the Southwest are adding controls on the timing of 
slash disposal to their contracts and prohibiting thinning during the 
insect breeding season.
    Preemptive salvage of trees that may face insect mortality is an 
old practice, but it will not solve our problem. To foresters, salvage 
means the cutting of dead or damaged trees to recover their economic 
value. Preemptive salvage means cutting or thinning trees before they 
are damaged to obtain economic value, with a secondary benefit of 
lowering overall stocking and improving forest resilience. However, 
preemptive salvage that we have conducted in the past, in Western 
forests with spruce bark beetles and in Eastern forests with spruce 
budworm, has had poor results. The salvage harvests in these examples 
removed most, if not all, of the trees of economic value, including the 
sources of seed and shade for future regeneration. The forests in these 
examples did not regenerate adequately and the preemptive salvage 
depleted the long-term timber supply.
    Preemptive salvage in areas affected by western bark beetles that 
are in drought conditions will likely fail. The freshly cut trees, 
presence of slash, and current conditions of overstocking and drought 
will allow the insect populations to increase and kill the rest of the 
stand, and could make regeneration difficult in the face of continuing 
drought.

What This Means for Legislation
    H.R. 1904 includes both research and categorical exclusions for 
preemptive salvage of trees in areas that are, or may be, vulnerable to 
insect attack. The salvage could minimize economic losses, but it also 
may increase the intensity of the insect problem by creating new 
breeding grounds in the slash. A more reasonable solution, found in S. 
1314, is to make funds available for information gathering programs on 
native and non-native insects that impact large areas of forest and to 
apply this information to the local management of insect-infested 
areas.

                            CONDITION CLASS

    The national-scale fire regime condition class data should not be 
used to locate local projects to reduce forest fuels. Fire regime 
condition class was developed by the Forest Service, Rocky Mountain 
Research Station for the purpose of ``providing national-level data on 
the current condition of fuel and vegetation.'' Examples of national-
level data are: (1) summaries of the total acres at risk of wildfire; 
and (2) total acres of forests that have missed two or more natural 
cycles of fire. The scientists who developed the national-scale data 
explicitly state in their report and on their web site that the data 
are not accurate at the scale used to locate projects to reduce forest 
fuels. Yet this is exactly how most of the legislation that has been 
introduced would use condition class.
    The Forest Trust tested the accuracy of condition class using the 
published national data and maps of current vegetation on the Santa Fe 
National Forest. Our test corroborated the authors' concern that 
condition class may be inaccurate at the project level. Thus, use of 
condition class to site projects may result in significant errors that 
will allow many high-risk forests to be overlooked while low-risk areas 
are treated.
    Instead of using national condition class data to decide which 
areas of forest need fuel reduction treatments most and where to 
expedite NEPA, we should be using the process of priority setting that 
has come out of the Western Governor's Association 10-Year 
Comprehensive Strategy and Implementation Plan. Steps to carry out the 
priority setting actions in the Implementation Plan are already 
underway. The Departments of Agriculture and Interior, National 
Association of State Foresters, and National Association of Counties 
signed a memorandum of understanding in January 2003 to jointly develop 
a process to identify and prioritize fuel reduction treatments. The 
National Association of State Foresters is close to finalizing standard 
criteria for identifying high risk communities and high priority 
projects across the nation. These criteria will enable the states to 
produce collaborative plans in a short time and to involve all levels 
of government and interested stakeholders in deciding which forests 
should be treated each year. The process will be led by the states and 
will not be encumbered by NEPA. Projects on federal land that are 
selected as priorities will be subject to NEPA, but the review process 
should be smoother because of the public support for high priority 
projects.

What This Means for Legislation
    H.R. 1904 will allow NEPA exemptions for hazardous fuel reduction 
projects in condition classes 2 and 3. The proposal has two problems. 
First, the national condition class data are not accurate enough to be 
used to determine project locations. If condition class is used to 
decide where projects should be expedited, planners will be faced with 
the difficult decision of correcting the data by hand, or waiting three 
or more years for the next iteration of more accurate condition class 
data. Second, there is not sufficient funding to meet all of the fuel 
reduction needs in condition class 2 and 3 forests. The projects that 
are easiest to get through NEPA will be the first to be funded. The 
link between NEPA exemptions and condition class in H.R. 1904 will 
create a de facto priority setting process that will make irrelevant 
the Comprehensive Strategy, and efforts at collaboration and planning 
at the state and local level.

                              COMMUNITIES

    From our experience in New Mexico and with community-based forestry 
partners in other parts of the United States, we have learned that 
people in forest-dependent communities care about three things: (1) 
protecting their homes and property; (2) obtaining living-wage 
employment in the forest; and (3) restoring the health and resilience 
of both their communities and forests. H.R. 1904 makes the assumption 
that removing barriers for forest industry by increasing access to wood 
will improve local economies and help pay for fuel reduction work. Yet 
this assumption is too simplistic. We have learned from past experience 
that forest-based economic developers encounter many barriers including 
contracting procedures, consistent supply, and investment in value-
added processing. To address the needs of people in the rural West, we 
need legislation that directly benefits economically disadvantaged, 
forest-dependent communities.

What This Means for Legislation
    S. 1314 and S. 1352 both contain provisions that will stimulate 
local economic development and create markets for the by-products of 
hazardous fuel reduction. The essential components of legislation to 
benefit rural communities are: (a) an emphasis in the hazardous fuel 
reduction program on projects that benefit small businesses that add 
value to small diameter wood and woody debris; (b) consistent use of 
local preference and best value contracting; and (c) equal priority in 
the ranking process for poor communities that do not have the economic 
resilience (such as homeowner's insurance and investment assets) to 
survive a wildfire.

                          ENVIRONMENTAL REVIEW

    H.R. 1904 addresses the ``process predicament,'' as it has been 
called by the Forest Service, despite several studies to the contrary. 
The General Accounting Office and Northern Arizona University published 
studies indicating that appeals are not causing significant delays to 
project implementation. In fact, there is increasing evidence that 
insufficient funding for hazardous fuel reduction projects that are 
``NEPA ready'' is the cause of delays. Our research staff has 
repeatedly been told by District personnel in New Mexico and Arizona 
that projects that cleared NEPA, and were therefore on our list to 
survey, were on hold because of insufficient funding. Our experience, 
coupled with the studies about the appeals, leads us to conclude that 
expedited NEPA procedures will not result in significant increases in 
the rate of fuel reduction treatment. Rather, we fear that the changes 
to NEPA in H.R. 1904 will trigger a public backlash and weaken social 
acceptance of fuel reduction treatments, causing additional delays.
    The appeals process is also important to communities, although they 
use it differently than other interest groups. Residents use the NEPA 
process to communicate their concerns to agency personnel about 
projects that will affect areas of forest they care about. Communities 
use the possibility of appeal as leverage to assure their concerns are 
heard. In one New Mexico example, a number of residents in Lama were 
upset with a Forest Service proposal to thin forest adjacent to their 
community in order to protect the town of Questa, 5 miles to the 
northeast. Nearly all of the forest south of Lama had burned in the 
1996 Hondo Fire, and the residents worried that the proposed new 
thinning would ruin the little forest they had left. The Forest Service 
had difficulty understanding Lama's concerns at first, but the NEPA 
process meant they had to listen. Eventually, and with the aid of a 
Collaborative Forest Restoration Program grant, the community and 
Forest Service found a solution that would protect homes in Lama and 
Questa and preserve the forest values at risk.

What This Means for Legislation
    The NEPA exemptions in H.R. 1904 will protect most hazardous fuel 
reduction projects from appeal, eliminate the development of 
alternatives in environmental assessments, and limit judicial review. 
The unfortunate fallout from these provisions of H.R. 1904, which are 
intended to speed up ``process,'' will be to weaken public trust, erode 
social acceptance of hazardous fuel reduction, and clog the courts with 
disputes that could be resolved in 90 days through the current appeals 
process. The provisions for expedited process in H.R. 1904 should be 
scaled back to limited modifications of appeal procedures and the use 
of categorical exclusions in community protection zones and municipal 
watersheds.

                    SHORT- AND LONG-TERM OBJECTIVES

    The Forest Trust believes that first and foremost, communities must 
be protected from catastrophic wildfire. Accordingly, most hazardous 
fuel reduction funds should, in the short-run, be allocated to protect 
communities. The funding ratio should be re-authorized at specified 
intervals to ensure that there is a shift to forest restoration 
treatments as community protection is achieved. The level of funding 
allocated will determine the rate of transition from community 
protection to forest restoration.
    Keeping forests healthy will require an up-front investment in fuel 
reduction and restoration and a commitment to managing future fuel 
accumulations. Some scientists estimate that 15 years after thinning 
and slash disposal, new forest growth will create fuel accumulations 
that are back up to the pre-thinned level. A regular program of 
prescribed burning and wildfire use, coupled with thinning in some 
instances, will maintain fuel loads at normal levels and prevent 
natural fires from becoming catastrophic. This management strategy is 
essential to contain fire suppression costs over the long-run. If we do 
not require and fund these maintenance treatments, the current federal 
investment in hazardous fuel reduction will be lost.

What This Means for Legislation
    Allocate the majority of fuel reduction funding for community 
protection and the remainder to restoration of wildland forests. Review 
and re-authorize the percentages periodically. State flexibility should 
be built into the percentage allocation, as in S. 1352, so that 
restoration projects in wildland forests are not excluded where they 
are needed. H.R. 1904 and S. 1352 do not address the need for 
maintenance treatments to prevent excess fuel accumulation after the 
initial fuel reduction activity. A section on long-term maintenance, as 
in S. 1314, requiring managers to plan prescribed fire and wildland 
fire use in treated areas, is essential to restore natural fire regimes 
and to ensure that future generations do not find themselves saddled 
with the same fire problem we face today.

    Senator Burns. Thank you very much.
    Now, Mr. Tom Robinson who is from the Grand Canyon Trust, 
Flagstaff, Arizona. Thank you for coming today, by the way.

  STATEMENT OF TOM ROBINSON, DIRECTOR OF GOVERNMENT AFFAIRS, 
               GRAND CANYON TRUST, FLAGSTAFF, AZ

    Mr. Robinson. Thank you. Thank you for this opportunity to 
testify. My name is Tom Robinson and I am the director of 
government affairs at the Grand Canyon Trust. We are a regional 
conservation organization dedicated to protecting and restoring 
the canyons and forests of the Colorado Plateau. We have a long 
and proud history of seeking pragmatic solutions to difficult 
environmental problems.
    My verbal remarks are intended to supplement what I have 
submitted for the record.
    We remain perhaps the only environmental advocacy group in 
the Nation proactively working to restore ecologically degraded 
forests. We look forward to the time when our fire-adapted 
Ponderosa pine forests in northern Arizona are restored to a 
condition where fire is allowed to play its natural role as a 
frequent, but low intensity visitor.
    Our founding of the now famous Greater Flagstaff Forest 
Collaborative is illustrative of our strong belief that fully 
restored forests at the large landscape level will require 
restored public trust in the agencies who manage them. For the 
past 6 years, we have staked out the radical middle which, as 
you know, is a very precarious place to be. We believe that 
H.R. 1904 will destroy our ability to hold the middle ground. 
It will do so by further eroding public trust which is very 
hard earned. When an agency that has had great difficulty 
meeting the letter and spirit of our Magna Carta environmental 
law, the National Environmental Policy Act, is then allowed to 
operate with less public involvement and fewer constraints, 
public trust is destroyed at all levels. Forest restoration 
activities that would allegedly benefit forest ecosystems, 
particularly at a large landscape level, and human communities 
should not need to be shielded from a law whose very goals are 
to encourage productive and enjoyable harmony between man and 
his environment, to promote efforts which will prevent or 
eliminate damage to the environment, to enrich the 
understanding of ecological systems and natural resources. 
Large landscape restoration is a new discipline which will 
require more information, not less information.
    We add our voice to the loud chorus of people calling for 
Congress to prioritize community protection. It is here where 
we find the greatest convergence of need and sociopolitical 
agreement. This is the place to target millions of dollars 
immediately.
    Why do we believe this if our main goal is large landscape 
forest restoration? We view community protection in the context 
of ecological restoration. Communities that are relatively 
fire-safe or fire-adapted will be a prerequisite to extensive 
applications of prescribed fire that ecological restoration 
will require. Fire-adapted communities provide citizens with 
the reduced risk and confidence to embrace extensive 
applications of restorative wildland fire and similarly provide 
land managers with a relative freedom from risk.
    This must be the Forest Service's mission in the dry West 
and the agency must not be allowed to stray from this mission. 
In Arizona, the Forest Service continues to facilitate the 
cutting of 200-year-old fire-adapted Ponderosa pines on the 
north rim of the Grand Canyon wile homes in southern Arizona 
burn for lack of fuels treatment money right now. This 
management behavior destroys public trust and it must stop.
    Finally, appeals and litigation have not been a problem for 
our work in northern Arizona. When one of our projects was 
challenged, the appeals process did its job and resolved 
careless agency errors. I am amazed that nobody here has 
discussed what we consider to be the number one problem, the 
inability of the Forest Service to follow good and well-
reasoned Federal laws. I think the Rodeo-Chediski situation is 
a good example. What happened there--and I am not going to 
defend the challenge that the Forest Service received--once 
again, was that the agency issued categorical exclusions that 
were beyond the scope of existing authority. They went beyond 
the law and they were challenged. The judge basically leaned on 
two of them, and on the third one, he basically said, that one 
is too large for your authority. You have to go back and do an 
EIA. Once again, that proves my contention. If they had stayed 
within the scope of authority, they may have been challenged, 
but it would not have gotten very far.
    This is why we have proposed a super-NEPA team in the 
regional office with funding attached to it so the agency can 
do its job and can issue lawful decisions.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Robinson follows:]

  Prepared Statement of Tom Robinson, Director of Government Affairs, 
                   Grand Canyon Trust, Flagstaff, AZ

    Thank you for the opportunity to testify today. My name is Tom 
Robinson and I am the Director of Government Affairs at Grand Canyon 
Trust. Grand Canyon Trust is a regional conservation organization 
dedicated to protecting and restoring the canyon country of the 
Colorado Plateau. We have a long and proud history of seeking pragmatic 
solutions to difficult environmental problems.
    Throughout the past century domestic livestock grazing, fire 
suppression, industrial logging and climate have caused many fold 
increases in small trees and other forest fuels in the dry ponderosa 
pine forests of the southern Colorado Plateau. Today, when combined 
with favorable weather and climate conditions, these fuels are 
facilitating increasingly large, severe, and ecologically anomalous 
stand replacing fires that can threaten ecological and human 
communities. Though similar histories have caused similar conditions in 
other frequent fire adapted dry forests in the interior west, there is 
no more dramatic or extensive example of these phenomena than in the 
ponderosa forests of the Mogollon Rim country in northern Arizona.
    It's in these forests around Flagstaff, Arizona, that Grand Canyon 
Trust has been working to restore degraded and fire prone ponderosa 
forests since 1997. Our efforts include founding the Greater Flagstaff 
Forests Partnership (GFFP) in cooperation with the U.S. Forest Service 
and subsequently becoming involved in all aspects of ecological 
restoration and hazardous fuels reduction--from project design, 
implementation and monitoring to hiring thinning contractors and 
providing low-interest loans to local small-diameter wood processors. 
We are intimately familiar with the innumerable details of this work 
and have invested significant institutional resources toward seeing 
these programs to fruition. Grand Canyon Trust remains one of the very 
few environmental groups proactively working to thin and burn degraded 
frequent fire adapted forests in the western United States.
    Our testimony addresses reoccurring themes from the various 
legislative proposals now before the Senate. We will also discuss 
elements and priorities we believe are appropriate for legislation in 
2003. Our testimony is based on our experience and the ecological, 
social, and economic circumstances of northern Arizona. The points we 
raise may or may not be applicable to other parts of the country with 
different ecological, social, and economic circumstances.

    THE NATIONAL ENVIRONMENTAL POLICY ACT (NEPA) AND FUELS REDUCTION

    The Healthy Forests Initiative and some legislation being 
considered in the Senate are in part predicated on the notion that 
detailed environmental and public reviews required by implementing 
regulations of NEPA are slowing fuels reduction. In our experience this 
isn't the case. In Flagstaff, the Greater Flagstaff Forests Partnership 
and Coconino National Forest have about 14,000 acres of NEPA cleared 
thinning and/or burning ready to implement. 6300 of these acres have 
been NEPA cleared for more than two years. As of June 2003 about 1800 
acres have been implemented (at least partially). NEPA approved acres 
exceed acres treated by approximately 12,200 acres. NEPA planning 
exceeds implementation by an average of approximately 2400 acres per 
year. Environmental and public reviews set forth in regulations 
implementing NEPA are not delaying fuels treatments. Circumventing 
detailed NEPA analysis, as some 2003 wildfire legislation seeks to do, 
is unlikely to improve the timeliness or effectiveness of hazardous 
fuels reduction projects where we work.
    Though we do not believe that the Forest Service is mired in a 
``process predicament'', we do believe that the quality of NEPA 
planning could be improved. There are systematic management and 
personnel problems within the Forest Service unrelated to the 
regulatory environment of NEPA that affect the quality, effectiveness, 
and efficiency of planning. These include (1) fragmented and delayed 
analyses due to personnel transfers and/or re-assignments (most notably 
to fight fire); (2) inadequate staffing levels and prioritization; and, 
(3) lack of relevant expertise (law, conservation biology) utilized 
during the planning process. These problems can result in avoidable 
mistakes, unlawful decisions, and analyses that are at best marginally 
commensurate to the guiding intent of NEPA or to contemporary 
principles of conservation science.
    Notwithstanding these problems, NEPA planning far outpaces fuels 
reduction implementation in Flagstaff and the notion that circumventing 
detailed NEPA analyses will improve the timeliness or effectiveness of 
hazardous fuels reduction projects is, in our experience, baseless. 
Thus, we do not support the idea of streamlining NEPA planning in order 
to facilitate hazardous fuels reduction treatments.

                      APPEALS AND FUELS REDUCTION

    The Healthy Forests Initiative and some legislation being 
considered in the Senate are in part predicated on the notion that the 
administrative appeals process is slowing fuels reduction. We believe 
this assertion represents an incomplete and incorrect view of the 
administrative appeals process.
    In our experience, administrative appeals have not delayed projects 
beyond the standard review period when those appeals were found to have 
no merit. The only case in which an administrative appeal significantly 
delayed a GFFP projects is when appellants correctly identified 
avoidable and careless mistakes committed during the planning process--
mistakes rendering the Forest Service's NEPA decision unlawful. In this 
case, the administrative appeals process did exactly what it was 
designed to do: it provided a process to administratively resolve a 
legitimate dispute. As long as the Forest Service continues rendering 
unlawful decisions, we believe that the administrative appeals process 
is the best mechanism by which to administratively resolve legitimate 
disputes before they go to court.
    Our experience is generally consistent with two independent reports 
released in 2003 that also fail to support the notion that the 
administrative appeals process is to blame for slow implementation of 
fuels projects. A report released by the GAO \1\ found that that during 
FY 2001 and 2002 only 24% of fuels reduction projects were appealed, 
79% of those appeals were processed within 90 days. In contrast, only 
3% of fuels reduction projects were litigated, but 43% of these were 
still in court at the time of the GAO survey. In total, 95% of all 
projects reviewed were ready for implementation within the standard 90-
day review period. The Northern Arizona University Ecological 
Restoration Institute's report titled ``Analyzing USDA Forest Service 
Appeals'' \2\ found that, despite claims that appeals are impeding 
hazardous fuels reduction projects, theirs was the first effort to 
actually systematically analyze the appeals process. Their preliminary 
analysis revealed that (1) the appeals process is used by a broad range 
of interests including grazing permittees, timber companies, 
conservation groups and citizens, (2) the total number of appeals filed 
annually has been decreasing since 1998, and (3) about 1/3 of appeals 
are filed by individual citizens.
---------------------------------------------------------------------------
    \1\ General Accounting Office. 2003. Information on Forest Service 
Decisions Involving Fuels Reduction Activities. GAO-03-689-R.
    \2\ Cortner, H. and J. Vaughn. 2003. Analyzing USDA Forest Service 
Appeals. Northern Arizona University Ecological Restoration Institute. 
Available online at: http://www.eri.nau.edu/pdf/FS-appeals-
database.pdf.
---------------------------------------------------------------------------
    Legislative proposals before the Senate implicitly raise a 
fundamental question regarding our expectations of federal agencies: 
Should we expect federal agencies, as we do the citizenry, to follow 
federal laws and regulations? Or should we instead accommodate unlawful 
agency decisions by shielding them from laws, or, worse yet, from well 
established standards of judicial review? As a matter of principle and 
public accountability, we believe the former is the responsible course.
    Based on our experience and the aforementioned independent reports, 
we believe that proponents of exempting hazardous fuels reduction 
projects from administrative appeals have failed to provide evidence 
that meets standards we believe are appropriate to promulgating 
legislation.
improving the timeliness and effectiveness of hazardous fuels reduction
    Although there are literally millions of acres of frequent fire 
adapted forest at risk of ecologically anomalous stand replacing 
wildfires in the southwestern and western United States, the resources 
available to implement hazardous fuels reduction projects are limited.
    For example, the Arizona governor's office recently identified 
230,000 acres of federal, tribal, state and private lands in and around 
Arizona's most threatened communities, transportation and utility 
corridors in need of hazardous fuels reduction treatments at an 
estimated cost of over $230 million.\3\ It's paramount then that we 
carefully direct limited resources toward the highest priority lands. 
The question at hand is not where hazardous fuels reduction is needed; 
rather, it is where and how we prioritize hazardous fuels treatments 
within the constraints of limited time, resources, and sociopolitical 
agreement this year as a first step toward resolving the larger western 
wildfire issue.
---------------------------------------------------------------------------
    \3\ State of Arizona Executive Office of Governor Janet Napolitano. 
Press Release: GOVERNOR NAPOLITANO ISSUES EMERGENCY PROCLAMATION ON 
BARK BEETLE DEVASTATION, CALLS ON PRESIDENT BUSH TO PROVIDE FUNDS.
---------------------------------------------------------------------------
    Because 824 homes and structures have burned in Arizona wildfires 
in the past 18 months, because there is broad national consensus that 
avoiding further losses like those Arizona has experienced should be 
the first priority of federal forest and fuels management, and because 
time, resources, and political agreement are limited for goals 
exceeding that of protecting communities, we believe an appropriate 
goal for legislation in 2003 is to begin hazardous fuels work in 
communities at risk. Toward those ends we provide the following 
recommendations:

  <bullet> Reduce home/structure ignitability: Legislation should facilitate 
        and/or establish programs that assist and encourage homeowners 
        to reduce the ignitability of homes and structures through a 
        combination of vegetation and fuels management and, when 
        necessary, replacing flammable building materials. This should 
        include a combination of market based incentives, low interest 
        loan programs, and grants programs for homeowners and homeowner 
        associations.
  <bullet> Prioritize fuels treatments for the WUI: Legislation should 
        prioritize hazardous fuels reduction across ownerships within 
        the Wildland Urban Interface and in watersheds containing 
        municipal water supply systems. Legislation should not preclude 
        hazardous fuels reduction treatments within high priority lands 
        in frequent fire adapted forests outside the WUI. Those lands 
        should be identified and prioritized according to standardized 
        methodologies on a state by state basis and their funding and 
        implementation generally should not precede work inside the 
        WUI. Legislation should require that communities establish 
        long-term fuels management plans and schedules.
  <bullet> Direct funding to hazardous fuels treatments: Legislators must 
        recognize that fuels treatments are expensive will not occur 
        unless there is money to implement them. Even fuels treatments 
        that employ commercial thinning regularly exceed $500 per acre. 
        Legislation must provide money to fund hazardous fuels projects 
        and must be directed toward specific acres according to 
        specific priorities and implementation timelines.
  <bullet> Use existing planning authorities: Rather than establishing 
        duplicative expedited procedures, legislation should encourage 
        agencies to employ existing hazardous fuels categorical 
        exclusion authorities when conducting hazardous fuels reduction 
        projects on federal land within the Wildland Urban Interface. 
        These authorities allow federal agencies to categorically 
        exclude from detailed NEPA analysis thinning projects up to 
        1000 acres in size and prescribed burning projects up to 2000 
        acres in size. If expedited procedures are enacted, which we 
        discourage, they should be strictly confined to within .5 miles 
        of communities at risk.
  <bullet> Limitations: Legislation should ensure that all hazardous fuels 
        projects adhere to land and resource management plans, protect 
        old and large trees, not compromise roadless area or wilderness 
        area values.
  <bullet> Follow the Comprehensive Strategy: Legislation should be explicitly 
        framed in terms of the four goals and three guiding principles 
        of the Western Governor's Association 10-Year Strategy 
        Implementation Plan for collaboratively reducing wildfire risks 
        to communities and the environment. Legislation should include 
        total acreage limitations and a five year sunset provision.

    Our position does not preclude our support for ecologically 
cautious restoration of frequent fire adapted forests distant from 
communities. Indeed, we're an environmental group and these forests 
most concern our mission. We believe that true ecological restoration 
must become the next paradigm for federal management of frequent fire 
adapted forests if we believe that social and economic elements of 
sustainability ultimately depend on sustainable ecosystems. Grand 
Canyon Trust views community protection in the context of ecological 
restoration. Communities that are relatively fire safe, or fire 
adapted, will be a prerequisite to extensive applications of prescribed 
fire that ecological restoration will require (and this is to say 
nothing of the immediate need to protect communities from the high 
intensity wildfires that, unfortunately, are a future inevitability in 
southwestern forests). Fire adapted communities provide citizens with 
the reduced risk and confidence to embrace extensive applications of 
restorative wildland fire, and similarly provide land managers with the 
relative freedom from risk to conduct burns in a safer social and 
political context.
    We also believe restoration planning requires an ability to 
evaluate and track local treatment scenarios within a regional 
ecological context in order to systematically prioritize limited 
resources and analyze effects. Restoration planning will also require a 
rationale and transparent decision making environment that allows 
stakeholders to ``negotiate values'' by comparing the relative costs, 
benefits, and uncertainties of different treatment scenarios. Our 
inability to understand these implications fuels much of the 
controversy surrounding restoration of wildlands. In short, we believe 
ecological restoration will require combining the best of NEPA's 
guidance with state-of-the-art spatial data, models, decision support 
tools, and discursive democratic processes. This is radically different 
than normal Forest Service project planning, and far exceeds the scope 
of legislative proposals being considered today.
    Ecological restoration also raises policy, funding, implementation, 
monitoring, and long-term management issues. True ecological 
restoration of frequent fire adapted forests would address all factors 
that have contributed to ecosystem decline, including the removal of 
larger and older trees, overgrazing, and ubiquitous fire suppression. 
Sadly, we are still contending with all of these stress factors in 
National Forests of the Southwest today. Until we address these issues 
we will not return to healthier forests, fire hazard reduction will be 
only a temporary affair, and future generations will ultimately be 
saddled with the same perils of ecosystem neglect that we're contending 
with today.
    Thank you for the opportunity to testify before the Committee 
today.

    Senator Burns. Thank you, Tom.
    Now we move to Dr. Wally Covington, Ecological Restoration 
Institute, Northern Arizona University at Flagstaff, Arizona. 
How good is your football team going to be this year?

  STATEMENT OF DR. W. WALLACE COVINGTON, DIRECTOR, ECOLOGICAL 
       RESTORATION INSTITUTE, NORTHERN ARIZONA UNIVERSITY

    Dr. Covington. Well, I do not know. We will see.
    [Laughter.]
    Dr. Covington. It is always a roll of the dice, but we will 
soon know, Montana being one of our playmates.
    Well, thank you very much for inviting me to testify again 
on this very important problem of forest health. I am Regents' 
Professor of Forest Ecology. My appointment is in the School of 
Forestry at Northern Arizona University and I direct the 
Ecological Restoration Institute. Governor Napolitano pointed 
out that I serve on her Forest Health Advisory Council. Before 
that, I served on Governor Hull's in the State. I have recently 
been invited to serve on Governor Richardson's New Mexico 
Forest Health Council and, of course, agreed to do so. I will 
travel anywhere I can to try to help solve this very important 
problem.
    I have a Ph.D. in forest ecosystem analysis from Yale 
University, an M.S. in ecology from the University of New 
Mexico, and have been involved in this work now for close to 30 
years, 28 years now. My work is focused primarily on 
restoration of the dry forests of the West, first, through 
prescribed burning alone and then through combinations of 
prescribed burning, thinning, and other treatments as ways to 
effectively and efficiently restore forest health.
    I have two major points. First is that we need to move 
forward with large-scale restoration-based fuel treatments, not 
just thinning and not just around urban interfaces, but we need 
to tackle the whole problem. We need to do it very rapidly.
    My second point is that a comprehensive restoration should 
be addressed not just thinning alone or reintroducing fire, but 
also looking at the other major sources of ecosystem 
degradation that are in place throughout the forests of the 
West. If we merely treat the symptom of unwanted fire behavior, 
we are condemning ourselves and our progeny to be plagued by 
continuing problems in the future, species extinction, rare 
species becoming even rarer yet, and unwanted and unnatural 
disturbance regimes. So with that then, we need to move forward 
with large-scale restoration-based fuel treatments.
    The rate of increase in destruction of our western forests 
is really alarming. I think we are familiar with that. 
Currently the pace of our treatments, our comprehensive 
restoration treatments is way out of whack with the amount of 
forest areas that we are losing to these severe catastrophic 
fires and unnatural bark beetle outbreaks in some types.
    I advocate using what I consider to be a reasonable 
assumption that our treatments should be at least on the pace 
and at the scale that these disturbances are occurring. If we 
wind up protecting just the urban areas and the rest of the 
landscape is destroyed, which is a path that we are flirting 
with right now, people are not going to want to live in the 
West. People are living in the West to live in wild landscapes.
    The second point that I would make is that we need to do 
landscape assessments. In a landscape assessment, one of the 
areas that clearly will come out as needing treatments are 
places that people live. They are kind of nest sites for human 
beings. But we will also find, I think, that people will value 
wilderness areas, national parks, hot spots for biological 
diversity. And down in our country, Mexican spotted owl nest 
sites are especially threatened by these large wildfires. So 
these priorities I think need to be set by collaborative groups 
at the local level, much as the Flagstaff Forest Partnership 
that Tom Robinson alluded to earlier.
    The next point I would make--Laura made this one--is that 
clearly we have a good bit of knowledge, but in solving this 
problem, we need to bring the best research and science 
integrated in an adaptive management process to learn while we 
are doing. And it needs to be a fairly formal adaptive 
management process, not just tinkering with things, but 
coupling treatments with monitoring and evaluation.
    So with that, I think, for the sake of saving some time, I 
will just conclude here, that it really is necessary that we 
think clearly about this, use the best science that is 
available. We need to be careful about how we define, for 
example, restoration treatments. What is a restoration? We need 
to be careful about using the term ``old growth.'' The term 
``old growth'' can be defined artificially, as often is the 
case. A multi-story kind of dense forest stand in the case of 
Ponderosa pine is a contemporary definition of old growth 
stands in Ponderosa pine. It is a completely unnatural 
phenomenon. We need to be careful to use as our reference 
points, I think, natural conditions.
    So finally, I would conclude with just saying again, 
knowing what we know now, I think it would be grossly negligent 
for us not to move forward rapidly. I think we can do this. We 
are doing this in some situations. We need to expand it vastly. 
I know that the three bills that are being considered now are 
all trying to achieve that. There are certainly elements in 
each bill that will help us to do that, and I would just urge 
the committee to move forward apace and help us solve this big 
problem.
    Thank you.
    [The prepared statement of Dr. Covington follows:]

            Prepared Statement of Dr. W. Wallace Covington, 
     Ecological Restoration Institute, Northern Arizona University

    Chairman Domenici, and members of the Committee, thank you for this 
opportunity to testify on forest health problems and to offer some 
solutions. Many of you have seen me before this Committee in the past. 
I look forward to the day when my testimony will no longer be needed 
because we are implementing restoration treatments at the pace and 
scale commensurate with the problem.
    My name is Wallace Covington. I am Regents' Professor of Forest 
Ecology at Northern Arizona University and Director of the Ecological 
Restoration Institute. I have been a professor teaching and researching 
fire ecology and restoration management at NAU since 1975. I am a 
member of Governor Janet Napolitano's Arizona Forest Health Advisory 
Council. My role on that committee is to help develop guiding 
principles for the design and implementation of restoration-based fire 
fuel reduction and forest health projects based on the best available 
science. In addition I am a member of the National Commission on 
Science for Sustainable Forestry.
    I have a Ph.D. in forest ecosystem analysis from Yale University 
and an M.S. in ecology from the University of New Mexico. Over the past 
27 years I have taught graduate and undergraduate courses in research 
methods, ecological restoration, ecosystem management, fire ecology and 
management, forest management, range management, wildlife management, 
watershed management, recreation management, park and wildland 
management, and forest operations research. I have been working in 
long-term research on fire ecology and management in ponderosa pine and 
related ecosystems since I moved to Northern Arizona University in 
1975. In addition to my publications on forest restoration, I have co-
authored scientific papers on a broad variety of topics in forest 
ecology and resource management including research on fire effects, 
prescribed burning, thinning, operations research, silviculture, range 
management, wildlife effects, multiresource management, forest health, 
and natural resource conservation.
    I will focus my remarks on two important changes that are needed to 
reverse the trend of increasing catastrophic wildfires.

  <bullet> First, we need to move forward with large scale restoration-based 
        fuel treatments that are commensurate with the threat of 
        catastrophic fire.
  <bullet> Second, we need to use comprehensive restoration-based treatments 
        as opposed to just thinning trees. If we don't we are merely 
        treating a symptom, condemning ourselves to be plagued by 
        continuing problems in the future, and will lose the 
        opportunity to solve many of the problems associated with 
        degraded forest ecosystems--including bark beetles and disease.
We Need To Move Forward With Large Scale Restoration-Based Fuel 
        Treatments That Are Commensurate With the Wildfire Threat
    The accelerating increase in the severity and size of wildfires in 
the West indicates that average annual losses over the next two decades 
will be in excess of 5-10 million acres per year. Using the reasonable 
assumption that preventative restoration treatments should at least be 
at the pace and scale of losses to severe stand replacing fire, one 
would conclude that we should be treating 5-10 million acres per year. 
Our current pace and scale is woefully inadequate given the scope of 
the problem. Unless we accelerate treatments rapidly and immediately we 
will never get ahead of the problem.
    The fires of 2000, 2002 and now 2003 have focused policy attention 
on the need to create defensible perimeters around communities in the 
wildland/urban interface. Without a doubt communities should be a 
priority for protection. However, defining a community as only homes 
misses the whole reason why people live in forest communities.
    My hometown, Flagstaff, Arizona is a tourist dependent community. 
In the summer it is a cool haven for people from Phoenix to escape 
oppressive heat. In the winter it is a playground for skiers and snow-
based recreation. The town is populated by people who often choose to 
make less money in return for the non-monetary value of living in an 
exquisitely beautiful place. A fire of the magnitude of the Rodeo/
Chediski fire--almost half a million acres--would destroy one of the 
communities most important natural assets. The aesthetic and economic 
value of the forest is immeasurable. Imagine Flagstaff, Santa Fe, New 
Mexico, Durango, Colorado or any other mountain town surrounded by a 
sea of blackened trunks. The spiritual, social and economic value of 
being there is gone.
    Besides the inextricable link of people to the forest, there are 
many important environmental and resource benefits provided by forests, 
such as water, wildlife, recreation and wood fiber. To protect these 
values will require landscape scale treatments in the greater forest.

The Need for Landscape Assessments To Identify Key Elements of the 
        Landscape for Protection
    The logical and efficient way to strategically and comprehensively 
address the threat of unnatural wildfire is to look at the problem from 
a landscape perspective. Using a collaborative community process with a 
definite timeframe, we can identify important elements of the landscape 
for protection, identify the location and type of restoration fuel 
breaks that would reduce the risk of unnatural fire, and prioritize 
areas for treatments. Areas that are at highest risk or where we can 
gain the greatest advantage for fire protection would logically be 
treated first. This type of approach is not widely used but should be 
so that limited resources are used effectively.

      ADAPTIVE MANAGEMENT PROVIDES THE PROPER FRAMEWORK FOR ACTION

    Working at the landscape scale concerns some individuals and 
organizations. However, there is an approach that will ensure that we 
are learning from and evolving treatments based on best available 
information--it is a ``learning by doing'' approach known as active 
adaptive management. No one is talking about tinkering here and this 
isn't just some new fangled academic idea. Adaptive management is 
rooted deep in theory and practice, having sprung from the evolutionary 
operations approach long used in optimizing complex chemical 
engineering problems. Crawford S. Holling (University of Florida) and 
Carl Walters (University of British Columbia) and their intellectual 
``offspring'' have developed this approach as a tried and true 
procedure for solving complex resource management problems, monitoring 
and evaluating a range of policy options, and then feeding resulting 
knowledge back into the ongoing resource management endeavor.
    There are quantifiable approaches to adaptive management. However, 
a ``soft systems'' approach might be most appropriate for restoration 
of ponderosa pine and related frequent fire landscapes. This is an 
approach used by the Greater Flagstaff Forests Partnership. The 
Partnership is attempting to plan and implement restoration-based fuel 
reduction projects on 100,000 acres in and around Flagstaff. The 
Partnership is engaged in planning for its third major treatment--an 
area of 30,000 acres. Information learned from the monitoring of 
earlier treatments applied in 1998 is being used to design the next 
series of treatments.
    The safest way to advance treatment design and implementation is to 
apply scientifically rigorous adaptive management principles. By 
scientifically rigorous I mean that the design of landscape scale 
restoration treatments must be based on:

          1. Comprehensive awareness of solid science (not 
        ideologically driven, selective citation of existing 
        knowledge).
          2. Implementing large-scale, adaptive management experiments 
        to test ideas.
          3. Monitoring fundamental parameters to determine treatment 
        effectiveness.
          4. Objective scientific analysis of the results.
          5. Further adaptation of management experiments suggested by 
        these monitoring observations.
          6. Sharing, publicizing and publishing results for lay 
        audiences, policy makers, resource management professionals, 
        and the scientific community.

    We need to use comprehensive restoration-based treatments as 
opposed to just thinning trees. If we don't we are merely treating a 
symptom, condemning ourselves to be plagued by the problem again in the 
future, and will lose the opportunity to solve many of the problems 
associated with degraded forest ecosystems.
    I am gravely concerned that in our urgency to treat forests 
quickly, we will do it incorrectly by focusing solely on removing 
trees. If we do that we will squander the opportunity to provide a 
comprehensive solution to all the problems confronting degraded 
forests.
    We have been in open revolt against nature in the dry forests of 
the West since settlement. It is time to start managing in harmony with 
natural tendencies. Science-based forest restoration treatments are 
consistent with natural tendencies. Comprehensive restoration is 
superior to forest thinning alone for one significant reason--
restoration treatments simultaneously improve forest health (the 
underlying cause of catastrophic fire) while reducing fire risk. 
Restoration treatments permit the safe reintroduction of low intensity 
ground fire that we can let burn without threatening people and homes 
and most importantly plays a vital role in restoring the forest.

                     RESTORATION HAS MANY BENEFITS

    The benefits of ecological restoration and diligent land 
stewardship in ponderosa pine and related ecosystems are many and they 
are sustainable indefinitely. Ecological restoration:

          1. Eliminates unnatural forest insect and disease outbreaks--
        such as the current bark beetle epidemic;
          2. Enhances native plant and animal biodiversity;
          3. Protects critical habitats for threatened or endangered 
        species;
          4. Improves watershed function and sustainability;
          5. Enhances natural beauty of the land;
          6. Improves resource values for humans, not just for current, 
        but also for future generations.

                    DESIGNING RESTORATION TREATMENTS

    There is no ``one size fits all'' restoration treatment. 
Intelligent restoration treatments are based on the historic conditions 
of the land. We know that ponderosa pine forests in the Southwest 
burned frequently with the net effect of killing small trees and 
enhancing fewer, large trees. We know that the real diversity of the 
ponderosa pine forest is below your knees in the grasses and shrubs and 
that they need fire and light to survive. We also know that the 
Southwest is prone to periods of sustained drought and that there are 
only so many trees per acre that can be sustained in an arid climate.
    Ecological restoration should strive towards emulating, insofar as 
is practical natural ecosystem patterns and processes. In the 
discipline of ecological restoration we refer to these natural 
conditions as ``reference conditions''. In most cases for ponderosa 
pine forests this includes fewer trees per acre; retaining older trees 
and removing the excess trees thus opening up the forest canopy to 
promote increased numbers and species of plants and grasses.
    Research across the Intermountain West has shown that restoration 
treatments substantially reduce fire hazard by thinning trees to 
decrease tree canopy density, break up interconnected canopy fuels, 
raise the crown base height, and then reduce accumulated forest floor 
fuels and debris with prescribed fire. Where tree density is great, 
fire alone is inadequate. Without thinning, fire can lead to increased 
mortality, especially among old growth trees. This is the typical case 
over most of the ponderosa pine type throughout the West.
    Restoration thinning enhances the productivity (growth) of trees, 
allowing young trees to develop old-growth characteristics such as 
large size and full crowns. Perhaps most importantly, restoration has 
been shown to increase rapidly the productivity of native understory 
grasses and herbs, the species that make up 90-99% of the plant 
biological diversity in western fire-adapted forests. The resources 
provided by abundant understory vegetation--seeds, flowers, fruits, and 
cover--translate into key wildlife habitat components. For example, the 
number of butterfly species and individuals increased within two years 
in Arizona sites that had received ecological restoration treatments.
    Our research in cooperation with land management agencies and 
community groups shows that restoration treatments are operationally 
sound. There are some very simple restoration-based sideboards for 
designing alternative prescriptions that are straightforward and well 
supported. They include:

          1. Retain all trees which predate settlement;
          2. Retain post-settlement trees needed to re-establish pre-
        settlement structure;
          3. Thin and remove excess trees;
          4. Rake heavy fuels from base of trees;
          5. Burn to emulate natural disturbance regime;
          6. Seed with natives/control exotics.

             WE KNOW WHAT TO DO AND IT MAKES ECONOMIC SENSE

    I have great faith in our scientific understanding of how to 
restore degraded forest. Yet I am frustrated that with so much 
knowledge at hand we remain mired in ideological disputes. Recently, 
the School of Forestry at Northern Arizona University completed an 
economic study analyzing the cost of restoration versus taking no 
action in ponderosa pine forests. This preliminary analysis shows that 
it is cost effective to spend up to $505/acre to restore forests to 
prevent catastrophic fire and avoid associated fire suppression costs. 
In other words, if we spend money to restore forests now, we will avoid 
spending that much on just suppression, rehabilitation and lost timber 
value in the future. This figure doesn't even take into account what is 
spent on lost property, lost property taxes, lost fire fighter lives 
and the full reality of losses associated with catastrophic fire. Based 
on this figure, a back of the envelope assessment shows that to treat 
the condition class 3 lands identified in the Intermountain West (and 
we really wouldn't want to treat all those acres of different forest 
types) it would cost $6 billion dollars. With our annual suppression 
costs rising to above $1 billion per year, and an annual federal budget 
that exceeds two trillion dollars the logic to spend the money and get 
this done is overwhelming.
    In conclusion I want to say exactly what I have said to Congress 
before. Knowing what we now know, it would be grossly negligent for our 
generation not to move forward with large scale restoration-based fuel 
treatments in the dry forests of the West. Inaction is clearly the 
greatest threat to the long-term sustainability of these western 
ecosystems.
    Thank you for the privilege to speak before the Committee.

    Senator Burns. Thank you, Dr. Covington.
    And I would say that your full statement will be made part 
of the record, so if you want to summarize. Ms. Sara Duncan, 
Denver, Colorado.
    Senator Kyl. Mr. Chairman, may I just interrupt one second?
    Senator Burns. Yes.
    Senator Kyl. I have a luncheon meeting to chair, as you 
know, and you are supposed to be there too. So I am going to go 
do that, and I will keep your seat warm for you, but may I 
apologize to the remainder of the panel for leaving before I 
hear your testimony and thank especially the two Arizonans who 
are here. Despite some conflicting views, I value both of their 
friendship and advice and I hope that we will continue to 
receive it in a significant quantity. Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator.
    Ms. Sara Duncan, please. Water Department, Denver.

  STATEMENT OF SARA DUNCAN, COORDINATOR OF INTERGOVERNMENTAL 
            AFFAIRS, DENVER WATER BOARD, DENVER, CO

    Ms. Duncan. Yes. Denver Water supplies water to one in four 
citizens in Colorado, approximately 1.2 million people. Of 
these people that you are talking about in the wildlife-urban 
interface, I am sure that it has not been considered that 
municipal watersheds in the forests are as or more impacted 
than these communities that are in the forests. It is 
absolutely critical that whatever legislation is passed, that 
it address the urban-wildlife interface as well as the 
municipal watersheds. They are not mutually exclusive. The 
enabling act of the Forest Service, in fact, gave them that 
very specific task of protecting and developing municipal 
watersheds.
    Denver Water, unfortunately, has become the poster child as 
victims of Forest Service management. We have suffered six 
fires in the last 6 years in our Upper South Platte drainage. I 
have attached to my testimony exhibit A that will show where 
those fires occurred, and I would hope that both my testimony 
and the photographs become part of the permanent record.
    In addition, we have really as a defensive measure also 
been a group that has been trying to restore ecologically 
degraded forests. Before the Hayman fire started, we did quite 
a bit of restoration work around our Cheesman Reservoir, and it 
was interesting. When the fire hit, those areas that we had not 
treated burned like crazy. Those 80 or so acres out of the 
138,000 acres burned by the Hayman fire last year that were 
treated and the fuel was removed, every building that was in 
there was left standing. Some of the trees will be lost, for 
sure, but every building was left standing. In fact, I would 
invite this committee to come and see us as the petri dish of 
forest fires except that I know that you all have in your own 
areas further examples of what the devastation of forest fires 
can do.
    Enough blame has been laid at the Forest Service so that we 
know that their policies have not worked well, but we also feel 
that Congress has contributed to the problem. Not to mince 
words, we think taking decision making away from trained 
professionals has been a bad idea and has really contributed to 
the problem.
    In addition, we feel that decision making has been weighted 
toward recreation and non-use instead of the multiple use 
sustained yield that has been part of the Forest Service mantra 
for years until recently.
    And finally, we feel that we need a clear political 
statement that money, a realistic time table--not 10 years, not 
20 years, but we are probably talking about generations to 
clear up this problem--and the appreciation of forest 
management must be implemented.
    I know that you will think I am ungrateful for coming and 
criticizing Congress when you were kind enough to invite me, 
but we are also very sympathetic to what you have to do in the 
balancing. We do not want to say that the environmental 
considerations are not important, but the idea of not having a 
clear forest engagement--and I did not hear anyone from the 
Forest Service say this. It was not in the film to begin with--
that looks at municipal watersheds that are in the forests 
really fails to protect the source of water. And source water 
protection was a great part of the 1996 amendments to the Safe 
Drinking Water Act. We know Congress is concerned about it, and 
we want to make sure in your decision making that you account 
for it.
    No action is not palatable. It is not environmentally 
responsible. We think that Congress needs to take an action and 
we hope that we can contribute to it, but we are talking about 
the health and safety not only of our forests, but also of our 
citizens. Thank you.
    [The prepared statement of Ms. Duncan follows:]

  Prepared Statement of Sara Duncan, Coordinator of Intergovernmental 
                Affairs, Denver Water Board, Denver, CO

    Mr. Chairman and Members of the Committee: Thank you for allowing 
me to appear before you to address the important issue of forest health 
and municipal water supply. The Denver Water Board is a municipal 
corporation that supplies water to over one million people: that is one 
of four people who live in Colorado. Denver Water's supply is dependent 
on water generated within the boundaries of watersheds located on 
Forest Service and other public lands. Denver's water system gathers 
diffuse surface flows originating on public watersheds and moves the 
water to treatment plants and drinking water systems sometimes located 
as much as 80 miles away from the water's origin.
    Since 1996, Denver Water has been the victim of six fires in its 
Upper South Platte watershed, a major water supply and delivery system 
for Denver Water. [see Exhibit ``A''] * The effects of these fires on 
Denver's system have varied, but the overall result is one of vitiated 
water quality. For example, approximately twenty miles of the South 
Platte River is subject to fire erosion that has resulted in severely 
reduced water quality, high stream turbidity, and diminished reservoir 
capacity due to erosion and foreign debris caused by the fire. The cost 
to date of mitigating fire impacts is in excess of $5,600,000 with an 
anticipation of higher costs to be paid in part by our customers [see 
Exhibit ``B''].
---------------------------------------------------------------------------
    * All exhibits have been retained in committee files.
---------------------------------------------------------------------------
    In order to maintain the physical integrity of water and of water 
collection systems, it is imperative that public lands are in a 
condition that does not contaminate water or impair the ability to move 
water to its place of beneficial use. [see Exhibit ``C'']. An ongoing 
federal commitment is necessary in order to limit the damage to 
municipal watersheds from fire.
    As a result of dealing with forest fires, Denver Water views the 
three bills before you, S. 1314, S. 1352, and H.R. 1904, and finds the 
following observation apply to all three bills and may be useful in 
your decision-making on what contributes to a healthy forest:

  <bullet> Fuel reduction can control or limit fires--Select cutting and fuel 
        reduction limited damage to Denver Water's property during the 
        recent Hayman Fire. The Hayman fire completely consumed trees 
        on acreage surrounding Denver Water's Cheesman Reservoir. At 
        Cheesman Reservoir where Denver Water used Forest Service 
        recommended techniques, fire intensity was diminished and four 
        caretaker houses, an office and maintenance facilities survived 
        the fire and stand today in a sea of charred trees and 
        blackened soil: Of the 8,000 acres Denver Water owns at the 
        Cheesman site almost everything burned to extinction except for 
        the treated area. The techniques favored in the Forest Health 
        legislation did work in this limited instance. We had more 
        forest management to do at Cheesman, but the Hayman fire got 
        there first.
  <bullet> Impacts of a forest fire on a municipal population are not limited 
        to the wildland/urban interface--Any legislation that limits 
        forest health techniques to an area within 1/2 mile of an at-
        risk community or in the wildland/urban interface would fail to 
        provide water source protection. In the west, municipal 
        watersheds cover many, many square miles and are located far 
        away from the city service area. Denver water relies on 
        watersheds over 80 miles from its treatment plants. Other major 
        water suppliers have supplies stretched over even longer 
        distances. If legislation limits the application of forest 
        health techniques to a certain mileage it would diminish the 
        effect of federal relief from wildfire problems.
  <bullet> Cooperative projects should receive first priority in funding--
        Denver Water along with state and federal forest agencies 
        developed a process for forest management on the Upper South 
        Platte drainage that served the needs of all agencies involved. 
        Implementation of the plan was not in place at the time of the 
        Hayman fire except for a small parcel at Cheesman Reservoir. 
        Cooperative efforts such as this should be given the highest 
        priority and sufficient funding to respond to immediate 
        hazards.
  <bullet> A realistic time limit to deal with forest problems is needed--It 
        is estimated the life of Denver Water's reservoirs impacted by 
        the fire will be reduced by forty years due to increased 
        sediment. Dredging of Cheesman Reservoir will solve some 
        problems, but will not prevent the continued inflow of 
        sediment. Erosion and attendant water quality degradation will 
        occur for the next thirty years. Ten years is a short time to 
        assure forest health when it took over a century of Forest 
        Service policies to create the present fuel-loading problem. 
        The 10-year implementation process endorsed by the Western 
        Governor's Association incorporated in all bills under 
        discussion should be treated as the first step in a long-range 
        response to responsible forest management.
  <bullet> Funding must be spent to address all forest issues, including 
        watersheds--It seems irresponsible to spend funds for forest 
        health within 1/2 mile of the wildlife/urban interface when 
        adverse conditions in a municipal watershed could impair water 
        for many people outside this limited area. Both S. 1314 and S. 
        1352 fail to recognize the tremendous costs involved in 
        addressing fire damage and the benefit from protecting 
        watershed that serve large populations. For example, dredging 
        costs to Denver Water's reservoir most impaired by sediment and 
        other debris created by fires on the South Platte are estimated 
        in the $15,000,000 to $20,000,000 range. The water serves 1/4 
        of Colorado's population, and therefore the benefits of 
        improved forest health to Denver Water's watershed would affect 
        a large number of people.

    Denver's Board of Water Commissioners has declined to take a 
position on the process of public review and NEPA compliance contained 
in all bills. It is Denver's expectation that whatever legislation is 
passed will provide a sufficient opportunity to assure technical 
compliance with existing laws as well as the flexibility to respond to 
forest management emergencies.
    Denver Water is aware that fire is a natural phenomenon on forest 
lands. However, two of the recent fires were man-caused, and all fires 
have been difficult to control due to forest conditions. We appreciate 
your efforts to address the issues of fire, forest health, municipal 
benefits and environmental concerns. If Denver's experience can be a 
useful tool in addressing these issues, please consider us a resource. 
Denver Water would be happy to provide you with any information you 
need.

    Senator Burns. Thank you.
    Mr. Bruce Vincent who is with Communities for a Great 
Northwest from my State of Montana. Welcome.

        STATEMENT OF BRUCE VINCENT, EXECUTIVE DIRECTOR, 
          COMMUNITIES FOR A GREAT NORTHWEST, LIBBY, MT

    Mr. Vincent. Thanks, Senator. It has been a long day. Thank 
you for hanging in there with us.
    I am a fourth generation Montanan and a third generation 
practical applicator of academic forest management theory. That 
is what I call a logger. I moved back to Montana after 
completing college and I moved back for two environmental 
reasons. The first environmental reason was the natural 
environment. You know where we live. Stunning scenery, 
wonderful wildlife, clean air, clean water, tree-shrouded 
mountains. That is why I like living in Libby.
    I also moved back for the cultural environment. The last 
vestige of what built the greatest Nation on earth is alive and 
well in our rural timber towns. Hard-working, hard-playing, 
community-oriented, family-oriented, church-oriented, school-
oriented people inhabit the town that I call home and thousands 
of timber communities around America.
    I quickly learned, though, that there is a third 
environment that is going to dictate the health of the first 
two, and that third environment is the political environment 
and the political environment in timber towns for the last 15 
years has been sometimes destructive, oftentimes violent, and 
it is leading us to a juncture in the road that is going to 
have a conclusion.
    I heard a lot of debate around the room today, good 
discussion. We have had this discussion since 1988 that I know 
of, vigorous discussion. In 1988 we had a log haul to Darby, 
Montana. We had a log haul because we were concerned with the 
abuse of the appeals process that was stymieing management and 
we were afraid that the Bitterroot Forest was going to burn 
down. In 2000 it did.
    In 1988, we also had a log haul, a rally. The Silver Fire 
Roundup it was called in the Siskiyou area of Oregon, Grants 
Pass. We were there because of the appeals process that was 
being abused and we were afraid that the area was going to burn 
down. In 2002 it did.
    In 1995, we went to Phoenix. We were in Phoenix because we 
were afraid that the largest contiguous stand of pine trees on 
the planet was falling into disrepair and because of systematic 
abuse of the appeals and citizen participation process, it was 
going to burn to the ground. In 2002 it did.
    I live in the area that Senator Craig explained was a site 
of the largest recorded fire in North American history, 3 
million acres in actually essentially 6 hours of firestorm. You 
have a couple of hundred fires started. Let them smolder for a 
couple of weeks and then blast it with some 75-mile-an-hour 
winds, and it makes the Rodeo look like a picnic. There are now 
a quarter million people living in the immediate area of that 
burn in 1910, and we are very fearful. We have been fearful for 
15 years, and now it is time for something to happen.
    I have given you my complete report. I would like it to be 
part of the record, Senator. There are some things in H.R. 1904 
that we support. Anything that is going to take aggressive 
action to actually do something is going to be supported by the 
communities that are at risk in this discussion.
    Particularly the area of judicial reform, something in the 
appeals and judiciary have got to change or we are never going 
to get anything on the ground. Senator Daschle was the Majority 
Leader of this esteemed body and he saw that he needed put an 
umbrella of protection over local resolution in his State in 
order to actually implement anything. South Dakota is not the 
only State that needs that protection. We have got to do 
something.
    H.R. 1904 recognizes that doing nothing does have 
consequences. All of us recognize that. It addresses a number 
of other things and I address them in my comments. But I am not 
here to do much more than just plead. I am here to plead 
because it is time for help, not rhetoric, not flowing words, 
but help. It is time for action. Those of us who live in the 
combat zone know the politics of this issue. We know it all too 
well.
    We also know that in politics reality does not have a great 
to do with what happens in the outcome. It is actually the 
public's perception of reality that dictates, and that reminds 
me of Will Rogers' old statement. It ain't what you don't know 
that's a problem; it's what you know that ain't so that's a 
problem.
    In American forestry there is a lot that the American 
public historically has not known. They have known a lot that 
ain't so. Well, you know what? They are not stupid. They are 
learning, and I think America is tired. I think America is 
tired and ready for some new leadership. They are tired as they 
watch forestry unfold 500,000 acres of smoke and fire at a 
time. They are tired of watching disease and insect 
infestations explode on public lands and land in their private 
forest treasures. They are tired about arguing about wildlife 
habitat and then watching such habitat be managed into 
oblivion. They are tired of watching the clean water sources of 
the future be vaporized. Those of us who live in the forest 
that you guys are debating right now plead with you to show the 
leadership and statesmanship that we need now to move forward.
    It is going to be possible you are going to meager action. 
You are going to take meager action that is politically 
expedient, but do nothing to substantially improve the ability 
of the forest managers to manage on the ground. We beg you to 
not go that route because ultimately where we live reality is 
the dictator, and right now that dictator is managing our 
forests and will continue to do so until this body helps us fix 
our problems. Thank you.
    [The prepared statement of Mr. Vincent follows:]

 Prepared Statement of Bruce Vincent, Executive Director, Communities 
                   for a Greater Northwest, Libby, MT

    Mr. Chairman and members of the Committee: I am honored and 
sincerely appreciate the opportunity to testify before you. Today I 
would like to both thank you, and plead with you.
    I am a fourth generation Montanan and a third generation practical 
applicator of academic forest management theory, a logger. I am co-
owner of Vincent Logging, a small family business in Libby, Montana. I 
serve as the volunteer President of Communities for a Great Northwest 
(CGNW), a non-profit group dedicated to educating its members and the 
public about the difficult choices we face in trying to provide for 
humankind while protecting the environment. CGNW membership includes 
hundreds of farming, ranching, mining, and logging families and rural 
main street businesses and elected bodies that live in the area that 
would be impacted by the President's Healthy Forest Initiative.
    I moved back to Montana after competing college for two 
environmental reasons. First, I moved back because of the natural 
environment of clean air, clean water, abundant wildlife and beautiful 
tree shrouded, snow covered mountains. Secondly I moved back because of 
the cultural environment filled with the hard working, hard playing, 
community oriented, family oriented, school oriented people of our 
rural resource managing area.
    I soon learned that it a third environment that would dictate the 
health of the natural and cultural environment I love and that is the 
political environment. The last 15 years of destructive, sometimes 
violent debate over the future of what we all love our forests--has led 
us to a political crossroads in which the future of our forests and 
forest families will be determined.
    As we move through this critical juncture in domestic forest 
history, I'd like to thank the Senate and House members that have been 
steadfast in moving H.R. 1904 forward. This legislation takes some 
critically important steps toward restoring the long term forest health 
of our nation. It is time for those steps to be taken.
    Areas of particular concern addressed include:

  <bullet> H.R. 1904 strengthens the ability of local managers to implement 
        common sense forest health restoration programs.

    Because of our love of the forest environment, those who live in 
forested areas have engaged in tens of thousands of hours of local 
debate over what we want the future to look like in our forests. 
Through consensus groups, collaborative groups, National Forest 
Congress Groups, sustainable community groups we have spent the last 
decade learning to find local resolution on countless forest health 
management issues.
    These local achievements in resolution are the cornerstone of hope 
for the future forest ecosystems of America and while we have been able 
to find common ground in locality after locality, the litigative nature 
of the environmental conflict industry has disallowed implementation of 
our work.

  <bullet> H.R. 1904 modernizes and expedites the appeals framework and legal 
        framework.

    Tragically, in countless areas including northwestern Montana, we 
have seen our work at resolution and our ground treatments to deal with 
our forest health problems halted by court decisions based not upon 
environmental concerns or infractions but based upon procedural 
technicalities raised by out of the area litigants. Our outdated, 
archaic system of procedures has turned into a lucrative money pit for 
those inclined to destroy our local collaborative attempts in the legal 
form of a scud-missile-from-afar.
    I'd like to applaud Senator Daschle for having the courage one year 
ago to protect from this type of outside litigation his state's local 
resolution processes within the Black Hills. However, South Dakota is 
not the only state needing this protection.
    While using softer techniques than Senator Daschle was compelled to 
use, H.R. 1904 modernizes and expedites the appeals framework and legal 
framework within which we resolve forest issues and move toward 
implementation. It does so without compromising on the public's right 
to involvement in those processes.

  <bullet> H.R. 1904 recognizes that doing nothing may have consequences.

    In the face of the legal onslaught against management of our 
forests, the insect, disease, wind throw and fire mortality on our 
nations public and private forestlands has skyrocketed during the last 
decade. Scientists have made their concerns known both to the Forest 
Service and to Congress at numerous hearings. They have been telling us 
of our problem in publication after publication including the 1999 GAO 
Report that stated that the single biggest environmental threat facing 
the interior west's forest was forest, habitat and watershed loss due 
to single-event, catastrophically huge, catastrophically hot fires.
    On our forest, the Kootenai, the U.S. Forest Service estimates a 
growth rate of some 492 million board feet of timber per year. They 
also estimate a mortality rate of around 300 million board feet per 
year. With human management removal never reaching those lofty numbers 
and averaging only 60 million board feet for the last decade we've been 
stacking up some impressive tonnages of fuel in our forest. That's why 
we are one of those interesting red blotches on the map of forest 
health problems.
    This fuel is a source of great fear in our area. While political 
winds are blowing this discussion of forest health all over the map 
from year to year one thing remains certain: We can pretend the fuel 
buildup does not exist, but reality is the ultimate dictator and our 
watersheds, our endangered species habitat, our game habitat, our view 
sheds, our recreation areas, our air sheds and our hopes of leaving a 
healthy forest for future generations are all paying the price of that 
pretending.
    Sadly, we are watching daily as our fears are borne true in the 
Bitterroot fires of Montana, the Rodeo fire of Arizona, the Hayman fire 
of Colorado, the Biscuit fire of Oregon and the unnamed fires yet to 
visit our lands this summer.
    H.R. 1904 directs the court system to analyze the long and short 
term impacts of letting ``nature take it's course'' when considering 
injunctive relief.

  <bullet> H.R. 1904 recognizes that our forest health problem is national in 
        scope.

    Forest health issues abound throughout the nation. While fire is a 
major concern in the West, the destruction of public and private forest 
lands and the ensuing destruction of watersheds and critical habitat 
for wildlife have reached epidemic proportions in the Southeast, the 
Midwest and the East.
    The situation has grown so dire that wildlife conservation groups 
have now joined in asking the federal government to correct the 
direction of America's forest management and have stated that they 
``believe that the prevention of uncharacteristic fires, insect 
infestations and disease outbreaks is essential to sustain fish and 
wildlife populations and other elements of healthy ecosystems and is, 
therefore, in the public interest.''
    H.R. 1904 would support the thorough study and monitoring of forest 
health issues on public and private lands. H.R. 1904 also recognizes 
that private landowners need assistance in studying and dealing with 
their forest health management issues and provides support for such 
action.

  <bullet> H.R. 1904 recognizes that much of the forest health problem lies 
        beyond the Wildland Urban Interface.

    While directing funding and treatment regimes to concentrate early 
on treatments close to at risk communities, H.R. 1904 rightly allows 
the local managers to broaden forest health management to include areas 
of concern outside the immediate areas of human habitation. This is 
imperative for two reasons.
    First, our watersheds, our wildlife habitat, our recreation areas 
and our forest health problems do not exist in a vacuum around our 
towns our forests consist of large and small dynamic and inter-
connected ecosystems that must be dealt with as a whole.
    Second, fires do not always start near urban areas. Consider the 
fire that roared into Showlow, Arizona, 30 miles wide with flames 
licking 300 feet in the air. Small buffers around our communities will 
not safeguard our water, our habitat, our air or our people.

  <bullet> H.R. 1904 recognizes that restoring forest health includes dealing 
        positively with biomass.

    The materials removal regimes that will be necessary to achieve 
forest health goals will yield materials that currently have little 
market value. However, these materials have potential for positive 
economic and environmental use in value-added manufacturing and 
electrical generation and H.R. 1904 includes grant monies that will 
jump-start the process of realizing this potential.

    H.R. 1904 thankfully addresses many other issues that forest 
managers tell us will enable them to do a better job of stewarding the 
forests we live in and love.
    As in the past when I've come to DC, in addition to thanking you 
for working on our issue, I come with a plea for help. Not nice words, 
not flowing rhetoric. Help. Help for the Forest I live in and love and 
help for the forest communities of our nation.
    Senators, it is time for action. Those of us who live in the combat 
zone of this political issue know what needs to be done--including 
mechanical removal of decades of fuel buildup in a traveling mosaic 
that minimizes the chances that natural fire occurrences will generate 
catastrophically huge, catastrophically hot fire. This removal can be 
followed by prescribed fires that give us the many benefits that cool, 
ground hugging fires bring to our ecosystems. We have proof that this 
process has potential in areas like this summer's fire near Helena, 
Montana, and season 2000's fire near Eureka, Montana, where we have 
seen lower, ground hugging fire in managed areas and ferociously hot 
fires in areas left unmanaged.
    It is physically possible to restore the health of the forests of 
our nation. The question before you is whether or not it is politically 
possible. We understand the politics of the debate. We also understand 
that in politics reality is secondary to the public's perception of 
reality. When it comes to forests, the old Will Rogers line comes to 
mind: ``It ain't what you don't know that is a problem; it's what you 
know that ain't so that is a problem.''
    Historically, the American public knew a lot that ``ain't so'' 
about our forest issues--but the American public is not stupid. The 
truth about our forest realities has never been clearer to them and 
with each tragic loss of forest the picture becomes even more clear. 
However, it is going to take leadership and statesmanship to move 
common sense reform of forest management processes through our elected 
bodies.
    America is ready for this new leadership. America is tiring of 
watching as forestry unfolds in 500,000 acres swaths of fire and smoke 
across the western landscape. America is tiring of watching the disease 
and insect infestations explode off of public lands and into their 
private forest treasures. America is tired of arguing about wildlife 
habitat and then watching such habitat be mismanaged into oblivion. 
America is growing concerned about clean water sources for the future 
and does not enjoy watching much of the source of that water fall into 
disrepair.
    Those of us who live in the forests you are debating plead with you 
to show the necessary leadership and statesmanship now. It is certainly 
possible that you will take meager actions that are politically 
expedient but do nothing to substantially improve our forest manager's 
ability to do the right thing on the ground. We beg you to not go that 
route.
    We ask instead that you choose to do what the American people of 
2025 will be thankful for. We ask that you take action that our 
children and their children will be thankful for. We ask that you take 
action that modernizes the management process and restores common sense 
approaches to the forest health issues currently plaguing us.
    H.R. 1904 is a great step in the right direction. Please, move on 
this bill. Every day that you wait adds to our problem. Every day that 
you wait compromises our ability to promise future generation's healthy 
wildlife habitat, healthy watersheds, healthy air sheds, and beautiful 
view sheds.
    It has been an honor and a privilege to come before you today.
    Thank you. I will be happy to answer any of your questions.

    Senator Burns. Thank you.
    Now we move to Mr. Mike Nivison, County Commissioner. I am 
an old county commissioner, so welcome. I am going to listen 
very closely to you.

             STATEMENT OF MICHAEL NIVISON, CHAIR, 
               OTERO COUNTY COMMISSION, OTERO, NM

    Mr. Nivison. Well, I am going to be speaking on behalf of 
some of your constituents from Montana as well.
    I know the GAO report and many scientists such as Dr. 
Covington have predicted what is happening was going to happen.
    We violated some principles of economic development in the 
fact that our infrastructure to take care of these problems has 
now been degradated. Senator Kyl and Senator Domenici, we share 
something in common. We have one mill left in each State. Both 
of those are Indian mills. I would suggest, as was suggested 
earlier, how can the Native Americans take care of their 
problem when I have 100,000 acres in the middle of my national 
forest that they possess that is totally restored when I cannot 
do that around the perimeter of that. They use best management 
practices and the same laws that exist for the National Forest 
Service.
    We ask the question about is it lack of money, is it 
environmentalism. There are a lot of answers. I know in your 
State of Montana, Senator, in talking with the mills up there, 
20 billion board feet of timber comes in from Canada every year 
and we are only able to cut less than 2 billion board feet of 
our resource in this country. It is something that we have got 
to address.
    We put together a program called the CPR program which 
stands for National County Partnership Restoration. We have 
embraced several States. The original States were New Mexico, 
Arizona, and Colorado. Since, we have legislation in the State 
of Montana. We have legislation pending in Wyoming. We are 
working with South Dakota and have been invited to Alaska by 
Richard Coose who is also a 33-year retiree of the National 
Retired Association of Foresters who is also a commissioner up 
there who is concerned.
    The CPR program has moved forward. In the last couple of 
years that we have come back to Washington, we have been unable 
to be embraced by the agency and funded to the extent that this 
project would require. We would hope to move this CPR program 
across the West. As Laura mentioned in her testimony, this is 
not a one-size-fits-all. The concept of the CPR program is to 
create a skeleton and let each community put its own clothes on 
it. We work with the 29 forested counties in Montana, as well 
as the Governor and Senator Laible. I have an addendum to my 
testimony in the full packet from those folks.
    Senator Burns. It will be made part of the record, by the 
way.
    Mr. Nivison. Okay.
    Really, the Montana Coalition of Forested Counties would 
like to see their infrastructure maintained. We cannot fix this 
problem without that.
    The National Fire Plan has $3.2 billion in it, and I would 
suggest if we could get this down to the local level to where 
the problems are, the money would get on the ground. I think 
there has been a suggestion through the Governors that this be 
done. The agency has a problem distributing the money. It would 
eliminate that. It would eliminate the tug of war in Congress 
between States to be eliminated by distribution on affected 
areas in affected States.
    I also feel that this National Fire Plan money--it does not 
put Congress in the dilemma of finding new money. That money 
does exist already.
    States, local governments, tribes have the authority and 
responsibility for the health, safety, and welfare of their 
citizens. I am sure as a past county commissioner that was the 
echo that you would hear. The Federal Government needs to 
enlist these and the grant universities and do this 
outsourcing. Without this local collaboration, we are not going 
to get anywhere.
    As many people here have said, I think people on the ground 
and in the trenches, as I am, are losing sight that anything is 
going to get done. I am here also today to plead to get out of 
this gridlock and out of this analysis paralysis. We need to 
savor our existing infrastructure. We need to fix trade 
agreements. We need to use best science that does exist. We 
need to treat all areas of the forests to create good 
watersheds, air quality, and good wildlife habitat.
    I believe that the policies need to be streamlined all 
across the board because it is just not happening. All my 
communities in my county--their watersheds are at risk. I have 
examples of a 640-gallon-a-minute spring that is now less than 
40 that feeds the community. They cannot find new water. In my 
town, we punched seven new wells last year. We do not have 
adequate water supplies. Unless we address these big 
watersheds, we have a problem.
    I believe as a Nation we have a national environmental 
disaster. I think in all areas we have the ability to fund and 
fix hurricanes, tornadoes, floods, and fires in large cities, 
our 911. We need to see this for what this is. There is a 
Ground Zero in New York City, but I would suggest to you that 
we have a Ground Zero in our national forests. This is 
something that needs to be treated as such. I, as Governor 
Martz, do not want to come back here next year. I have lost 120 
structures in the last 3 years. We need action and we need 
leadership.
    And I want to thank you for inviting me to testify.
    [The prepared statement of Mr. Nivison follows:]

             Prepared Statement of Michael Nivison, Chair, 
                   Otero County Commission, Otero, NM

    Dear Sir: The reports and a host of creditable scientists have 
alerted the public to the fact that large catastrophic fires would 
occur. Reports show that 60 percent of the forest is dead or diseased 
across the West. Several problems face our natural resource in the 
forest.
    The first principal of economic development is to take care of 
existing business and diversify. We are violating this principal and 
our natural resource infrastructure has now been critically degraded. 
In addition, new infrastructure to handle small diameter has yet to be 
developed.
    Two mills exist in Region III, New Mexico and Arizona; these are 
tribal mills. What is it that Native Americans understand that cannot 
be implemented by the Federal Government? In the Lincoln National 
Forest, the Mescalero Tribe has shown us the way to manage the forest 
effectively. Using Best Management Practices, the Mescalero Tribe is 
restoring their forest and is doing so with the same laws that exist on 
the National Forest land. In the past, there were 23 mills in Arizona 
alone; now only one tribal mill exists, The White Mountain Apache.
    Is the problem radical environmentalism? Is it lack of money or 
trade agreements that allow 20 billion board feet of lumber to cross 
the border of Canada when only two (2) billion of our own renewable 
resource is going to be harvested? I would suggest that all of these 
and many more have contributed to what is now an environmental 
disaster.
    The Western Governors and Congress have asked for collaborative 
groups to be formed, based on sound science and expressed in a ten year 
plan. The National Forest County Partnership Restoration known as CPR 
was formed three years ago in New Mexico, Arizona, and Colorado. Since 
this time, many other states such as Montana, Wyoming, Alaska, and 
South Dakota have engaged in this collaboration. As the CPR moves 
forward we find ourselves in a dilemma. The thresholds set forth by the 
WGA and Congress has been met with accountability, always taking the 
high road. The partnership felt it had responded to the fullest 
possible extent.
    In the past three years the agency at a National level has been 
unable to invest itself fully and completely in this co-partnership 
with State and Local government. Only total trust and cooperation at 
all levels can create a partnership. The CPR program has three forests 
mentioned in the line item ``Hazardous Fuel Reductions in the National 
Fire Plan'' and as yet has not been fully funded and embraced.
    The National Fire Plan is $3.2 billion, which I believe needs to be 
re-described to reflect an emphasis on restoration and prevention. 
Instead of reacting to symptoms we need to take care of the problem. 
The question that needs to be answered is how can the agency get the 
money to State and Local Governments and Tribes to help them solve this 
environmental disaster.
    Congress set up the National Fire Plan Money for the Western 
Governors. If money were sent to the affected governors, Local 
Governments and Tribes it would do the following:

          1. It would put the money at the local and state level where 
        the problems are. The money would ``Get on the ground'' where 
        it should be.
          2. It would allow the problem not be an agency problem in 
        monetary distribution. Instead, Congress would direct it the 
        affected areas.
          3. It would allow Congress to avoid the political tug-of-war 
        from State to State as those decisions would be made by 
        assessment and need for diseased watershed and catastrophic 
        fire; then to be distributed to the affected states.
          4. The National Fire Plan money is existing money and 
        requires no ``New'' funds from Congress, only redirection.
          5. States, Local Governments and Tribes have the authority 
        and responsibility for the health, safety and welfare of their 
        citizens plus the ability to exchange monies and contract with 
        the Federal Government. Federal government enlists land grant 
        universities and special expertise as needed (outsourcing).

    I believe we have ``Local'' agency cooperation but unless we come 
to terms with this disaster and an action plan is implemented 
immediately we will fail. Recognition and funding at all government 
levels must occur while the momentum and integrity of the many people 
across the Nation who have dedicated themselves to this mission are 
still intact. My fear, as I interact with local leadership, is many are 
losing sight of hope.
    The agency has recognized the ``Analysis paralysis'' but has 
remained in ``Gridlock'' in terms of the scope of this enormous task. 
Outside influences are to blame but the agency must also recognize and 
correct its own institutional weakness. And have ``The will'' to move 
forward with co-partners. Agencies cannot do business as usual but must 
develop a willingness to seek help outside its own borders. This 
problem is bigger then all of us, so it will take all of us to fix it.
    On the Lincoln, I have had to declare five emergencies in the last 
several years. All are Forest related and are devastating to our local 
economy and families. As elected officials we are charged with the 
health, safety and welfare of our citizens. We cannot accomplish this 
without the cooperation of our neighbors:

          1. We need to save our existing infrastructure.
          2. Fix trade agreements ``Charity begins at home.''
          3. Use best science (it does exist).
          4. Treat all areas of our forest in order to maintain good 
        water sheds, good air quality, and good wildlife habitat.
          5. Create a mosaic on the landscape to accommodate all 
        species instead of single species managing.
          6. NEPA's purpose is to protect the environment and stimulate 
        the health and welfare of man.

    Current rules and policies do not allow us to act in a timely 
fashion. We need to maintain the integrity of the law but streamline 
and re-think policies to be effective. We have 130,000 NEPA compliant 
acres on the Lincoln but cannot treat because of lack of funding or 
lengthy process.
    Over 120 structures have been lost on the Lincoln National Forest 
in the past three years. No family will be made whole; of the seven 
families I monitored, only two remain intact because of fire related 
causes. One of my sheriffs who was waiting to rebuild until the 
flooding stopped from the Scott Able fire, will never get to move home; 
he passed away just a few months ago of cancer.
    I have many communities whose water and watersheds are at risk. One 
example would be a community with a 640 GPM spring that now flows less 
than 40 GPM. The question is asked: Should we treat the urban 
interface, wild lands, watersheds or wild life habituate? My answer to 
you is all the above. I do believe this can be accomplished. All of New 
Mexico is at risk from water shortage; we are a land-water based 
culture; without water the land is worthless.
    This Nation has an environmental disaster. In all other areas we 
have the will to fund and fix hurricanes, tornados, flood and fires in 
our large cities. We need to see this for what it is. New York has its 
Ground Zero, I would tell you today this is what we face in our 
National Forest. We look to you for leadership. An action to start now 
embracing all Federal, State, Local Governments and Tribes.

    Senator Burns. Thank you, commissioner, and I appreciate 
your testimony.
    Mr. Robinson, does this figure up in the Kootenai National 
Forest concern you when our annual growth is around 42 million 
cubic feet a year and we lose 97.3 million cubic feet to 
mortality and disease?
    Mr. Robinson. I really cannot comment on that because I do 
not know the situation.
    Senator Burns. Why can you not comment on it?
    Mr. Robinson. Because I do not know the forest that well.
    Senator Burns. It does not make any difference. I gave you 
the figure. Does this concern you as a figure of forests? I do 
not care. We can move it to the Grand Canyon. On a forest down 
there. If I gave you that figure, would that concern you?
    Mr. Robinson. Well, oftentimes forest mortality is higher 
than forest growth. It depends on the situation.
    Senator Burns. In other words, you do not care.
    Mr. Robinson. No. What I am saying is that it is not always 
an unnatural situation, and it depends on the situation. I did 
not say I did not care.
    Senator Burns. Okay.
    Does that concern you, Ms. McCarthy?
    Ms. McCarthy. It does. As a forester, you have to look at 
the balance between growth and mortality and use the science 
about the natural process of insect cycles and figure out if 
the cause is related to human actions and then take an 
integrated pest management approach. It is of concern and it 
would require some treatment, but what that treatment is I 
could not specify.
    Senator Burns. Would you give that same advice to a corn 
farmer in Iowa?
    Ms. McCarthy. Well, actually I think that is where the 
integrated----
    Senator Burns. Insect cycles and----
    Ms. McCarthy. But that is where the insect pest management 
strategy comes from. It came from agriculture and it has been 
applied successfully in forestry.
    Senator Burns. It is not working in the Custer or the 
Kootenai.
    I just throw them out there because I think when you look 
at a case-by-case basis and communities, I will say again--and 
I think the Under Secretary for Agriculture hit it on, are you 
going to protect the process or are you going to protect the 
forests? And do you care about the people who work there? That 
is what is boils down to. I heard a lot of community people 
here who have the same kind of concerns.
    So we will look at your testimony. We will leave the record 
open for comments from the other Senators. I will let them ask 
their own questions. They will probably do it through 
correspondence. And if you would reply to that. You would also 
reply to the committee so that we can have you on record.
    Again, I am embarrassed for the committee because we went a 
little too long. We spent too much time with probably folks--I 
would have rather had a debate right here at this table because 
that is the way I do it over in Commerce, but I'm not in 
control here.
    [Laughter.]
    Senator Burns. So we are going to leave it like it is.
    But if you will respond to the committee, why, we will take 
that response very seriously. And again, thank you for coming.
    Mr. Vincent. Thank you, Senator.
    Senator Burns. We are adjourned.
    [Whereupon, at 1:08 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time this hearing went to press.]

               Question From Senator Kyl for Tom Robinson
    Question 1. Mr. Robinson had indicated that homes in southern 
Arizona burned for lack of fuels treatment money. Please substantiate 
this.
                                 ______
                                 
              Questions From Senator Bunning for Panel II
    Question 1. The recent rash of wildfire outbreaks that have 
occurred in the western United States have turned our focus on wildfire 
prevention and forest restoration studies and initiatives. However, 
many states in other areas of the country also boast forests that have 
been and will be subject to forest fires. Kentucky, in particular, is 
home to two large forest areas: the Daniel Boone National Forest and 
the Land Between the Lakes National Recreation Area. How will any 
restoration-based fire fuel reduction and forest health projects 
address the different geographical needs of these regions?
    Question 2. There has been concern raised over the allocation of 
funds for fire fuel reduction projects. Some citizens fear that too 
much money will be diverted away from developing wildfire protection in 
and around communities and instead utilized for backwoods thinning and 
fuel reduction projects. The concern has been raised that such a 
distribution of funds will leave many communities that surround forests 
vulnerable to fire. How will any restoration-based fuel reduction and 
forest health projects address the need to provide protection for the 
areas immediately around communities, in addition to deep forest and 
backwoods areas?
                                 ______
                                 
            Questions From Senator Campbell for Sarah Duncan
    Question. How long does it take after a fire before you can go back 
to business as usual in delivering Denver residents' their water?
    Question. What is the best way for Congress to address the issue of 
improving forest health and ensuring adequate water supplies?
                                 ______
                                 
              Questions From Senator Campbell for Mark Rey
    Question. For many years, EPA classified Denver as not meeting 
clean air standards. I understand that several factors probably 
contributed to Denver's air problems. However, the way I understand it, 
clean air regulations do not take wildfire effects into consideration.
    Question. Could you please talk a little bit about the bad health 
effects fires have on people and cities' ability to meet clean air 
requirements?
    Question. Biomass is becoming an important alternative to 
traditional sources of energy. The language in H.R. 1904 provides 
incentives for using biomass byproducts for energy production, yet 
includes certain limits. It seems that some larger cities do not fit 
into the preferred community definition but will be considered as a 
``Person.''
    Question. Some cities that fall outside the 50,000 person limit in 
H.R. 1904 are considering installing biomass units as an 
environmentally sound part of their energy mix. However, the costs of 
the fuel may inhibit this course. What is your opinion on broadening 
the language so that cities with populations greater than 50,000 people 
can benefit under this bill?
                                 ______
                                 
             Questions From Senator Murkowski for Mark Rey
    Question 1. A recent Report by the General Accounting Office 
addressed appeals involving fuels reduction projects on national forest 
system lands. The study focused on the number of hazardous fuels 
reduction projects that were appealed and/or litigated during FY 2001 
and FY 2002 and found that opponents of forest thinning appealed 590 of 
all hazardous fuels reduction projects eligible for appeal under the 
FS's appeal statute. How will H.R. 1904 alleviate this apparent 
administrative gridlock?
    Question 2. The landownerships of the Kenai Peninsula, where there 
is extensive spruce bark beetle damage, consists of lands owned by the 
federal government, the state, private individuals, University trust 
lands, and native corporations. In what way will H.R. 1904, ``The 
Healthy Forest Restoration Act'' assist these landowners in reducing 
uncontrolled fire risks and achieving healthier stands of trees?
    Question 3. I recently learned that the Kenai lands managed by the 
US Forest Service were reclassified as Condition Class 3 from Condition 
Class 1. Can you explain to me the rationale for this re-classification 
and will these lands be fully covered for treatment eligibility under 
H.R. 1904?
    Question 4. Title II of H.R. 1904 addresses biomass and the lack of 
current markets for the volumes of by-products being generated as a 
result of the necessary large-scale preventive treatment activities. 
How will this title assist landowners on the Kenai, both public and 
private, in creating opportunities for biomass projects? In addition, 
what is the Forest Service and the U.S. Department of the Interior 
doing in regards to biomass utilization to date on the Kenai Peninsula?
    Question 5. You mentioned during this hearing that the forested 
lands on the Kenai (in particular, on the Chugach National Forest) are 
dead with little possibility of treatment. Can you explain why 
treatment cannot occur on these public lands? Are there any incentives 
in H.R. 1904 to create fuels reduction projects on timber which is no 
longer deemed marketable?
    Question 6. What grant programs are available under the State & 
Private Forestry Program of the U.S. Forest Service in Alaska that can 
allow for fuels reduction or biomass incentive programs for private and 
native corporation landowners?
    Question 7. For fuels treatment projects on federal lands in the 
State of Alaska, in particular, on the Kenai Peninsula, is it your 
opinion that in order for any of these initiatives to take place, a 
pubic access infrastructure would be required or, are there creative 
ways to still treat such lands without an extensive road system?
                                 ______
                                 
          Questions From Senator Murkowski for Rebecca Watson
    Question 1. Can you tell me how H.R. 1904 will allow for expedited 
fuels treatment projects on the Kenai National Wildlife Refuge and what 
fuel treatment projects, to date, have been accomplished on the refuge?
    Question 2. The landownerships of the Kenai Peninsula, where there 
is extensive spruce bark beetle damage, consists of lands owned by the 
federal government, the state, private individuals, University trust 
lands, and native corporations. In what way will H.R. 1904, ``The 
Healthy Forest Restoration Act'' assist these landowners in reducing 
uncontrolled fire risks and achieving healthier stands of trees?
    Question 3. Title II of H.R. 1904 addresses biomass and the lack of 
current markets for the volumes of by-products being generated as a 
result of the necessary large-scale preventive treatment activities. 
How will this title assist landowners on the Kenai, both public and 
private, in creating opportunities for biomass projects? In addition, 
what is the Forest Service and the U.S. Department of the Interior 
doing in regards to biomass utilization to date on the Kenai Peninsula?
    Question 4. For fuels treatment projects on federal lands in the 
State of Alaska, in particular, on the Kenai Peninsula, is it your 
opinion that in order for any of these initiatives to take place, a 
pubic access infrastructure would be required or, are there creative 
ways to still treat such lands without an extensive road system?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

           Statement of The Nature Conservancy, Arlington, VA

    The Nature Conservancy's Involvement with Fire Restoration. Over 
the past 40 years the Conservancy has been engaged in a wide variety of 
ecological management activities, including managing thousands of 
prescribed fires to restore ecosystem health at hundreds of sites 
across the United States. Our restoration work relies on working with 
partners, applying credible science and using an adaptive management 
approach.
    Policy Recommendations. Based on our on-the-ground experience, we 
recommend:

  <bullet> Hazardous Fuels Reduction projects should be prioritized in the 
        wildland-urban interface and water supply areas. Although 
        projects will be selected primarily because of public safety, 
        they also can provide important lessons for ecosystem 
        restoration in larger landscapes.
  <bullet> The agencies should begin conducting a small number of ecosystem 
        restoration projects outside the wildland-urban interface. 
        These areas should be selected based on a clear and compelling 
        need for ecological restoration as well as their value in 
        demonstrating how agencies, communities, and scientists can 
        work cooperatively in planning and taking action on a landscape 
        scale. Expedited approval processes are not necessary or 
        appropriate in those areas.
  <bullet> In non-WUI projects, and where possible in the WUI, agencies must 
        set ecosystem restoration goals and apply adaptive management 
        principles, including: improving collaboration, working from a 
        landscape-scale perspective, setting measurable ecological 
        objectives and desired future conditions, identifying 
        uncertainties, monitoring to ensure that objectives are being 
        met and uncertainties addressed, and then assessing and 
        adapting practices where necessary. Our own experience and the 
        history of natural resource management clearly show that well 
        meaning managers will make mistakes and that large-scale 
        restoration is fraught with uncertainty. Adaptive management 
        will allow us to move forward with much needed restoration 
        while reducing unintended consequences and maximizing learning. 
        The result will be better investment of taxpayer funds, 
        healthier ecosystems and safer communities.
  <bullet> Congress needs to devote significantly more resources to 
        appropriate treatment and restoration of altered fire regimes 
        in fire-adapted ecosystems. Continuing to divert scarce public 
        funds for suppression will result in higher long-teen costs, 
        both ecological and financial.
  <bullet> Congress should consider some form of subsidy to develop facilities 
        to utilize small diameter biomass at appropriate locations. In 
        the long run, the absence of markets for millions of tons of 
        small diameter trees that currently have little economic value 
        will be a major barrier to restoration of larger landscapes.

    The Nature Conservancy is dedicated to protecting the biological 
diversity of life on Earth. The Conservancy has more than one million 
individual members and programs in all 50 states and 30 countries. Our 
conservation work is grounded in sound science, strong partnerships 
with other landowners, and tangible results at local places. Please 
visit our website at nature.org.
    CONTACT: Louise Milkman, 703-247-3675, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3dfdedadfd8ded2ddf3c7ddd09ddcc1d4">[email&#160;protected]</a>

                                 ______
                                 
  Statement of Center for Native Ecosystems, Colorado Mountain Club, 
   Colorado Wild, High Country Citizens' Alliance, Western Resource 
   Advocates, Western Slope Environmental Resource Council, and The 
                           Wilderness Society

    Mr. Chairman, and members of the Senate Energy and Natural 
Resources Committee, seven conservation organizations throughout the 
state of Colorado, Center for Native Ecosystems, Colorado Mountain 
Club, Colorado Wild, High Country Citizens' Alliance, Western Resource 
Advocates, Western Slope Environmental Resource Council, The Wilderness 
Society, would like to thank you for the opportunity to provide 
recommendations and comments on H.R. 1904, the ``Healthy Forests 
Restoration Act of 2003'' on behalf of the more than 44,000 members and 
supporters of our organizations in the state of Colorado.
    Responsible wildfire legislation will build on existing consensus 
that mitigating the risk to communities targets limited resources to 
communities themselves and recognizes that environmental and public 
participation laws do not create undue project delays. We have grave 
concerns that H.R. 1904 stands in sharp contrast to this widespread 
consensus and echo the concerns raised by over 50 locally-elected 
Colorado officials in letters addressed to Rep. Scott McInnis and/or 
Senators Wayne Allard and Ben Nighthorse Campbell.
    Based on our experience with forest and fire management practices 
in Colorado, we offer the following set of recommendations followed by 
our specific concerns with H.R. 1904.

     FIRE AND FUEL REDUCTION ON NATIONAL FOREST LANDS IN COLORADO: 
                     RECOMMENDATIONS FOR THE FUTURE

    The goal of national fire policy should be to reduce the threat of 
fires to humans and homes, and to restore forests to a more natural 
fire regime. We recommend several specific ways to achieve this goal:
Protect Life and Property
    Protecting lives, homes and communities should be the highest 
priority of our national fire policy. To prevent loss of lives and 
homes, fire safety efforts should focus on maintaining defensible space 
in the immediate vicinity of homes in the wildland-urban interface. 
Where fire poses an immediate threat to homes and communities, it 
should be suppressed.

  <bullet> Implement Forest Service Program that Prioritizes the Wildland-
        Urban Interface. Equally important, but currently lacking, is a 
        Forest Service policy that prioritizes prescribed burning and 
        thinning in the wildland-urban interface. For example, in a 
        letter to Regional Forester Rick Cables, Rep. Mark Udall 
        recently questioned why the Rocky Mountain Region of the Forest 
        Service implemented a scant 38% of fuel reduction projects in 
        the wildland-urban interface.
          The GAO has frequently questioned the Forest Service's fiscal 
        and performance accountability. In a January 2002 report, 
        Severe Wildland Fires, Leadership and Accountability Needed to 
        Reduce Risks to Communities and Resources, the GAO simply could 
        not tell whether the Forest Service had focused nearly $800 
        million in National Fire Plan funds on the wildland urban 
        interface or somewhere else. In 2001, the Forest Service even 
        opposed a provision in the Interior Appropriations bill that 
        would have required it to spend a modest 60% of its fire plan 
        funding in the wildland-urban interface.
  <bullet> Create Defensible Space around Homes and Communities. The Forest 
        Service's own studies show that the best way to protect homes 
        in forested areas is to create defensible space in the 
        immediate vicinity of the structure (i.e., thinning trees, 
        removing underbrush, etc.) and to build with non-flammable 
        materials (i.e., metal roofs, fire-resistant glass, etc.).
          Specifically, the research of Jack Cohen of the Forest 
        Service's Fire Sciences Laboratory shows that these measures 
        within 40 meters of a structure are the most important factors 
        determining whether that structure will survive a forest fire--
        and that fuel reduction measures in the distant backcountry 
        have little impact on a structure's fate (Cohen, Jack D. 2000. 
        Preventing disaster: home ignitability in the wildland-urban 
        interface. Journal of Forestry 98(3): 15-21).
  <bullet> Provide Incentives for Landowners to Reduce Fire Risk around Homes. 
        To help homeowners create and maintain defensible space around 
        their homes, we need programs (at the state, county, and/or 
        municipal level) that provide incentives and resources to help 
        landowners refurbish their houses with non-flammable materials 
        and conduct fuel reduction measures on their properties. Given 
        the huge sums being spent fighting fires such measures could be 
        more cost-effective for taxpayers, as well as reduce the loss 
        of property and the risk to firefighters who are putting their 
        lives on the line to save peoples' homes.
  <bullet> Urge Counties to Adopt Fire-Wise Zoning and Building Codes. Already 
        1.3 million Colorado residents, 30% of the State's population, 
        live in forested areas considered to be at high risk from 
        forest fires. And the challenge of protecting lives and 
        property from fire is only going to grow as development 
        increases in Colorado's wildland-urban interface. To counter 
        this trend, municipalities and counties need to: (1) develop 
        and implement sensible land-use planning that directs new 
        building out of harm's way; and (2) adopt fire-wise building 
        codes that require the use of nonflammable construction 
        materials and fire-smart landscaping.
  <bullet> Maintain an Effective Firefighting Force. It is essential to 
        maintain a highly trained and adequately supported fire 
        suppression force to protect lives and property. We support the 
        funding necessary to maintain an effective community protection 
        firefighting program.

Restore Ecological Health
    In the backcountry, where human lives and property are not at risk, 
the focus of our national forest policy should be to restore natural 
fire cycles and forest conditions. Fuel reduction efforts should focus 
on the use of prescribed fire to restore natural fire cycles and, where 
ecologically necessary, thinning smaller trees and underbrush. 
Commercial logging of bigger, older trees for fire-risk reduction is 
NOT scientifically justified.
  <bullet> Acknowledge Fire's Role. Federal land managers should adopt 
        comprehensive management plans that acknowledge the natural 
        role fire plays in maintaining forest ecosystems, and that they 
        educate the public on the importance of natural fire regimes. 
        Where lives and property are not at stake fire suppression 
        should be undertaken only under limited circumstances, such as 
        when fire threatens critical or rare components of ecosystems 
        (such as old growth forest and endangered species habitat) 
        while these elements are being restored to healthy levels.
  <bullet> Return Forests to Natural Conditions and Fire Cycles, Specific to 
        Each Forest Type. In certain fire-evolved forest types--such as 
        lower-elevation ponderosa pine--fire suppression and other 
        activities including livestock grazing and logging large trees 
        have allowed stand densities to increase above natural or pre-
        European-settlement era conditions. In such fire-dependent 
        forest types, we support vegetation ``treatments''--such as 
        thinning and prescribed fire--as necessary to restore natural 
        conditions and processes.
          We note, however, that forest ecosystem types with longer 
        fire cycles have not been significantly impacted by the past 
        century of fire suppression and are thus well within their 
        historic range of natural variability in terms of stand 
        densities. For example, high-elevation Englemann spruce-
        subalpine fir forests typically burn every 300-400 years, are 
        still at natural densities, and thus do not need to be 
        ``restored.'' It is only in the lower elevation forests in the 
        wildland-urban interface, where fuel reduction is needed to 
        reverse a century of human fire suppression, that thinning 
        would be appropriate for these forest types.
  <bullet> Utilize Prescribed Fire Where Safe and Appropriate. In terms of 
        restoring natural conditions and processes, obviously fire 
        itself is the most natural restoration mechanism and has been 
        shown to be particularly effective at reducing fuel loads. (The 
        Hayman Fire, which appeared to stop when it reached the 
        Polhemus Prescribed Burn area and the Schoonover Wildfire area, 
        may be a good illustration of this point.) However, where there 
        is a high risk of a stand-replacing fire (i.e., a fire that 
        burns so hot that it kills virtually all vegetation and may 
        damage soils) or an uncontrollable fire that would threaten the 
        wildland-urban interface, some mechanical thinning may be 
        appropriate in certain forest types before conducting 
        prescribed burning.
          It is also essential that prescribed burning be implemented 
        only when and where conditions will allow for its safe use. 
        While prescribed burning does contribute to air pollution and 
        can aggravate the health of people with asthma and breathing 
        difficulties, it generally results in far less pollution than 
        uncontrolled forest fires. We believe that the federal agencies 
        should significantly increase the annual amount of acreage 
        which is prescribed burned, and urge states to cooperate and 
        support these efforts.
  <bullet> Protect Old and Large Trees. In circumstances where science 
        dictates that mechanical thinning is necessary to reduce fuel 
        loads before fire can be safely reintroduced, such restoration 
        treatments should protect old and large trees. In addition to 
        being more fire-resistant, larger trees and old-growth forests 
        are a scarce and important ecological value in Colorado's 
        lower-elevation forests and should be preserved.
  <bullet> Keep Roadless Areas Wild. Roadless areas are critical wildlands, 
        and are generally healthier ecosystems than logged and roaded 
        areas. Forest Service studies have found that of the 89 million 
        acres of National Forestlands that have a moderate to high risk 
        of stand-replacing fires, less than 16 percent are in 
        inventoried roadless areas. In addition, roadless areas tend to 
        be farther from homes and communities and thus are not usually 
        at issue in wildland-urban interface fuel reduction efforts. We 
        therefore take issue with the timber industry exploiting the 
        public's fear about forest fires to promote commercial logging 
        in roadless areas. Such traditional logging would not reduce 
        the risk of fire adversely affecting humans and their 
        properties, and actually can increase forest flammability. 
        Furthermore, building more logging roads into the backcountry 
        only increases the risk of wildfires as most fires are started, 
        whether deliberately or inadvertently, by humans along forest 
        roads--e.g., from hot catalytic converters on vehicles, 
        discarded cigarettes, or abandoned campfires.
          However, while we oppose commercial logging in roadless areas 
        because of the wildland, recreation and wildlife values that 
        logging destroys, we do not oppose restoration treatments--
        including mechanical thinning where scientifically justified--
        in certain ecosystems (low elevation, dry forest types with 
        frequent low intensity fire regimes) where these treatments are 
        necessary to restore natural conditions and processes, and 
        where such treatments can be undertaken while maintaining or 
        improving roadless character. We note, however, that scientists 
        are still in disagreement over what level of intervention is 
        necessary to restore different forest types, and the Forest 
        Service has proposed few roadless projects to date that meet 
        this restoration goal. We also note that there are tens of 
        millions of acres of forest lands adjacent to communities and 
        homes outside of roadless areas that can and should be treated 
        first. The Forest Service estimates that there is at least 20 
        years of fuel reduction work that is needed just within the 
        wildland-urban interface Any fuel reduction or forest 
        restoration projects in roadless areas must avoid construction 
        of new roads, and should preserve the wild character of the 
        landscape.

Build Public Support for Forest Restoration and Fire Management
    In order to restore the public's faith in federal land management, 
the Forest Service should focus its efforts where there is public 
consensus, pursue only scientifically justified projects, include the 
public in designing and implementing fuel reduction and forest 
restoration projects, design projects to maximize learning by setting 
up experiments and control areas and applying adaptive management, and 
continue to build scientific understanding of fire and forest 
management.

  <bullet> Focus on Areas of Consensus. There is virtual agreement by all 
        interests--in both the public and scientific arenas--on the 
        need to pursue important fuel reduction efforts in the 
        wildland-urban interface to reduce risk in the immediate 
        vicinity of homes and communities. The federal agencies should 
        therefore focus their efforts and resources there, rather than 
        wasting money and political goodwill on controversial and 
        scientifically questionable logging projects in the 
        backcountry. By avoiding, or at least greatly reducing, 
        controversy and pursuing consensus projects, the federal 
        agencies would be more efficient, effective, and would help to 
        build a successful track record and rebuild public faith and 
        support. There is at least two decades of fuel reduction work 
        to do in the wildland-urban interface alone--meanwhile 
        scientists could be researching and creating public consensus 
        on the more complex and controversial issues of restoring 
        natural fire cycles in the backcountry.
  <bullet> Don't Cut Out the Public. ``Streamlining'' compliance with 
        environmental laws that guarantee public input and review as a 
        way of speeding fuel reduction projects is a shortsighted 
        approach that would likely lead to the approval of ill-
        considered and poorly designed projects, could result in huge 
        delays due to litigation, and would destroy opportunities to 
        build consensus around projects that could benefit both the 
        public and the land. We strongly oppose legislation aimed at 
        broadly limiting the application of environmental laws for fuel 
        reduction or salvage projects. Improved public education is 
        also critical to creating understanding and support for the 
        restoration of fire's role in forests. This education would not 
        happen under laws where the public has little or no input on 
        proposed projects.
  <bullet> Pursue Scientific Understanding by Appointing a Fire Review Panel. 
        In order to learn as much as possible about fire behavior, we 
        support directing State Foresters to convene an impartial, non-
        partisan, scientific panel of fire and forest ecology experts 
        to help clarify the lessons to be learned from recent fires--as 
        requested by Rep. Udall of the Layman fire. In Colorado, the 
        Hayman, Coal Seam, and Missionary Ridge fires occurred in areas 
        with different ecosystem types that had been managed 
        differently by federal and other land management agencies, 
        including areas where previous forest fires had occurred and 
        where some fuel treatment had been conducted. Examination of 
        the behavior of these fires, the factors that led to their 
        intensity, and the way the fires behaved when they encountered 
        these previously affected or treated areas will be instructive 
        in designing future risk-reduction projects, to the benefit of 
        both land managers and the public, and will move us beyond the 
        ``blame game'' to pursuing scientifically based solutions.
  <bullet> Convene a Stakeholders Forum to Build Consensus on Future Fuel 
        Reduction Projects. Another mechanism for building public 
        consensus would be for State Foresters to convene a meeting of 
        stakeholders to reach agreement on where, when, and what fuel 
        reduction treatments are appropriate. This would build on 
        recent efforts (e.g., the 1998 Forest Health summit convened by 
        Colorado's then-Governor Romer) that reach consensus that 
        forest health management efforts should be directed at the 
        ``red zone'' (AKA the wildland-urban interface).

   THE HEALTHY FORESTS RESTORATION ACT OF 2003, H.R. 1904, FAILS TO 
                                ADDRESS 
                         THESE RECOMMENDATIONS

    The scope of H.R. 1904 is extremely broad, applying to virtually 
all forested landscapes in the United States through the bill's various 
titles. However, as Title I of the bill is most focused on providing 
legislative direction for forest fire management pertaining 
communities-at-risk, our review focuses on the provisions of this Title 
alone.
H.R. 1904 Fails to Prioritize Community Protection
    The Forest Service has limited resources. The best way to reduce 
the risks of fires to homes and lives is to focus on forest areas 
immediately around communities.

  <bullet> H.R. 1904 does not focus scarce federal funding and resources where 
        they would do the most good: in the Community Protection Zone 
        adjacent to at-risk communities. Instead, the bill will 
        continue to allow the Forest Service and Department of Interior 
        to conduct misguided logging projects deep in the backcountry 
        in the name of ``fuel reduction.'' In fact, these plans would 
        provide more help to timber companies than to fire-threatened 
        and cash-starved communities.
  <bullet> Through block grants to states, responsible legislation will 
        provide funds for fuel reduction on private, state and tribal 
        lands--which comprise 85 percent of the forested land near 
        vulnerable communities--as well as on federal lands. This 
        approach would put the limited available funds to use where 
        they are most effective: at the sites where forest fires pose a 
        real threat to human lives and homes.
  <bullet> H.R. 1904 does not, however, prioritize projects that would create 
        a crucial defensible space around western communities. Instead 
        it calls for logging 20 million acres of federal lands, often 
        far from any community, and provides virtually no funding for 
        fuel reduction on non-federal lands. What scant funds the bill 
        provides to local communities are buried within new programs in 
        the bill that are not dedicated to protecting communities from 
        forest fires.

H.R. 1904 Unnecessarily Restricts Meaningful Public Participation and 
        Binds the Hands of an Independent Judiciary
    There is also significant concern about the chilling effect that 
H.R. 1904 would have on the basic democratic principal of public 
participation in the management of public lands.
    Academic and government research refutes notions that environmental 
and public participation laws interfere with the timely implementation 
of fuel reduction projects. Two General Accounting Office (GAO) reports 
and an independent study by Northern Arizona University point to the 
fact that the overwhelming majority of fuel reduction projects proceed 
unobstructed within the 90-day period allowed by law.

  <bullet> The bill seeks to eliminate the most important part of the National 
        Environmental Policy Act (NEPA)--the requirement that 
        alternatives to agency actions be considered. The Council on 
        Environmental Quality has called this consideration of 
        alternatives the ``heart of NEPA.''
  <bullet> H.R. 1904 also seeks to significantly interfere with our nation's 
        independent judiciary. It requires a court to limit preliminary 
        injunctions of logging projects carried out under the bill to 
        45 days, unless the court affirmatively acts to renew the 
        injunctions. It also seeks to force any courts, including 
        appellate courts, to issue a final ruling on a case in 100 
        days. It even attempts an astounding change in the American 
        legal standard that governs how courts determine equitable 
        relief for an injured party.

    In sum, solutions to the problem of severe wildfire risk currently 
exist that are rooted in consensus rather than controversy. These 
explicitly prioritize community protection and recognize that public 
participation and environmental laws play a critical role in 
safeguarding the public's interests in the management of their lands. 
Any responsible wildfire legislation must specifically direct federal 
land management agencies and appropriate funding to address community 
risk mitigation in an open and democratic process. Unfortunately, H.R. 
1904 fails to address either of these criteria at the expense of 
communities and lives.
    The problem of increased fuel loading near homes and communities 
did not appear overnight. Likewise, this problem will not be solved 
overnight. Rather, a well designed program of treatments in the highest 
priority areas, designed and implemented with public consensus, will, 
over time, protect our at-risk communities and restore our forests to a 
more natural state.
    We appreciate the opportunity to provide to the committee our 
comments and recommendations.
                                 ______
                                 
   Addendum to Mike Nivison Testimony Submitted by Ron Christensen, 
            Chairman, Eastern Arizona Counties Organization

    It is with grave concern for the future of our forests and 
communities that I provide these comments on the Healthy Forest 
Restoration Act of 2003.
    While this act is a good start toward addressing regulatory 
roadblocks to on-the-ground Forest Restoration, we believe that truly 
effective and timely restoration can be accomplished with this 
legislation by addressing the following points:

  <bullet> The 20,000,000 acre limitation of acreage provision in Section 
        102(c) limits the National Forests to treating a small 
        percentage of high fire risk forested lands in the United 
        States. Section 201 of this bill notes that 190,000,000 acres 
        are at risk of catastrophic fire in the near future. We 
        therefore request that the limitation of acreage provision be 
        either stricken or raised to 190,000,000 acres.
  <bullet> Section 102(d) eliminates vast areas in critical need of treatment, 
        and needs to be stricken. Acts, such as the Endangered Species 
        Act, National Wilderness Preservation, and Congressional 
        establishments of at-risk Wildlife Refugees encumber vast acres 
        of forest lands, several of which are near communities and 
        other critical infrastructure.
  <bullet> To provide more flexibility to the Secretary in emergency 
        situations, we request that you amend Title I, Section 104(a) 
        of the bill to add language allowing the Secretary to issue 
        categorical exclusions under NEPA for those areas deemed by the 
        Secretary to be in an emergency situation, as defined by 
        regulation.
  <bullet> Section 105 can be further strengthened and avoid excessive delays 
        by including language that allows projects to commence at the 
        time the decision document is signed, regardless of any attempt 
        for a person(s) to seek administrative redress.
  <bullet> We agree with and fully support the Biomass project provision of 
        Title II, and encourage this Congress to both authorize and 
        allocate the $25,000,000 appropriation.
  <bullet> Arizona's Governor and forested counties have declared a state of 
        emergency due to insect infestations impacting almost one 
        million acres of public and private land. Therefore, we request 
        that new language be added to Section 401(b), Section 402, and 
        Section 403(a) that specifies the impact of Western insects 
        including the Western Bark Beetle, IPS, Roundhead Pine Beetle, 
        and exotic Spruce Aphid.
                                 ______
                                 
                                       Jamestown, CO, May 21, 2003.
Hon. Ben Nighthorse Campbell,
Russell Senate Office Building, Washington, DC.
Re: H.R. 1904

    Dear Senator Campbell: This week, the House passed H.R. 1904 and 
this measure will soon be before the Senate. The Town Government of 
Jamestown is opposed to the measure in it's present form and it is our 
hope that it can be amended to include provisions that will ensure that 
federal dollars are spent first and foremost on defending homes and 
communities. Good legislation should focus resources in the Community 
Protection Zone in the following ways:

          1. emphasize educating the public about measures they can 
        take to make their homes and property safe from wildfire;
          2. provide funding to communities to conduct thinning 
        projects on and immediately adjacent to their property in the 
        Community Protection Zone;
          3. encourage programs that foster cooperation between 
        communities, State agencies and federal agencies to best 
        protect property and lives.

    Unfortunately, H.R. 1904 does not provide local communities with 
the necessary tools to mitigate risk from future fires. Despite the 
fact that 85% of the land within the Community Protection Zone is non-
federal, H.R. 1904 channels funds to federal land projects. We 
respectfully request that you work to amend the legislation to 
prioritize protecting communities through locally-based initiatives.
            Sincerely,
                                       Kenneth F. Lenarcic,
                                                             Mayor.
                                 ______
                                 
                                           Aspen, CO, June 2, 2003.
Hon. Ben Nighthorse Campbell,
Russell Senate Office Building, Washington, DC.
Hon. Wayne Allard,
Dirksen Senate Office Bldg., Washington, DC.
Re: ``Healthy Forests Restoration Act''

    Dear Senators: As you know, fires wreaked havoc in a number of 
Colorado communities last year, highlighting the need to support 
communities in their efforts to safeguards home, lives, and property. I 
am writing to ask you to amend the ``Healthy Forests Restoration Act'' 
by including provisions that provide communities with the resources 
they need to safeguard lives and property. As I see it, good 
legislation should focus resources in the Community Protection Zone in 
the following ways:

          1. emphasize educating the public about measures they can 
        take to make their homes & property cafe from wildfire;
          2. provide funding for communities to conduct thinning 
        projects on and immediately adjacent to their property in the 
        Community Protection Zone;
          3. encourage programs that foster cooperation between 
        communities, state agencies and federal agencies to best 
        protect property and lives.

    Unfortunately, the ``Healthy Forests Restoration Act' does not 
provide local communities with the necessary tools to mitigate risk 
from future fires. Despite the fact that 85 percent of the land within 
the Community Protection Zone is state; private, or tribal, this bill 
channels resources to federal lands, providing no support to 
communities for locally-based mitigation initiatives that are so 
desperately needed. This will not protect lives or communities. Please 
amend the legislation to prioritize homes and lives.
            Sincerely,
                                             Terry Paulson,
                                         Aspen City Council Member.
                                 ______
                                 
                                        Boulder, CO, June 19, 2003.
Senator Ben Nighthorse Campbell,
Russell Senate Office Building, Washington, DC.
Re: Healthy Forests Restoration Act

    Dear Senator Campbell: As a Boulder City Council member, last year 
I witnessed a wildfire come perilously close to destroying homes of 
many Boulder citizens. The wildfire was not on federal land, but on 
privately and city owned land. This episode illustrates that it is the 
local communities that are on the front line in fighting many 
wildfires. The wonderful rain have received this year has created an 
abundance of growth that later this summer turn into fuel for even 
greater wildfires. Funding for local communities is absent From 
Representative McGinnis' ``Healthy Forests Restoration Act.''
    I urge you to consider the amending of the bill to provide funding 
to at risk communities in fighting wildfires so that wildfires in these 
interface zones receive some degree of priority.
            Very truly yours,
                                                     Dan W. Corson.
                                 ______
                                 
                                            Town of Hayden,
                                         Hayden, CO, June 23, 2003.
Hon. Ben Nighthorse Campbell,
Russell Building, Washington, DC.
Re: Healthy Forests Restoration Act

    Dear Senator Campbell: As you know, fires wreaked havoc in a number 
of Colorado communities last year, highlighting the need to support 
communities in their efforts to safeguard homes, lives and property. 
The Hayden Town Board of Trustees is writing to ask you to amend the 
``Healthy Forests Restoration Act'' by including provisions that 
provide communities with the resources they need to safeguard lives and 
property. As we see it, good legislation should focus resources in the 
Community Protection Zone in the following ways:

          1. emphasize educating the public about measures they can 
        take to make their homes and property safe from wildfire;
          2. provide funding for communities to conduct thinning 
        projects on and immediately adjacent to their property in the 
        Community Protection Zone;
          3. encourage programs that foster cooperation between 
        communities, state agencies and federal agencies to best 
        protect property and lives.

    Unfortunately, the ``Healthy Forests Restoration Act'' does not 
provide local communities with the necessary tools to mitigate risks 
from future fires. Despite the fact that 85 percent of the land within 
the Community Protection Zone is state, private or tribal, this bill 
channels resources to federal lands, providing no support to 
communities for locally-based mitigation initiatives that are so 
desperately needed. This will not protect lives or communities. Please 
amend the legislation to prioritize homes and lives.
            Sincerely,
                                          Charles G. Grobe,
                                                             Mayor.
                                 ______
                                 
                                   Garfield County,
                             Board of County Commissioners,
                               Glenwood Springs, CO, June 25, 2003.
Hon. Wayne Allard,
Dirksen Senate Office Building, Washington, DC.
    Dear Senator Allard: I am writing this letter as a Garfield County 
Commissioner, however not on behalf of my Board of County 
Commissioners. I would like to thank you for your leadership and 
efforts to find a solution to the threat wildfires pose to our 
communities in Colorado. There are approximately 50 bills in front of 
you this year on this issue, I am certain that some address the concern 
specifically and others need further scrutiny, I am writing 
specifically about H.R. 1904. If the Senate is going to pass a wild 
land fire mitigation bill, please make sure it is targeted to meet that 
goal and not become a broad authorization for timber extraction.
    If the goal is to protect communities and municipal water supplies 
from wildfire impact, why target remote forests rather than 
concentrating on a range of solutions for populated areas? H.R. 1904 
enables millions of acres to be considered for ``fuels reduction 
projects''.
    Many of the fires in the west do not occur in areas of dense pine 
forest-land. For example, the Coal Seam Fire in Glenwood Springs last 
summer spread because of wind conditions and was fueled primarily with 
scrub oak and grass. Existing wind and wind generated from the fire 
caused it to jump a railroad corridor, the Colorado River an Interstate 
and a roadway, totaling approximately 1/2 mile. During a fire, embers 
fly, logs roll downhill and extreme wind conditions are created by the 
fire itself, each of these occurrences cause these fires to spread. 
Even in dense forest areas, I am not convinced that ``fuels reduction 
projects'' will prevent the risk of fire or would even significantly 
slow a fire down that had the momentum of the Coal Seam or Hayman 
Fires, unless we allow extreme clear-cutting and even that would not 
eliminate the risk of a fire jumping to another wooded area.
    H.R. 1904 places a great deal of emphasis on natural resource 
extraction for commercial use; for this reason, I believe it should be 
referred to as a commercial forest biomass extraction bill to better 
define the discussion Congress should be having. The implications of a 
bill dealing with wild land fire mitigation and the enhancement of 
commercial activity in our forests are quite different.
    The impacts if increased logging projects may include disturbance 
to wildlife and ecosystems, an increase in roadways, heavy traffic, 
noise increased pollution and viewscape concerns. If ``fuels reduction 
projects'' are encouraged throughout the west in National Forests, on 
BLM land and in Wilderness areas and at the same time we establish a 
grant program to improve the commercial value of forest biomass, for 
economic reasons, use will realistically go beyond healthy forest 
efforts.
    I am concerned that H.R. 1904 will not adequately enable 
communities and homeowners to mitigate the risk of future wildfires. 
Please consider the approximately 49 other wild land fire mitigation 
bills coming before you and support one that emphasizes the following:

          1. Educating the public about measures they can take to make 
        their homes and property safe from wildfire;
          2. Provide funding to communities to conduct thinning 
        projects on and immediately adjacent to their property in the 
        Community Protection Zone;
          3. Encourage programs that foster cooperation between 
        communities, state agencies and federal agencies to best 
        protect property and lives.

    I thank you in advance for your thoughtful consideration.
            Sincerely,
                                               Tresi Houpt,
                                      Garfield County Commissioner.
                                 ______
                                 
                       Eagle County Board of Commissioners,
                                           Eagle, CO, July 1, 2003.
Hon. Ben Nighthorse Campbell,
Russell Senate Office Building, Washington, DC.
Re: Healthy Forests Restoration Act

    Dear Senator Campbell:  As an Eagle County Commissioner, I 
understand the dangers of fire in our national forests. I have seen 
first hand last summers Durango and Glenwood Springs' fires damage to 
local communities. I am writing to ask you to amend the Healthy Forests 
Restoration Act of 2003 by including provisions that provide 
communities with the resources they need to safeguard lives and 
property. These are the same recommendations from the Northwest 
Colorado Council of Governments.
    Please provide direction to federal land managers to establish 
local multi jurisdictional wildlife mitigation working groups comprised 
of elected officials from affected municipalities and counties and 
policy level personnel from fire districts and state and federal land 
and resource management agencies to:

          1. Assesses wildfire hazards and assess community with 
        respect to risks and vulnerabilities.
          2. Emphasize educating the public about measures they can 
        take to make their homes & property safe from wildfire;
          3. Provide funding for communities to conduct thinning 
        projects on and immediately adjacent to their property in the 
        Community Protection Zone;

    I am in agreement to the ``how to'' of addressing wildfire 
mitigation. However, I do not think that it is appropriate land 
managers to develop and implement wildfire mitigation actions 
unilaterally.
            Respectfully,
                                            Arn M. Menconi,
                                         Eagle County Commissioner.
                                 ______
                                 
                             Costilla County Commissioners,
                                       San Luis, CO, July 16, 2003.
Hon. Ben Nighthorse Campbell,
Russell Senate Office Building, Washington, DC.
Hon. Wayne Allard,
Dirksen Senate Office Building, Washington, DC.
Re: H.R. 1904, ``Healthy Forest Restoration Act of 2003'' (HFRA)

    Dear Senators Allard and Campbell: As you know, widespread forest 
fires damaged property throughout Colorado during last year's drought, 
emphasizing the need to support local communities in efforts to 
safeguard homes and property. However, the Healthy Forests Restoration 
Act passed by the House of Representatives in May 2003 does not ensure 
any increased protection for communities at risk from fires. Protecting 
communities and property must be the top priority for any federal fire 
legislation. We are writing this letter to express dissatisfaction with 
the ``Healthy Forest Restoration Act of 2003'' and are asking you to 
help protect forested lands adjacent to homes and communities by:

          1. Including provisions in companion senate legislation to 
        provide communities with resources to safeguard property from 
        devastating wildfires in interface areas of high forest fire 
        risk.
          2. Rejecting the bill's reliance on scaling back the National 
        Environmental Protection Act because reducing public 
        participation is not a valid way to mitigate forest fire risk 
        to property.

    This bill virtually ignores community prioritization and does not 
establish any criteria to asses the risk of property loss from forest 
fires in wild land-urban interface areas, With local, state and federal 
budgets struggling to make ends meet, it is important that we make 
every dollar count in protecting communities and homes from forest fire 
risk. This means directing resources where they are most needed to save 
property! the Community Protection Zone--the forested areas adjacent to 
homes and communities. While debate over wildfires has centered on the 
management of National Forests, almost 85% of the land within the 
Community Protection Zone is private, state or tribal. To protect homes 
and communities, federal legislation must provide grant opportunities 
to states and local governments for fuel wood reduction projects within 
the Community Protection Zone on private lands.
                                 ______
                                 
                     Montana Coalition of Forest Counties,,
                                                     July 17, 2003.
U.S. Senate,
Committee on Energy and Natural Resources, Dirksen Office Building, 
        Washington, DC.
Re: What H.R. 1904 means to Montana

    Honorable Senators: As Chairman of the Montana Forest Counties 
Coalition, and a County Commissioner I applaud you today for your 
consideration of the President's Healthy Forests Restoration Act of 
2003.
    Western States and local rural communities need the relief 
necessary in H.R. 1904 immediately. Congress needs to act and act in a 
decisive manner to bring us assistance with NEPA and judicial review. 
Currently in Montana even the salvage projects identified on previous 
fires have been litigated and stopped on minor technicalities. These 
projects are not being stopped by those with legitimate concern about 
the project, but by those radical few that hope to see the complete 
demise of the wood products industry in our state. H.R. 1904 would 
address this problem by requiring the prompt filing of lawsuits and by 
requiring the courts to consider the full range of effects.
    The situation in Montana is real and imminent; we have only 9 
remaining small independent mills left in the state to even deal with 
the problem when relief comes. Loss of our mill infrastructure commits 
us to the let it burn alternative, an alternative that is not 
acceptable considering Montana has 1.4 million acres identified in 
Condition Class 3, and over 10 million acres in need of some form of 
treatment.
    I strongly urge you to support H.R. 1904 and appreciate your 
consideration of this proactive piece of legislation.
            Sincerely,
                                         Donna J Sevalstad,
                                                          Chairman.
                                 ______
                                 
                                      Ketchikan, AK, July 17, 2003.
Hon. Pete Domenici,
U.S. Senate, Energy and Natural Resources Committee, Washington, DC.
    Dear Mr. Chairman: Thank you for the opportunity to comment on the 
Healthy Forest Restoration Act. I support H.R. 1904 and the direction 
it provides for the federal agencies and public in starting to restore 
healthy forests. It needs to be passed quickly and without 
modification.
    I am serving my sixth year as an elected Ketchikan, Alaska Borough 
Assembly member. I have been a professional forester over 40 years and 
currently serve as the Chair of the Alaska Section of the Society of 
American Foresters. I retired from the US Forest Service with 33 years 
of service in Wyoming, Colorado, and Alaska. I provide my comments from 
the experience and perspective of a local elected official, a 
professional forester, and a retired employee.
    We are dramatically seeing the results of ``let mother nature 
manage'' our nations forestlands for the last two decades. The annual 
destruction of millions of acres of forestland by uncontrolled 
wildfires, insects, and disease is the result of no, to little, to 
delaying management of the forest. The ongoing loss of many small 
communities economy, infrastructure, and families is the result of no, 
to little, to delaying management of the forestlands these communities 
have depended on for decades. All of this totally unnecessary!
    Active and timely forest management based on science, common sense, 
local knowledge, and local management will provide healthy forestlands. 
Healthy forests will not prevent fires, or insect infestations, or 
diseases from occurring. But, managed healthy forests will minimize the 
damage and cost of these destructive occurrences. Forest management 
activities such as thinning to maintain the desired tree densities 
should in the long run pay for the activity. The local management goals 
for an area or watershed, be the goal for community protection, water 
production, wildlife habitat, or other resource goal will determine the 
desired tree density and size.
    Forest management goals and activities must be planned and executed 
in cooperation with local communities. The provisions of the Healthy 
Forest Restoration Act will help bring science, common sense, and local 
cooperation back to the timely management of our nation's public lands.
    I applaud the President, the Senate, and House for supporting this 
legislation.
            Sincerely,
                                          Richard L. Coose,
                                                   Assembly Member.
                                 ______
                                 
                                      Montana State Senate,
                                         Helena, MT, July 17, 2003.
U.S. Senate,
Committee on Energy and Natural Resources, Washington, DC.
Re: Healthy Forests Act of 2003

    Honorable Committee Members: In the summer of 2000 Montana suffered 
one of the most catastrophic fire seasons since the fires of 1910. Not 
only was the fire devastating to our forests, watersheds and 
communities, but it was unnecessary. In the Bitterroot National Forest 
we lost over 300,000 acres of timberland and over 70 homes. The 
litigated compromise between the Forest Service, logging industry and 
environmental groups resulted in just over 14,000 acres of timber 
restoration on Federal lands and the law suits continue.
    This cycle of burn, litigate and vacillate, must end. Our National 
Forests, our National treasure is in jeopardy from management paralysis 
as a result of the Forest Service's inability to manage these forests. 
It is not that the Forest Service is unwilling to manage the forests, 
but just that they are unable as a result of the mistrust between the 
various polarized factions. How many homes must be lost, how many lives 
disrupted, how many acres destroyed and how many watersheds decimated 
before we say ``that's enough''? Now is the time to proceed forward 
with the National Forest County Partnership Restoration Program (CPR 
program for short).
    Congress has asked us for a direction in the management of our 
forests and the CPR program is our response. It is a collaborative 
effort among agencies, environmental groups and local communities to 
resolve forest conflict and to focus on restoring our forests. CPR is 
``bottom up, rather than top down management program'' that allows 
local communities, along with state and federal agencies to address the 
health of our National Forests utilizing the best available science.
    During Montana's 2003 legislative session we passed Senate Joint 
Resolution 7 which supports the National Forest County Partnership 
Restoration Program that was established by the 106th Congress for 
implementation in National Forests in Montana and other Western States. 
Montana is ready to proceed, ready again to manage our forests, but we 
need your help. Our nation spends billions of dollars on fire 
suppression, isn't it time to spend a small percentage of that money on 
restoration? Restoration today will reduce the severity of fires 
tomorrow, improve our watersheds, protect our habitat and most 
importantly secure our communities. Please fund a Western States CPR 
program to protect and preserve our National Treasure!
            Most sincerely,
                                       Senator Rick Laible,
                                                    Montana Senate.
                                 ______
                                 
                        Navajo County Board of Supervisors,
                                                      Holbrook, AZ.
Hon. Pete Domenici,
U.S. Senate, Energy and Natural Resources Committee, Washington, DC.
    Dear Chairman: The Apache-Sitgreaves National Forest County 
Partnership Restoration (CPR) Program is pleased to comment on our 
efforts to bring all of our agencies and stakeholders together to 
resolve the Western Forest Health Issue.
    Last year our CPR Partners in Arizona lost nearly one half million 
acres of beautiful forests, had entire communities destroyed and over 
20,000 people driven into the night. We are continuously under siege 
from wildfire threat, as we watch our forests dying around us.
    To solve this crisis will take years. And, our approach will never 
be effective until we accomplish three goals. First, federal, tribal, 
state, county and local governments must sit at the table as equal 
partners and perform their prescribed roles under their authorities 
with maximum effectiveness. Second, the effort must not be piecemeal, 
but comprehensive, at the level of entire State, National and Tribal 
Forests. That is, we must act to restore a 1 million acre National 
Forest, even though the watershed treatments occur 1000 acres at a 
time. And, third, it is unfortunate that the federal treasury must 
issue the funds for the crisis. However, it is a federal public issue, 
and we are fortunate to have whatever funds we can to combat this 
crisis, and the willingness of all levels of government to be engaged. 
These funds should be available, as determined necessary, to all 
governments that are committed to this common effort.
            Sincerely,
                                              Pete Shumway,
                                     Supervisor, Navajo County, AZ.
                                 ______
                                 
                   Sweetwater County Conservation District,
                                         Farson, WY, July 18, 2003.
Hon. Pete Domenici,
U.S. Senate, Energy and Natural Resources Committee, Washington, DC.
    Dear Chairman Domenici: On November 8th and 9th, 2002, the 
Sweetwater County Conservation District participated in the National 
Forest County Partnership Restoration Program (CPR) conference held in 
Rawlins, Wyoming. The Wyoming Association of Conservation Districts and 
the National Association of Forest Service Retirees hosted the 
conference. The U.S. Department of Agriculture, Department of the 
Interior, local and State governments, and federal agency personnel 
were represented with members of the Public from around the West and 
Alaska also in attendance.
    The Sweetwater County Conservation District participated in the 
Rawlins Conference to learn how to better utilize limited resources in 
coordinated efforts with federal agencies.
    Sweetwater County, Wyoming comprises almost seven million acres of 
predominately semi-arid desert. The Bureau of Land Management 
administers approximately five million acres of that with about 96,000 
acres administered by the U.S. Forest Service and U.S. Fish and 
Wildlife Service. We bring this information to the Committee Members' 
attention from a perspective that Western desert villages, 
municipalities, industries and wildlife are fully dependent on our 
Nation's forested lands for our water resource, even though we may not 
be situated in an Urban/Wildfire location. Our desert stream water 
comes from the Upper Green River Basin of the Colorado River System and 
travels hundreds of miles from watersheds in the National Forests prior 
to reaching our desert areas. Without healthy forests, our desert lands 
are at risk; together these affect our entire ecosystems.
    Wyoming has been blessed the past three fire seasons with having no 
disastrous fires as have recently occurred in our sister States of 
Arizona, Colorado, Montana, New Mexico and Oregon. Forests in Wyoming 
do suffer though from the same effects of insect infestation, 
vegetative disease and excess fuel buildup. (We currently have 10 
wildfires burning in Wyoming.) These are parallel conditions that 
resulted in the Rodeo-Chediski, Bitterroot, Biscuit and Hayman fires. 
It is only a matter of time before Wyoming's Medicine Bow National 
Forest, Bighorn National Forest or Shoshone National Forest go up in 
smoke and devastate vast amounts of wildlife, critical wildlife habitat 
and the municipal watersheds that go hand in hand with that landscape.
    The Sweetwater County Conservation District has asked Otero County, 
New Mexico County Commissioner Michael Nivison to include our 
perspective in his testimony to your Committee on July 22, 2003. The 
Healthy Forest Restoration Act being debated should be viewed as a 
bipartisan effort in the same way that interdependencies are found 
between high elevation desert lands and National Forests. Our mutual 
dependency on forest health and on each other can only serve as an 
example of the critical need for Congress to implement a strategy that 
local, State, Tribal and federal governments or agencies can 
efficiently use to work toward healthy forests that benefit the entire 
landscape and ultimately our Nation.
            Respectfully submitted,
                                               Mary Thoman,
                                                          Chairman.
                                 ______
                                 
                             Board of County Commissioners,
                                Montrose County, CO, July 18, 2003.
Hon. Pete Domenici,
U.S. Senate, Energy and Natural Resources Committee, Washington DC.
    Dear Chairman: Our collaborative working group of the Grand Mesa, 
Uncompahgre, Gunnison National Forest County Partnership Restoration 
Program (CPR), is pleased to comment to your Committee on our efforts 
toward forest restoration.
    Of greatest importance, Congress and the Administration need to 
fully embrace the expanded involvement of tribal, state, county and 
local governments in this effort. We feel all governments must be 
respected as full partners in this process. All governments must be 
invited into a shared governance setting to address this National 
Emergency. It seems most difficult to make this happen. Their roles and 
authorities are always different, but we must make them equal partners 
in the common task. Procedures must be developed to improve these 
partnership interactions.
    The county governments in the CPR Program are committed to their 
partnership in resolving this emergency, and we will continue to work 
at making our collaborative partnerships stronger.
            Sincerely,
                                               David Ubell,
                                                      Commissioner.
                                 ______
                                 
               Black Hills Regional Multiple Use Coalition,
                                     Rapid City, SD, July 18, 2003.
Hon. Pete Domenici,
Chairman, Senate Energy & Natural Resources Committee, Washington, DC.
    Dear Senator Domenici: The Black Hills Regional Multiple Use 
Coalition represents a diverse spectrum of stakeholders who advocate 
for the sustained multiple-use management of the Black Hills National 
Forest in South Dakota and Wyoming. Among our 38 member groups are 
livestock and . agricultural producers, motorized and non-motorized 
recreationists, sportsmen, forest products companies, and community 
economic development interests. We write today to plead for the help of 
you and your colleagues in passing comprehensive, meaningful 
legislation that would empower the U.S. Forest Service to protect the 
forests our members cherish and depend upon from the onslaught of 
insect epidemics and catastrophic wildfire.
    In the last three years, over 280,000 acres of the 1.2 million-acre 
Black Hills National Forest were either scorched by wildfire or 
seriously infested with forest insects. The Forest Service estimates 
that still another staggering 466,000 acres of our forest have grown 
significantly outside their historic fire regime and stand at high risk 
to catastrophic wildfire. Epidemic populations of mountain pine beetle 
killed approximately 300,000 trees in 2001, up 2700 percent from levels 
only three years prior. Recent inventories show that yet another 
370,000 trees were killed by this insect last year, and forecasting 
data collected by Forest Service entomologists project only more doom 
and gloom to come. The Forest Service, arrested within a straight 
jacket of conflicting procedure, analysis, and statute, is simply 
accomplishing too little, too slowly to alleviate these threats to our 
forests.
    As you may already know, the Black Hills National Forest faced an 
insect and wildfire problem so abysmally severe, and remedial action 
through conventional Forest Service procedures faced barriers so 
insurmountable, that a site-specific piece of legislation was necessary 
to begin to break the impasse. The South Dakota Congressional 
Delegation convened a group of forest stakeholders, including our 
organization, which eventually crafted a compromise that would allow 
expeditious thinning and fuels reduction on roughly 8,000 acres of 
beetle-infested and high wildfire risk areas, in exchange for 
additional Wilderness designation in the Black Hills. After five months 
of arduous negotiation, this compromise was included as an amendment to 
the Supplemental Defense Appropriations Bill of 2002 and came to be 
known as the ``Black Hills Fire Prevention Agreement.''
    Though it was and continues to be the subject of much controversy, 
we believe a louder and more important statement was made in the 
necessity of this legislation's passage: the `process' is broken. There 
is simply no reason, especially in the face of a situation so dire as 
Beaver Park's was, that a special Act of Congress should be required 
each time the Forest Service sees the need to implement a project for 
the protection of basic public safety and forest resources.
    To illustrate this point further, the Black Hills legislation of 
2002 also mandated the completion of a comprehensive Environmental 
Impact Statement, called the ``Elk, Bugs & Fuel'' EIS, to address the 
breadth of the mountain pine beetle epidemic in the northern Black 
Hills. The legislation only authorized insect- and fire-risk reduction 
treatments on 8,000 acres of our forest, a small `band-aid' for the 
gaping wound of tens of thousands of acres currently infested or at-
risk, the EIS was to implement something closer to a `cure' and do so 
on a required completion timeline of July 31, 2003.
    Recently, the Forest Service published a Draft of ``Elk, Bugs & 
Fuel.'' Because of the egregious length of time required to complete 
the various aspects of Forest Service analyses, and the absence of 
latitude available to the Forest Service to prioritize fuels and insect 
treatment objectives, the project is doomed to ineptitude. Through its 
assessment, the Forest Service estimated that 79 percent of the 44,000+ 
acres it analyzed were at moderate or high risk to catastrophic fire, 
and 61 percent were at moderate or high risk to mountain pine beetle 
infestation. The forest management activities ``Elk, Bugs & Fuel'' 
proposes to execute would decrease these risks by an embarrassingly 
insufficient nine and three percent, respectively.
    The Forest Service is in need of a vehicle through which they can 
prioritize forest health and wildfire risk reduction treatments, and 
implement these treatments in an expeditious fashion. We cannot `think 
small' when it comes to addressing forest health; these problems exist 
because entire landscapes are ecologically out of whack. The Forest 
Service must, as a product of whatever legislation is eventually 
passed, be able to complete comprehensive forest health projects like 
``Elk, Bugs & Fuel'' 1) quicker, and 2) better.
    Much of the debate on the issue of forest health legislation has 
revolved around ``where'' and ``how'' the Forest Service should be 
allowed to complete projects under expedited procedures, primarily as 
this relates to the Wildland-Urban Interface (WUI). However, when 
deliberating upon this issue it is important to remember several 
fundamental considerations.
    First, commensurate with the landscape-scale of the forest health 
problem is the scale of the impacts that catastrophic fire and insect 
events wreak upon the forest resource and the public. Water quality, 
air quality, wildlife habitat, scenic values, and forest infrastructure 
all suffer from the effects of unnatural fires and rampant forest 
disease outbreaks. This means that, although a given wildfire may not 
directly threaten homes and communities, these publics will nonetheless 
have to endure polluted drinking supplies, flooding and landslides, 
chronic respiratory ailments, decreased property values, slumping 
tourism-based economics, and `homeless' Threatened or Endangered 
species. Therefore, we believe it is necessary to approach this 
situation by heavily prioritizing treatments wthin the WUI, while 
balancing this emphasis with addressing the equally important broader 
forest resource and multiple-use concerns that may exist outside areas 
formally defined as WUI.
    Second, a `canned', one-size-fits-all definition of WUI will simply 
never work. As difficult as the proposition of `trusting the Forest 
Service' is to swallow for many, ourselves included, resource managers 
must be allowed to do their jobs. With all due respect, Congress cannot 
anticipate all the on-the-ground resource concerns involved in the 
crafting and implementation of a forest project. Often, for instance, a 
definition of WUI based upon an arbitrary distance from the city limits 
of identified at-risk communities would fail to include anything but 
private land ownership over which the Forest Service simply has no 
management influence. Such a definition would also necessarily be 
insensitive to concerns like slope, topography, existing fuels 
conditions and forest type, not to mention excluding unincorporated 
municipalities and subdivisions that do not fall under the formal 
definition of a ``community.''
    Thank you for your time and consideration, we hope you and your 
colleagues see fit to bring legislative pragmatism to bear on this very 
desperate situation.
            Sincerely,
                                                Tom Troxel,
                                                          Director.
                                 ______
                                 
                                              Forest Trust,
                                      Santa Fe, NM, August 4, 2003.
Hon. Pete Domenici, Chair,
Hon. Jeff Bingaman, Ranking Member,
U.S. Senate, Committee on Energy and Natural Resources, Washington, DC.
    Dear Senator Domenici and Senator Bingaman: Thank you for the 
opportunity to testify before the Committee on Energy and Natural 
Resources on July 22, 2003 about forest health and fire legislation. I 
wish to make one additional set of comments for the Committees' 
consideration related to the practice of ``fire borrowing.''
    In bad fire years when the Forest Service expenditures for fire 
suppression exceed the budgeted amount, the agency borrows funds from 
other programs. As USDA Undersecretary Mark Rey explained, the 
borrowing practice worked when the Forest Service had Knutsen-
Vanderberg funds to borrow from, but with the decline of the timber 
sale programs these funds have not been replenished and the Forest 
Service must borrow from its other program funds. The problem is that 
the programs whose funds are ``borrowed'' are critical to reducing 
fuels and are important if we are going to reduce the suppression of 
catastrophic wildfires. The fire borrowing practice has direct impacts 
on small businesses that comprise much of the workforce for the fuel 
reduction treatments .
    I will provide you with two examples from 2002 in New Mexico that 
illustrate why the fire borrowing practice needs to be stopped:
    1. Las Humanas Cooperative in the East Manzano Mountains has a 
forestry services business that depends largely on fuel reduction 
projects on the Cibola-National Forest. The Forest Service worked for 
several years to complete the NEPA documentation for the Thunderbird 
fuel reduction and restoration project. Las Humanas expected to bid on 
the Thunderbird project in 2002 and had the workforce in place to do 
the job. The funds for the contract were borrowed during the 2002 fire 
season. As a result, the contract was not advertised until after the 
2003 budget for the Forest Service was passed in March 2003. After this 
6-month delay, Las Humanas had lost part of its workforce and had to 
shoulder the expense of training new employees.
    2. American Forest Products is a small business in Cuba, New Mexico 
that was awarded a grant through the Collaborative Forest Restoration 
Program. The grant funds were borrowed in the 2002 fire season and 
provided a major setback to American Forest Products. This fledging 
business has received over $300,000 in assistance from the Economic 
Action Program for purchase of equipment to chip forest biomass from 
thinning projects, and a pilot gasification plant from the Forest 
Products Lab that runs on chips and heats the local schools. The 
diverted funds were needed to perform thinning that would provide the 
biomass for the chips, the gasifer, and the school heat. The diverted 
funds were also intended to keep a local crew employed in the woods 
after a 3-month training period that was paid for with funds from the 
National Forest Foundation. American Forest Products could not keep the 
crew employed after the grant funds were diverted, and they found other 
work. Once the grant was finally awarded in March 2003, American Forest 
Products had to spend some of the treatment dollars on training of new 
employees.
    The fire borrowing practice hurts small businesses and hinders the 
national effort to reduce forest fuels. With the fire situation 
intensifying in the Northern Rockies, and fire borrowing already 
starting with 2003 funds because the House did not provide emergency 
funds, the Congress needs to take action to prevent this practice in 
the future.
    Thank you for considering these comments about fire borrowing. We 
appreciate the opportunity to contribute our experiences to the 
Committee record.
            Sincerely,
                                            Laura McCarthy,
                                                  Program Director.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
